<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF COMMERCE, THE CORPORATION FOR PUBLIC BROADCASTING, AND THE DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 108-1010]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 108-1010

                             NOMINATIONS TO
                      THE DEPARTMENT OF COMMERCE,
                THE CORPORATION FOR PUBLIC BROADCASTING,
                  AND THE DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-896 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 4, 2003.................................     1
Statement of Senator Allen.......................................     3
Statement of Senator Lautenberg..................................     4
Statement of Senator Lott........................................    63
Statement of Senator McCain......................................     1
    Letter dated November 3, 2003 to Hon. John McCain from Joseph 
      Leonard, Chairman and CEO, AirTran Airways, Inc.; Doug 
      Parker, Chairman, President and CEO, America West Airlines; 
      Jeff Potter, President and CEO, Frontier Airlines Inc.; 
      David Neeleman, CEO, JetBlue Airways Corporation; Timothy 
      E. Hoeksema, Chairman, President and CEO, Midwest Express 
      Airlines; Herb Kelleher, Chairman, Southwest Airlines; and 
      Jacob M. Schorr, President and CEO, Spirit Airlines........    57

                               Witnesses

Courtney, Elizabeth, President and CEO, Louisiana Public 
  Broadcasting...................................................    29
    Prepared statement...........................................    31
    Biographical information.....................................    32
Gallagher, Michael D., Nominee to be Assistant Secretary for 
  Communications and Information, U.S. Department of Commerce....     5
    Prepared statement...........................................     6
    Biographical information.....................................     7
Halpern, Cheryl Feldman, Nominee to be A Member of the Board of 
  Directors, Corporation for Public Broadcasting.................    15
    Prepared statement...........................................    17
    Biographical information.....................................    18
Rosen, Jeffrey A., Senior Partner, Kirkland & Ellis, LLP.........    45
    Prepared statement...........................................    46
    Biographical information.....................................    47
Van Tine, Kirk K., Counselor to the Secretary, U.S. Department of 
  Transportation.................................................    37
    Prepared statement...........................................    38
    Biographical information.....................................    39

                                Appendix

Letter dated October 31, 2003 to Hon. John McCain from T. Peter 
  Ruane, President and CEO, American Road and Transportation 
  Builders Association...........................................    71
Letter dated October 31, 2003 to Hon. Ernest F. Hollings from T. 
  Peter Ruane, President and CEO, American Road and 
  Transportation Builders Association............................    71
Letter dated October 31, 2003 to Hon. John McCain from Gloria 
  Cataneo Tosi, President, American Maritime Congress............    72
Letter dated November 3, 2003 to Hon. John McCain and Hon. Ernest 
  F. Hollings from Edward R. Hamberger, Association of American 
  Railroads......................................................    73
Letter dated November 3, 2003 from Stephen E. Sandherr, Chief 
  Executive Officer, Associated General Contractors of America...    73
Letter to Hon. John McCain from Ed Bolen, President and CEO, 
  General Aviation Manufacturers Association.....................    74
Letter to Hon. Ernest F. Hollings from Ed Bolen, President and 
  CEO, General Aviation Manufacturers Association................    74
Letter dated November 3, 2003 to Hon. Ernest F. Hollings from 
  Joseph Leonard, Chairman and CEO, AirTran Airways, Inc.; Doug 
  Parker, Chairman, President and CEO, America West Airlines; 
  Jeff Potter, President and CEO, Frontier Airlines Inc.; David 
  Neeleman, CEO, JetBlue Airways Corporation; Timothy E. 
  Hoeksema, Chairman, President and CEO, Midwest Express 
  Airlines; Herb Kelleher, Chairman, Southwest Airlines; and 
  Jacob M. Schorr, President and CEO, Spirit Airlines............    75
Letter dated November 3, 2003 to Hon. Trent Lott from Joseph 
  Leonard, Chairman and CEO, AirTran Airways, Inc.; Doug Parker, 
  Chairman, President and CEO, America West Airlines; Jeff 
  Potter, President and CEO, Frontier Airlines Inc.; David 
  Neeleman, CEO, JetBlue Airways Corporation; Timothy E. 
  Hoeksema, Chairman, President and CEO, Midwest Express 
  Airlines; Herb Kelleher, Chairman, Southwest Airlines; and 
  Jacob M. Schorr, President and CEO, Spirit Airlines............    75
Letter dated November 3, 2003 to Hon. John D. ``Jay'' Rockefeller 
  IV from Joseph Leonard, Chairman and CEO, AirTran Airways, 
  Inc.; Doug Parker, Chairman, President and CEO, America West 
  Airlines; Jeff Potter, President and CEO, Frontier Airlines 
  Inc.; David Neeleman, CEO, JetBlue Airways Corporation; Timothy 
  E. Hoeksema, Chairman, President and CEO, Midwest Express 
  Airlines; Herb Kelleher, Chairman, Southwest Airlines; and 
  Jacob M. Schorr, President and CEO, Spirit Airlines............    76
Letter dated November 3, 2003 to Hon. John McCain from James L. 
  Henry, Transportation Institute................................    77
Letter dated November 4, 2003 to Hon. John McCain from Arnold F. 
  Wellman, Vice President, Corporate Public Affairs, Domestic/
  International, UPS.............................................
Letter dated November 5, 2003 to Hon. John McCain from William W. 
  Millar, President, American Public Transportation Association..    77
Letter dated November 5, 2003 to Hon. Ernest F. Hollings from 
  William W. Millar, President, American Public Transportation 
  Association....................................................    78
Letter dated November 6, 2003 to Hon. Bill Frist from David N. 
  Siegel, President and Chief Executive Officer, US Airways......    79
Letter dated November 13, 2003 to Hon. Bill Frist from William B. 
  Spencer, Vice President, Government Affairs, Associated 
  Builders and Contractors, Inc..................................    79
Response to written questions submitted by Hon. Conrad Burns to 
  Michael D. Gallagher...........................................    80
Response to written questions submitted to Kirk K. Van Tine by:..
    Hon. John McCain.............................................    81
    Hon. Ernest F. Hollings......................................    86
    Hon. John D. Rockefeller IV..................................   112
Response to written questions submitted by Hon. Ernest F. 
  Hollings to Jeffrey A. Rosen...................................   113
 
                     NOMINATIONS TO THE DEPARTMENT
                    OF COMMERCE, THE CORPORATION FOR
                      PUBLIC BROADCASTING, AND THE
                      DEPARTMENT OF TRANSPORTATION

                              ----------                              


                       TUESDAY, NOVEMBER 4, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. We meet this morning to examine 
the qualifications of several individuals nominated by the 
President to serve the American people.
    We welcome our first nominee, Michael Gallagher, his family 
members and guests. Mr. Gallagher has been asked to serve as 
the Assistant Secretary for Communications and Information for 
the Department of Commerce, and as the Administrator of the 
National Telecommunications and Information Administration. If 
confirmed, Mr. Gallagher would be the President's principal 
advisor on telecommunications policy and would be responsible 
for formulating policies, supporting the development and growth 
of telecommunications and related industries, providing policy 
and management over the Federal Government's use of spectrum, 
and overseeing telecommunications facilities and grants.
    Our second nominee is Cheryl Halpern. Ms. Halpern has been 
nominated by the President to serve on the Board of Directors 
for the Corporation for Public Broadcasting (CPB). The CPB is a 
private, nonprofit corporation that distributes funds from the 
Federal Government and donations from private entities to aid 
the development of programming for public radio and television 
stations. Ms. Halpern has been serving on the Board of the CPB 
since August 6, 2002, as a recess appointee. We welcome Ms. 
Halpern and her family and guests.
    Also nominated to serve on the Board of Directors for the 
CPB is Elizabeth Courtney. Ms. Courtney is currently the 
President and CEO of Louisiana Public Broadcasting, which 
includes a statewide public television network. Ms. Courtney 
started her career as a capital correspondent, and we welcome 
her today----
    [Laughter.]
    The Chairman.--with her family and guests.
    We'll also consider two positions to serve at the 
Department of Transportation, DOT. We welcome back Mr. Kirk Van 
Tine, who has been nominated to be Deputy Secretary of DOT. Mr. 
Van Tine is very familiar with this Committee's work, along 
with the many challenges confronting our Nation's 
transportation system, from his previous service as DOT General 
Counsel, a position that he held for over 2 years. We welcome 
Mr. Van Tine.
    Finally, we welcome Mr. Jeffrey Rosen, who has been 
nominated to serve in the DOT General Counsel position 
previously held by Mr. Van Tine. Mr. Rosen is a former Partner 
at Kirkland & Ellis.
    Before we go further, could we ask each of the nominees to 
introduce their family members who are present here in the 
audience, beginning with you, Mr. Gallagher.
    Mr. Gallagher. Thank you, Senator McCain. Thank you, Mr. 
Chairman.
    First, I'd like to introduce my mother, Kathy Bennett, and 
my stepfather, Fred Bennett, who came here from California to 
be here today.
    The Chairman. Welcome. I'm glad you got out of there.
    [Laughter.]
    Mr. Gallagher. Next, I'd like to introduce my 89-year-old 
grandfather, who, prior to this trip here today, had not been 
east of the state of Nevada.
    [Laughter.]
    The Chairman. Welcome, sir, glad you're here.
    Mr. Gallagher. And then I'd like to introduce my three 
children: Alexandria, Daniel, and Madison. Alexandria and 
Daniel are natives of Washington State, and Madison is a 
Virginian.
    The Chairman. Welcome to three wonderful children.
    Mr. Gallagher. And, finally, I'd like to introduce the 
Chief Executive Officer of my family, my wife Rhonda, who 
shares my deep passion for our great country and commitment to 
public service.
    The Chairman. Welcome to your entire family, and I know 
this is a wonderful moment for you. Thank you.
    Ms. Halpern?
    Ms. Halpern. Much as I would like to have had the 
opportunity to introduce my family, they are still in London, 
where we all had gathered for a family celebration. So I flew 
back alone.
    The Chairman. I guess you're saying that we, here at the 
Committee, are--screwed up your life.
    [Laughter.]
    The Chairman. Is that what you were saying, Ms. Halpern?
    Ms. Halpern. No, I just got to go back.
    The Chairman. We will quickly go to Ms. Courtney.
    [Laughter.]
    Ms. Courtney. Thank you, Mr. Chairman.
    I'd like to introduce my husband, who's with me, Bob 
Courtney, in the front row, from Baton Rouge, Louisiana, and 
my----
    The Chairman. Welcome, sir.
    Ms. Courtney.--and my brother, George Hardy, who came from 
San Diego, California.
    The Chairman. Welcome, George.
    And Mr. Van Tine?
    Mr. Van Tine. Chairman McCain, I'd like to introduce my 
wife Barbara, and I'd like to say that I appreciate her support 
very much.
    The Chairman. Thank you. Welcome, Barbara.
    And Mr. Rosen?
    Mr. Rosen. Thank you, Mr. Chairman.
    I'd like to introduce my wife Kathy and my three children, 
Anne, Sally, and Jim.
    The Chairman. Welcome to the family. Thank you.
    Thanks to all the family members for being here today. This 
is an important time, and we're grateful for the nominees' 
willingness to serve the United States of America, and we're 
grateful for it.
    I'd like to ask my friend, Senator Allen, who would like to 
make some opening comments about the nominees.
    Senator Allen?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, and thank you for 
holding this hearing, even if it did inconvenience Ms. 
Halpern----
    [Laughter.]
    Senator Allen.--because I'm sure they won't--she can go 
back and tell great stories to her family.
    But I appreciate the opportunity to talk about, in 
particular, two very well-qualified nominees to the 
Transportation secretariat. They are long-time residents of 
Virginia, particularly Northern Virginia, Mr. Kirk Van Tine and 
Jeffrey Rosen. Their leadership will be important for the 
Department of Transportation, helping lead its direction in 
constructive ways. Let me just say a few things about both of 
them.
    Mr. Kirk Van Tine has been nominated, as you say, Mr. 
Chairman, to be Deputy Assistant Secretary of Transportation. 
Given the current needs for our transportation infrastructure, 
this position really does carry added importance and will 
require his strong leadership.
    The President's choice of Kirk Van Tine--it's the second 
time he's done this. This is the second nomination. He served 
as part of the President's leadership team. On September 24, 
2001, the U.S. Senate confirmed Mr. Van Tine as Department of 
Transportation General Counsel on a 97-to-0 vote. That vote 
reflected his accomplishments and his record. He has earned the 
trust, obviously, of the President and Secretary Mineta. It's 
well founded. He has good common sense advice, and particularly 
in regard to the implementation of security legislation enacted 
in the aftermath of September 11 disasters.
    Prior to joining the Bush Administration, Kirk Van Tine was 
a partner in the firm of Baker & Botts, where he specialized in 
business litigation for 23 years. I am also pleased to inform, 
particularly, the Chairman that Kirk Van Tine served in the 
United States Navy from 1966 to 1975. He is a graduate of the 
U.S. Naval Academy and also my alma mater, the University of 
Virginia Law School, graduating in 1978.
    Mr. Jeffrey Rosen will be succeeding--hopefully succeeding 
Kirk Van Tine as General Counsel, overseeing the many legal 
offices and affairs, advising the Secretary. He has been a 
senior partner, is a senior partner, in the firm of Kirkland & 
Ellis, focusing on litigation practice on a variety of matters, 
from antitrust cases to product liability, information 
technology, freight railways, power-plant development 
construction, fiber optic communications. It's a great resume 
there. He has served even as an adjunct--has served as an 
adjunct professor at Georgetown's Law Center for the past 8 
years. Currently, he is on the Board of Trustees at 
Northwestern University. He's committed to the Commonwealth of 
Virginia a variety of community activities, from the Virginia 
Historical Society, the Fairfax Historical Society, Arlington 
Historical Affairs, and Landmark Review Board in the past. And 
I will say, in these biographical reviews, it indicates that he 
did support George W. Bush in 2000, but I see, when he was up 
in Massachusetts in college, and later in Virginia, he was an 
active Democrat in Arlington and in Virginia in the late 1980s. 
I overlook all of that since----
    [Laughter.]
    Senator Allen.--because since 1998 he has been a member of 
the Reston Raiders Hockey Club, showing great character and 
tenacity. So he does bring a good, strong academic background, 
as well, but the fact that he's a hockey player, looking at his 
character, shows a certain amount of grit and character. And, 
to me, that's a most impressive thing, that we need hockey 
players advising----
    [Laughter.]
    Senator Allen.--the Department of Transportation on how 
to--sometimes you get up against the boards and you've got to 
get that puck out, one way or the other.
    So, Mr. Chairman, thank you for allowing me to introduce 
these two fine gentlemen, and I look forward to their 
confirmation on the floor.
    The Chairman. Thank you, Senator Allen. Thank you for your 
personal interest in these nominees.
    Senator Lautenberg, do you have any opening comments?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. I do.
    I thank you for holding this important hearing on nominees 
that represent a range of agencies under jurisdiction of the 
Committee. They're important positions that require leadership 
skills and candidates of the highest quality, and I believe, 
Mr. Chairman, that we have such folk here.
    I want to briefly focus on one of the nominations, that of 
Mr. Van Tine, for the Deputy Secretary of the Department of 
Transportation. Mr. Van Tine is not a newcomer to the 
Department, having served as General Counsel for the last 2 
years. He's now nominated to the top policy position in the 
Department, and I have specific concerns about the policy 
direction of DOT.
    With regard to rail, I'm very disappointed in the 
Administration's unrealistic proposal for Amtrak. Even the DOT 
Inspector General has confirmed that under the President's $900 
million budget request, the railroad can't survive.
    And regarding aviation, as well, I thought the 
Administration's attempt to privatize the air traffic control 
system--for reasons that have little to do with transportation 
policy, the Administration has vigorously pursued a 
privatization agenda, frankly, I think, at the cost of the 
safety and security of airline passengers. And even after both 
the House and the Senate passed FAA reauthorization bills that 
explicitly prohibited privatization of air traffic controllers, 
we're now faced with a conference report that's silent on the 
issue, clearing the way, I think, for the Administration's 
dangerous privatization scheme.
    Mr. Chairman, I also want to greet Ms. Cheryl Halpern, who 
is a New Jersey person. I know her father very well. He's a 
exceptional man who survived the worst that mankind could put 
upon mankind and went on to succeed in America, as few have, 
because he had the determination to put the past behind him, 
build his family, build his business, and build his reputation. 
So I welcome Ms. Halpern here.
    And I thank you, Mr. Chairman, for holding this Committee 
hearing now.
    The Chairman. Thank you.
    We'll begin with--we'll have opening statements, and we'll 
begin with you, Mr. Gallagher. And if you'd pull the microphone 
close so that the recorder can get----
    Welcome.

        STATEMENT OF MICHAEL D. GALLAGHER, NOMINEE TO BE

           ASSISTANT SECRETARY FOR COMMUNICATIONS AND

            INFORMATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Gallagher. Thank you, Mr. Chairman. And thank you for 
scheduling this hearing to quickly.
    It is truly an honor to appear before this Committee. I am 
also truly gratified and honored to be the President's nominee 
to be Assistant Secretary of Commerce for Communications and 
Information. I am committed to serving the American people in a 
manner worthy of the support and confidence the President and 
Secretary Evans have shown in me.
    In addition to my prepared statement, I would like to add 
the following thoughts. We are truly living in a remarkable era 
for technology in our country. The technological progress that 
is sweeping our country--from fiber optics to computers, 
throughout our radio spectrum, from a.m. radio bands up to now 
90 gigahertz bands, marrying nanotechnology with computers--
present us with bold new frontiers and great opportunities. 
That technological progress is enriching our lives, boosting 
our economy, and making us safer. Though the challenges to 
policy may be daunting, I am energized and optimistic to be 
here today as an American, a husband, a father, and a public 
servant.
    Thank you, and I look forward to answering any questions.
    [The prepared statement and biographical information of Mr. 
Gallagher follow:]

       Prepared Statement of Michael D. Gallagher, Nominee to be 
  Assistant Secretary of Commerce for Communications and Information, 
                      U.S. Department of Commerce
    Mr. Chairman, Senator Hollings, and Members of the Committee,

    Thank you for the opportunity to appear before you today. I have 
had the opportunity to work closely with you and your capable staff on 
a number of difficult policy issues that have faced our country over 
the last two years, including a number of very difficult spectrum 
access issues. If confirmed, I look forward to further cooperation and 
shared achievement on behalf of the American people.
    I am also very grateful for the honor which President Bush and 
Secretary Evans have conferred on me by nominating me to be Assistant 
Secretary of Commerce for Telecommunications and Information.
    Telecommunications, technology, and the Internet are key drivers in 
our economy and society today. Since passage of the Telecommunications 
Act of 1996, our country has moved far beyond voice communication over 
copper telephone wires. As anticipated by Congress, the forces of 
competition, free markets and investment have dramatically improved our 
technology and telecommunications foundation. In 1996, the Internet was 
relatively new as a consumer phenomenon. Today, it is estimated that 
virtually every business, every classroom, and over 60 percent of 
households have access to and use the Internet. According to industry 
sources, in 1996 we had 38 million analog wireless customers; today we 
have over 150 million digital customers projected to use nearly 800 
billion minutes this year. DVD players did not exist in 1996; today 
they are as common as VCRs and represent a content revenue stream 
greater than theater receipts. In 1996 broadband Internet access was a 
distant vision; today over 20 percent of American households subscribe 
to broadband service offered either by their cable or telephone 
provider. WiFi and other spectrum based technologies were theoretical 
in 1996; today they are widely available in consumer electronics stores 
and are changing the landscape for both wireless and wired services 
alike. All of these innovations and new services have enriched our 
lives and solidified the U.S. economy as the most productive and 
resilient in the world.
    However, the correction of the of the technology and telecom 
``bubble'' of the late 1990s, a wave of corporate scandals, and an 
economy challenged by recession and terrorist attacks have taken a toll 
on the technology and telecommunications sectors. These forces have 
resulted in hundreds of billions of lost investment, hundreds of 
thousands of lost jobs, and scores of bankruptcies. One critical focus 
of policy in the coming years must be the fostering of an environment 
of entrepreneurship, competition and investment for the technology and 
telecommunications sectors of our economy--so they can continue to 
enrich our society. If I am confirmed, I look forward to working with 
the Congress, the FCC, and U.S. industry in the development of national 
policies focused on cultivating that environment.
    Many other policy challenges face our telecommunications and 
technology sectors as well. While the Department of Commerce has had 
great success in working with the FCC on key spectrum issues like the 
authorization of ultrawideband technologies, finding an additional 90 
MHz of spectrum for advanced wireless services (``3G''), and doubling 
the amount of spectrum for WiFi at 5 GHz, the pressure on spectrum 
policy will only continue to rise with the invention and deployment of 
very small computers that incorporate wireless capabilities. That 
pressure will require the NTIA, FCC and other Federal agencies to 
redouble their commitment to the technical resources necessary to forge 
sharing arrangements that both authorize new technologies, but also 
protect our very valuable incumbent systems.
    Similarly, the continued growth and adoption of broadband Internet 
access and the productivity gains of our economy due to further 
deployment of computers and Internet-based technologies are dependent 
on the development of sound policies. The Administration, the Congress, 
and the independent agencies must work together to develop bipartisan 
policies to address the issues posed by a number of issues including, 
spam, critical infrastructure protection, privacy, cybersecurity, 
piracy, and the protection of children on the Internet. If confirmed, I 
look forward to leading NTIA in playing its part in meeting those 
challenges.
    The march of progress in technology and telecommunications is not 
unique to the United States. The deployment of smaller, more powerful 
computers, fiberoptics, and wireless technologies have made the world 
much smaller and more competitive. NTIA must work together with the 
FCC, the State Department, other Federal agencies, and U.S. industry to 
continue to open foreign markets to U.S. companies and set the 
international policy framework for connecting networks and computers on 
terms favorable to both the economic and national security of the 
United States.
    In closing, let me once again thank you and the Committee for the 
opportunity to be here today. I look forward to the opportunity to 
continue to serve this Administration and work with the distinguished 
members of this Committee to meet the challenges facing our technology 
and telecommunications sectors.
    I look forward to answering any questions you may have for me.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nick names used.): Michael D. 
Gallagher.
    2. Position to which nominated: Assistant Secretary of Commerce for 
Communications and Information.
    3. Date of nomination: October 14, 2003.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.

        Office: U.S. Department of Commerce, 1401 Constitution Avenue, 
        NW, Washington, DC 20230.

    5. Date and place of birth: January 23, 1964; Arcadia, California.
    6. Marital status: Married. Wife is Rhonda Lee Gallagher.
    7. Names and ages of children: Alexandria Lee Gallagher (12); 
Daniel Michael Gallagher (9); Madison Kathleen Gallagher (8).
    8. Education:

        Saint Francis High School, La Canada, California; high school 
        diploma awarded June 1982 (attended September 1978 to June 
        1982).

        University of California Berkeley, Berkeley, California; BA in 
        Economics and BA in Political Science summa cum laude awarded 
        in June 1986 (attended September 1982 to June 1986).

        UCLA School of Law, Los Angeles, California; Juris Doctor in 
        June 1989 (attended September 1986 to May 1989).

    9. Employment record:

        Deputy Assistant Secretary of Commerce for Communications and 
        Information
        U.S. Department of Commerce
        Washington, DC
        August 14, 2003 to present; and November 2, 2001 to May 26, 
        2003)

        Deputy Chief of Staff for Policy and Counselor to the Secretary
        U.S. Department of Commerce
        Washington DC
        May 27, 2003 to August 13, 2003

        Staff Vice-president State Public Policy
        Verizon Wireless
        Bellevue, WA
        April 2000 to October 2001

        Managing Director State Public Policy
        AirTouch Communications
        Bellevue, WA
        April 1998 to April 2000

        Of Counsel
        Perkins Coie, LLP
        Seattle, WA
        June 1997 to April 1998

        Administrative Assistant
        Congressman Rick White (WA-01)
        Washington DC
        January 1995 to June 1997

        Senior Associate
        Perkins Coie, LLP
        Seattle, WA
        September 1989 to December 1994

        Summer Associate
        Allen Matkins Leek Gamble and Mallory
        Irvine, CA
        August 1988

        Summer Associate
        Paul Hastings Janofsky and Walker
        Los Angeles, CA
        June 1988 to July 1988

        Summer Associate
        Allen Matkins Leek Gamble and Mallory
        Irvine, CA
        June 1987 to August 1987

    10. Government experience: None other than as listed above.
    11. Business relationships:

        Staff Vice-president State Public Policy Verizon Wireless

        Managing Director State Public Policy, AirTouch Communications

        Of Counsel and Associate, Perkins Coie, LLP

        Board Member, United for Washington

        Summer Associate, Allen Matkins Leek Gamble and Mallory

        Summer Associate, Paul Hastings Janofsky and Walker

        President, Timberline Park Homeowners Association

        President, Pennington Homeowners Association

    12. Memberships:

        Plateau Golf Club, Sammmamish, WA

        Washington State Bar Association

        Woodland Park Zoo, Seattle, WA

        Catholic Church

        University California Berkeley, Phi Beta Kappa Society

        Delta Upsilon Fraternity

        Pennington Homeowners Association

        Ocean Shores Community Club

    13. Political affiliations and activities:

        (a) List all offices with a political party which you have held 
        or any public office for which you have been a candidate: None.

        (b) List all memberships and offices held in and services 
        rendered to all political parties or election committees during 
        the last 10 years: None.

        (c) Itemize all political contributions to any individual; 
        campaign organization, political party, political action 
        committee, or similar entity, of $500 or more for the past 10 
        years: Bush for President on June 18, 1999.
    14. Honors and awards:

        Valedictorian, Saint Francis High School

        Phi Beta Kappa Society, UC Berkeley

        BA in Economics with Honors, UC Berkeley

        BA in Political Science with Honors, UC Berkeley

    15. Published writings: None.
    16. Speeches:
    As Deputy Assistant Secretary of Commerce for Communications and 
Information, I have provided public remarks on dozens of occasions. 
Attached as Exhibit A are the speeches that have been published by 
NTIA.
    17. Selection:
    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?
    I believe the President nominated me based upon my experience in 
the telecommunications industry, previous work as Congressional staff, 
and my direct experience and performance as Deputy Assistant Secretary 
for Communications and Information. That experience should provide a 
strong foundation for me to meet the challenges of the Assistant 
Secretary position.
    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    I have managed the National Telecommunications and Information 
Administration for nearly a year and a half. I fully understand the 
challenges, duties and responsibilities of the Assistant Secretary 
position. Moreover, I have been a senior member of the Administration 
team that has delivered several spectrum policy advancements to the 
American people, including the authorization of ultrawideband 
technology, the allocation of an additional 90 MHz of spectrum for 
advanced wireless services (3G), doubling the amount of spectrum for 
WiFi at 5 GHz, and most recently allocating 13 GHz of spectrum for 
unlicensed use in the 70, 80, and 90 GHz bands. Each of those policy 
advancements required working technically and professionally across a 
number of federal agencies to deliver an outcome authorizing a new 
technology without impairing critical incumbent systems. By working 
closely with Secretary Evans on key Administration policy issues, also 
understand the key elements that are required to advance a pro growth, 
pro-technology policy agenda.
    As a former Administrative Assistant for a member of the House of 
Representatives, I have a firm understanding of and respect for the 
legislative process. Finally, my telecommunications experience in the 
private sector gives me a useful perspective of the impacts of 
regulation and government mandates on technology and growing 
businesses.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate?
    I severed all connections with previous non-Government employers 
and business organizations and associations (except for continuing to 
maintain accounts in two prior employers 401(k) plans, as described in 
my answer to question C. 1) when I accepted my current appointment with 
the U.S. Department of Commerce in November 2001.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, please explain: No.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    I have continued to maintain accounts in 401(k) retirement plans 
sponsored by Perkins Coie, LLP and Verizon Wireless, both of which are 
former employers. My accounts are invested in diversified mutual funds 
and similar assets. Neither I nor either of my former employers has 
made contributions to these accounts since termination of my 
employment.
    It is my understanding that the Office of General Counsel of the 
U.S. Department of Commerce (in consultation with the Office of 
Government Ethics and the White House Counsel's office) has certified 
that my Financial Disclosure Report (which lists my interests in these 
plans and the underlying assets) is complete and does not disclose any 
financial interest or outside activity that violates or appears to 
violate applicable conflict of interest laws or regulations.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Attached as Exhibit B is the agreement that I have entered into 
with the Department of Commerce to resolve any potential conflicts of 
interest that may arise. It is my understanding the Office of General 
Counsel of the U.S. Department of Commerce has found that this 
agreement resolves any potential conflicts of interest.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Since my departure from Congressman White's office in 1997, my 
career has been entirely focused on public policy matters. As Of 
Counsel at Perkins Coie, I co-chaired the Government Relations practice 
group. While at Perkins Coie, I focused on the following public policy 
issues:

  <bullet> Electricity deregulation legislation in Washington State

  <bullet> Telecommunications regulation in Washington State

  <bullet> Satellite issues before the U.S. House Commerce Committee

  <bullet> Cable Broadband deployment in Seattle, WA

    While at AirTouch Communications (which later merged with Bell 
Atlantic Mobile and became Verizon Wireless), I directed all state 
public policy legislative and regulatory activity for all 50 states. 
The primary issues I directed on behalf of the company included:

  <bullet> Verizon Wireless ``hands-free'' driver safety legislation

  <bullet> State and local taxation of wireless service

  <bullet> Health Effects legislation

  <bullet> Wireless E911 legislation and regulation

  <bullet> State universal service funding

  <bullet> Cell siting

  <bullet> Uniform sourcing of wireless services for tax purposes

  <bullet> Consumer protection legislation and regulation

  <bullet> Numbering

  <bullet> Priority access for wireless service

  <bullet> Rights of way access

    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    The Agreement attached as Exhibit 8 sets forth specifically how I 
intend to resolve any potential conflicts of interest. On a forward-
looking basis, I intend to continue to consult with the ethics 
officials at the Department of Commerce and, if appropriate, divest 
myself of any new conflicting interests, recuse myself, or obtain a 
conflict of interest waiver under 18 U.S.C. Sec. 208(b) if the interest 
is not substantial.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    Yes, I was the subject of a complaint to the Washington State Bar 
Association. In January 1997, Richard A. Labadie filed a grievance with 
the Washington State Bar Association against me and four other fellow 
Perkins Coie lawyers (WSBA file No. 9700186) for alleged violation of 
conflicts of interest relating to a bankruptcy case we were working on. 
Neither I nor any Perkins Coie lawyer was ever found to represent Mr. 
Labadie and the complaint was dismissed without hearing later that 
year.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain.
    Yes. In August 1983, I was cited for possession of alcohol on a 
public beach, which in Huntington Beach, California, is a misdemeanor. 
I paid a small fine by mail and the matter was concluded without any 
further proceedings.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    Yes. In August 1983, I was cited for possession of alcohol on a 
public beach, which in Huntington Beach, California, is a misdemeanor. 
I paid a small fine by mail and the matter was concluded without any 
further proceedings.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress.
    If confirmed, I will review each regulatory action taken by NTIA to 
ensure it complies with all applicable legislative directives. Should 
clarification or interpretation of the regulation be required, I will 
consult with the agency's general counsel, the office of the general 
counsel of the Department of Commerce, the Office of Management and 
Budget, and interested Congressional offices, as appropriate. I intend 
to continue my practice of open and frequent communication between NTIA 
and Congress.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    I have managed the National Telecommunications and Information 
Administration for nearly a year and a half. I fully understand the 
challenges, duties and responsibilities of the Assistant Secretary 
position. Moreover, I have been a senior member of the Administration 
team that has delivered several spectrum policy advancements to the 
American people, including the authorization of ultrawideband 
technology, the allocation of an additional 90 MHz of spectrum for 
advanced wireless services (3G), doubling the amount of spectrum for 
WiFi at 5 GHz, and most recently allocating 13 GHz of spectrum for 
unlicensed use in the 70, 80, and 90 GHz bands. Each of those policy 
advancements required working technically and professionally across a 
number of Federal agencies to deliver an outcome authorizing a new 
technology without impairing critical incumbent systems. By working 
closely with Secretary Evans on key Administration policy issues, I 
also understand the key elements that are required to advance a pro-
growth, pro technology policy agenda.
    As a former Administrative Assistant for a member of the House of 
Representatives, I have a firm understanding of and respect for the 
legislative process. In addition, my telecommunications experience in 
the private sector gives me a useful perspective of the impacts of 
regulation and government mandates on technology and growing 
businesses.
    My education is a strong foundation for government service. As a 
lawyer, I understand the impact and requirements of the law. As an 
economist, I understand the micro and macro economic impacts of 
government action and inaction. And, as a political scientist, I have a 
broad view of government structures, strengths and weaknesses through 
history.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    Serving the American people is a privilege and an honor. 
Telecommunications is the foundation for our economy, and the power of 
free markets and technology drive the United States to its place as the 
economic and ideological engine of the world. My previous experience at 
NTIA, in the private sector, and as Congressional staff afford me the 
opportunity to make a powerful contribution to continue the leadership 
of our country in the dynamic fields of telecommunications and 
technology.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    If confirmed, I believe the goals of the position are primarily to 
be responsive to the needs of the American people as expressed through 
their leaders--the President, the Secretary of Commerce, and the 
Congress. At the outset, I believe the primary goals of the position 
are:

        Spectrum Policy:

        --Continue to work in partnership with the FCC to manage our 
        spectrum resources to maximize the dual goals of economic and 
        national security

        --Complete the work necessary to deliver the promise of 
        ultrawideband, advanced wireless services (3G), and new WiFi 
        services to the American people

        --Deliver the action plan for spectrum policy improvement 
        called for in the President's Spectrum Policy Initiative

        Telecommunications Policy:

        --Develop and advocate telecommunications policies that restore 
        stability and growth to the U.S. telecommunications sector

        --Develop and advocate policies that advance U.S. leadership in 
        the creation and deployment of dynamic new technologies

        International Leadership:

        --Develop and advocate international telecommunications and 
        spectrum policies in partnership with the FCC and the State 
        Department that open up new markets for U.S. technological 
        leadership around the world

        Economic Stewardship:

        --Effectively, efficiently, and ethically discharge the 
        obligations of the office of Assistant Secretary

        --Accomplish the goals of the office using the least amount of 
        taxpayer resources

    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    Having served as the Deputy Assistant Secretary, Acting Assistant 
Secretary and in a senior position in the Secretary's office, I feel I 
have the skills to carry out the position of Assistant Secretary. That 
said, in order to excel in the position, I expect to seek the guidance 
of senior Administration officials across the agencies, leverage the 
expertise of the Department of Commerce leadership team, and to 
frequently seek the guidance of leaders and senior staff in Congress.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    I believe the role of government is well defined by the 
Constitution and its system of checks and balances. The Founding 
Fathers designed a system that is at the same time flexible and strong 
During times of international uncertainty or war, our system calls for 
and accommodates a strong Executive Branch leadership role. During 
times of peace and international calm, the legislative branch assumes 
the stronger role. And, when the legislative and executive branches are 
in conflict or both are acting outside the fundamental rights granted 
to the people and the states, the judicial branch provides our 
Constitutional safety-net.
    The government that governs least governs best. The private citizen 
and the private sector are the stakeholders and beneficiaries of our 
government. The Federal Government's role is derivative and subordinate 
to the rights of the individual. Unless demonstrably harmful to the 
fabric of society--and falling squarely within the powers granted by 
the Constitution--the government should not interfere with the private 
sector. However, where conduct is destructive to society (physically, 
economically, and in some cases morally), the Constitution allows the 
government to punish, restrain, or direct private sector conduct. In 
addition, the private sector has an obligation to fund the necessary 
operations of government through the taxation system.
    Capitalism and free markets serve consumers and allocate resources 
more efficiently than centralized government. That said, markets serve 
society-not the other way around. The government should only rarely 
intervene in the market mechanism, for that interference will only harm 
society by misallocating resources or inhibiting the flow of capital. 
The government should intervene where there is market failure 
(geographic, externalities, etc.), or when private sector conduct is 
directly harmful to others interests (economic, environmental, 
physical, etc.). Finally, there is a narrow role for government to 
advance national interests and international opportunities through 
trade and statesmanship. In many circumstances those interventions are 
justified and necessary to meet the call of national security and 
intelligence gathering.
    Government programs should be created under only the narrowest of 
circumstances because our national experience is that eliminating any 
Federal program is extraordinarily difficult, resulting in waste of 
taxpayer resources and an inability to meet other national needs. That 
said, a government program should be eliminated under either of two 
sets of circumstances. First, if it has accomplished its mission or 
outlived its usefulness (that is, the goals are achieved or 
circumstances have changed such that the goals are no longer 
necessary). Second, is when national priorities and limited resources 
dictate that cuts be made in some programs to fund more critical needs.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    NTIA is charged by statute to be the advisor the President and the 
Administration on telecommunications matters. In addition, it is the 
co-manager, with the FCC of the Nation's spectrum resource. It is the 
regulator of the use of the spectrum by Federal users. It also is the 
lead agency in administering the U.S. Government's contract with ICANN 
to manage the Internet domain name system.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    (1) Financial, technical, and regulatory instability. Our 
telecommunications sector has moved from monopoly regulation to 
competition -the groundbreaking policy shift set forth in the 1996 
Telecommunications Act. In that time it has also incurred tens of-
billions-of dollars in new debt and seen an equity explosion that 
turned out to be the tech and telecom bubble. It is also the laggard 
sector coming out of economic recession. On top of those challenges, 
the pace of technological change in the computing, fiber-optic, and 
wireless industries continues to exponentially increase the efficiency 
of legacy and new equipment alike. Policy vision and advocacy are very 
difficult in the face of so many obstacles to clarity and uncertainty 
regarding the parameters of technical and financial equilibrium.

    (2) Ability to focus resources on efforts to determine technical 
truth. We have made great progress in the management of the spectrum in 
the last two years. But, continued progress is fully dependent on 
technical, engineering truth and expertise. NTIA (and the FCC) must 
endeavor to ensure that available resources are sharply focused to 
fully test and develop models to answer the questions posed by recent 
technological breakthroughs.

    (3) Lack of understanding. Many current NTIA personnel are not 
aware of lack full understanding of the technological and market forces 
that are daily impacting telecommunications and technology sectors. 
NTIA will be required to overcome resource, experience, and technical 
limitations, to render the policy judgments it will be called upon to 
make. To complicate matters, it will need to be particularly focused on 
retaining many of its most knowledgeable employees are eligible for 
retirement in the next 5 years.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    As an initial matter, one has to acknowledge what has worked well 
in the past few years: spectrum policy. The strength of those efforts 
have flowed from leadership from the President, the Secretary of 
Commerce, and the Chairman of the FCC. In turn that leadership has been 
fostered by technical support and professional staff work. With that in 
mind, the following are the factors that limit NTIA's effectiveness:

        Labor inflexibility. NTIA is very limited in its ability to 
        hire the expertise necessary in a rapidly changing environment. 
        A need may be immediate (and the hiring system does not 
        accommodate those needs) or short term (largely incompatible 
        with the civil service system).

        Misallocation of resources. NTIA is not allowed to shift its 
        resources to meet current demands because the resource focus is 
        driven by historic demands (e.g., grant programs versus 
        spectrum testing).

        The plight of the telecommunications sector. The financial, 
        technical, and regulatory instability of the telecommunications 
        sector have limited policy vision at the same time that 
        political acrimony has been at its height.

    9. Who are the stakeholders in the work of this department/agency?
    The primary stakeholders are the American consumer, the American 
investor, private sector spectrum users, Federal agency spectrum users, 
technology companies, and the all users of telecommunications services.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    The stakeholders are the primary generators of information and 
support for decisions. However, because decisions often impact some 
stakeholders favorably and others unfavorably, the Assistant Secretary 
must be impartial, technical and fair in resolving policy conflicts. If 
confirmed, I will be an impartial decisionmaker who takes the views of 
all stakeholders into account.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    If confirmed, I will work to ensure NTIA complies with all of its 
financial obligations, including the Chief Financial Officers Act. My 
responsibility is to provide the leadership that prioritizes sound 
financial management, and to make sure adequate resources are provided 
to make sure NTIA meets its departmental goals.
    (b) What experience do you have in managing a large organization?
    I have run NTIA as the Deputy Assistant Secretary for 18 months, 
including the last 3 as Acting Assistant Secretary. I have also served 
as Deputy Chief of Staff for Policy to the Department of Commerce. 
Prior to joining the Administration, I was a senior executive at 
Verizon Wireless and ran an organization responsible for state 
regulatory and legislative public policy for all 50 states. And, I ran 
a Congressional office and managed its budget.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    Setting goals and reporting on progress achieves several sound 
management benefits including: focus on efficient use of resources; 
measurement of progress toward goals; and accountability.
    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?
    Ideally, an agency and Congress are in close enough communication 
that failure does not occur. However, it if does; them Congress must 
determine the reasons for the failure (e.g., lack of leadership, lack 
of resources, change in circumstances, etc.). Typically those 
determinations are undertaken through the oversight process. And, yes, 
the steps of privatization, downsizing, and consolidation are certainly 
tools. However, given the obligation to make the government as 
efficient as possible at all times and high deficit levels, those tools 
may be appropriate at any time, including failure.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    If confirmed, I believe that my accountability should be measured 
by the effectiveness of my management of the spectrum in partnership 
with the FCC, the timeliness and the quality of my policy advice to the 
President and the Administration, my compliance with applicable laws, 
and my ability to effectively lead NTIA to meet the President's call to 
be ``one united Administration serving the needs of the American 
people.''
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    My philosophy of supervisor/employee relationships is one of 
leadership, trust and accountability. It is the supervisor's job to 
lead the agency. That means setting the course, providing the 
resources, setting priorities and making decisions. The employee's 
responsibility is to trust and support the directions of the 
supervisor, and to discharge their obligations in a professional and 
timely manner. And, if either fail, they stand accountable. I follow a 
supervisory model that fully empowers an employee to make all decisions 
within their authority, competence and experience requiring hands-on 
direction only when necessary. And, when initiatives are achieved and 
progress is outstanding, the employee is fully recognized for their 
role in bringing it about.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    I believe my working relationship with Congress is very strong. I 
have worked on a number of issues including spectrum policy, Internet 
policy, and telecommunications policy with Members and staff. I have a 
strong appreciation for the importance and challenge of legislative 
work. Prior to joining NTIA, my primary source of Congressional 
experience was as Administrative Assistant to Congressman Rick White 
(WA-01), who was a member of the Energy and Commerce Committee. In that 
capacity, I worked extensively with House Commerce, House Leadership, 
and with Senate Commerce Committee staff on many legislative matters.
    15. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    If confirmed, I would support the Inspector General and require all 
personnel in my organization to cooperate with any activities of the 
Inspector General's office.
    16. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    If confirmed, I look forward to being responsive to the 
Administration's and Congress's legislative priorities. As a personal 
matter, several telecommunications and Internet issues should be 
priorities to Congress, including:

        --Passing the Spectrum Relocation Trust Fund Legislation

        --Passing legislative initiatives proposed as part of the 
        President's Spectrum Policy Initiative (including 
        authorizations to agencies to share in the benefits of improved 
        spectrum management practices)

        --Giving the FCC authority to levy market-oriented, efficiency 
        enhancing spectrum fees on licensed spectrum users

        --Passing legislation removing regulatory uncertainty in the 
        wireline voice and broadband service markets

    17. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    Yes. If confirmed, I will effectively participate in the Department 
of Commerce system that allocates discretionary spending based on 
national priorities, determined in an open manner and objective 
criteria. As required by the General Performance and Results Act, I 
will provide Congress, the Department of Commerce and the Executive 
Office of the President the data and analysis required to determine the 
appropriate allocation of resources to NTIA. Those efforts are already 
well under way for the 2005 Administration budget proposal. If 
confirmed, I intend to timely and professionally meet the information 
demands of the Administration and Congress in finalizing the 2005 
budget, and developing the 2006 budget.

    The Chairman. Thank you very much.
    Ms. Halpern?

          STATEMENT OF CHERYL FELDMAN HALPERN, NOMINEE

           TO BE A MEMBER OF THE BOARD OF DIRECTORS,

              CORPORATION FOR PUBLIC BROADCASTING

    Ms. Halpern. You'll forgive me if I'm not quite that 
succinct.
    Mr. Chairman and Members of the Committee, thank you for 
the opportunity to appear before you today and discuss my 
nomination to the Board of Directors of the Corporation for 
Public Broadcasting. I am deeply grateful to the President for 
nominating me.
    The Public Broadcasting Act, CPB's governing statute, sets 
a high standard for public broadcasting's performance. It 
charges CPB with providing universal services to all Americans, 
especially those underserved audiences, including children and 
minorities, with ensuring that program content be balanced, 
objective, and free from editorial bias, and with developing 
quality programmings reflecting the diversity, creativity, and 
accomplishments of American society and culture.
    Recent technological developments, together with the 
financial and demographic changes that have impacted the media, 
have also created new challenges and opportunities for public 
broadcasting. Public television competes today in a broad, 
multichannel environment, while public radio faces an 
environment seeking increased consolidation. However, the 
technological advances, especially the Internet services, offer 
public broadcasting a new opportunity with which to reach and 
serve the American audience. The challenge to finance the 
production of programming that can be delivered effectively, 
using all methods of transmission, remains and expands when 
embracing these new technology advances.
    Our Nation's commitment to education at a time when we are 
initiating what will be a prolonged war on terrorism reinforces 
the need, perhaps now more than ever, to broadcast the 
fundamental values and ideals that define America--freedom, the 
rule of law, tolerance, and respect. These are messages that 
commercial broadcasting does not prioritize. For commercial 
broadcasters, the audience is perceived as the advertiser's 
targeted consumer. For public broadcasters, the audience is 
perceived as citizens with a right to access news and 
information, as well as culture and the arts.
    Much of the work in which I have been engaged has focused 
on communicating and educating children and adults, both 
domestically and abroad, about America and our way of life. As 
the national co-chairman of the character education program 
``Words Can Heal,'' I've introduced children, most recently in 
Los Angeles and Chicago, to the power or words. ``Words Can 
Heal'' effectively integrates school administrators, teachers, 
parents, and students, K-through-12, in a program that teaches 
not to verbally abuse one another and encourages the use of 
language that is civil, even when disagreeing.
    Through my service on the board of the International 
Republican Institute, I have been privileged to visit and 
observe countries trying to build democracy. The establishment 
of working democratic systems is a slow and potentially painful 
process. The goal of democratic political stability continues 
to be challenged by the problems resulting from economic 
recession and from ethnic and national tensions. The free flow 
of information, together with education, is essential to the 
process. There exists a thirst for knowledge about democracy 
with an abundance of questions to be answered.
    As a member of the board for International Broadcasting 
and, later, the Broadcasting Board of Governors, I was proud to 
be a part of an organization that effectively reaches and 
provides the meaningful answers about freedom and democracy to 
audiences around the world. I have learned much from my 
experiences with international broadcasting, and am grateful 
for the opportunity to have served. I will always remember the 
appreciation, expressed time and again, for the news and 
information that our U.S. Government-funded international 
broadcasting entities provided.
    My year of service on the CPB board has made me aware of 
how important the dissemination of information is to our own 
young people. A recent survey of students at our Nation's top 
colleges found significant gaps in their knowledge of American 
history. Only about a third knew what the Emancipation 
Proclamation granted. Less than two thirds were able to say 
when the Civil War was fought, even within a 50-year time 
spread. This ignorance is unacceptable and needs to be 
addressed. We cannot successfully present America's case to the 
world unless we can define who we are, where we come from, why 
we believe as we do, and what we value.
    Public broadcasting, with access to nearly a hundred 
percent of American homes, can reach these young people and 
educate them. Our goal is not merely to develop interesting 
programs, but to provide a meaningful impact so that many more 
young Americans will understand our Nation's history, learn to 
appreciate its principles, and assume civic responsibility. 
This is a way not only to perpetuate what we most treasure 
about America, but to assure continuity for the future.
    As America faces the new challenges of today and looks 
toward the future, we are engaged in a debate over how America 
will define itself with respect to the rest of the world. 
Americans need to understand the evolving challenges to 
freedom, democracy, and the American way of life. The CPB hopes 
to present these and so many other timely and important issues 
with in-depth discussions by respected thinkers representing 
diverse points of view. The goal of this initiative goes beyond 
creating interesting and engaging programming. It will endeavor 
to inform and, thereby, encourage the inquiry and debate that 
is fundamental to our democratic process.
    As President Madison so wisely noted, what spectacle can be 
more edifying or more seasonable than that of liberty and 
learning, each leaning on each other for their mutual and 
surest support?
    Mr. Chairman, I believe that public broadcasting has a 
vital role to play in equipping Americans for their ever-
changing role in the world. I look forward to being a part of 
this enterprise committed to communicating, educating, and 
sharing the precious messages embodied in the American 
experience.
    Many thanks again for your invitation to appear here today. 
I'll be happy to answer any questions.
    [The prepared statement and biographical information of Ms. 
Halpern follow:]

Prepared Statement of Cheryl Feldman Halpern, Nominee to be a Member of 
      the Board of Directors, Corporation for Public Broadcasting
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss my nomination to the 
Board of Directors of the Corporation for Public Broadcasting. I am 
deeply grateful to the President for nominating me.
    The Public Broadcasting Act, CPB's governing statute, sets a high 
standard for public broadcasting's performance. It charges CPB with 
providing universal services to all Americans--especially those 
underserved audiences, including children and minorities--with ensuring 
that program content be balanced objective and free from editorial bias 
and with developing quality programs reflecting the diversity, 
creativity and accomplishments of American society and culture.
    Recent technological developments together with the financial and 
demographic changes that have impacted the media have also created new 
challenges and opportunities for public broadcasting. Public television 
competes today in a broad multi-channel environment while public radio 
faces an environment seeking increased consolidation. However, the 
technological advances, especially the Internet services, offer public 
broadcasting a new opportunity with which to reach and serve the 
American audience. The challenge to finance the production of 
programming that can be delivered effectively using all methods of 
delivery remains and expands when embracing these new technology 
advances.
    Our Nation's commitment to education at a time when we are 
initiating what will be a prolonged war on terrorism reinforces the 
need-perhaps more than ever-to broadcast the fundamental values and 
ideals that define America: freedom, the rule of law, tolerance and 
respect. These are messages that commercial broadcasting does not 
prioritize. For commercial broadcasters the audience is perceived as 
the advertisers' targeted consumer. For public broadcasters, the 
audience is perceived as citizens with the right to access news and 
information as well as culture and the arts.
    Much of the work in which I have been engaged has focused on 
communicating and educating children and adults, both domestically and 
abroad, about America and our way of life. As the National Co-Chairman 
of a character education program ``Words Can Heal'', I have introduced 
children, most recently in Los Angeles and Chicago, to the power of 
words. ``Words Can Heal'' effectively integrates school administrators, 
teachers, parents and students--K-12--in a program that teaches not to 
verbally abuse one another and encourages the use of language that is 
civil, even when disagreeing.
    Through my service on the Board of the International Republican 
Institute, I have been privileged to visit and observe countries trying 
to build democracy. There exists a thirst for knowledge about democracy 
with an abundance of questions to be answered.
    As a member of the Board for International Broadcasting and later 
the Broadcasting Board of Governors, I was proud to be part of an 
organization that effectively reaches and provides answers to audiences 
around the world. I will always remember the appreciation expressed by 
so many for the news and information that our U.S. Government funded 
international broadcasting entities have provided.
    My year of service on the CPB Board made me aware of how important 
the dissemination of information is to our own young people. A recent 
survey of students at our Nation's top colleges found significant gaps 
in their knowledge of American history. Only about a third knew what 
the Emancipation Proclamation granted. Less than two thirds were able 
to say when the Civil War was fought-even within a 50 year spread.
    This ignorance is unacceptable and needs to be addressed. We can 
not make America's case to the world unless we can define who we are, 
where we came from, why we believe as we do and what we value. Public 
Broadcasting, with access to nearly 100 percent of American homes, can 
reach these young people and educate them. Our goal is not merely to 
develop interesting programs, but to provide a meaningful impact so 
that many more young Americans will understand our Nation's history, 
learn to appreciate its principles and assume civil responsibility. 
This is a way not only to perpetuate what we most treasure about 
America, but to assure continuity for the future.
    As America faces a new and uncertain future, we are engaged in a 
debate over how America will define itself with respect to the rest of 
the world. Americans need to understand the evolving challenges to 
freedom, democracy and the American way of life. The CPB hopes to 
present these and so many other timely and important issues with in 
depth discussions by respected thinkers representing diverse points of 
view. The goal of the initiative goes beyond creating interesting and 
engaging programming. It will endeavor to inform and thereby encourage 
the inquiry and debate that is fundamental to our democratic process.
    Mr. Chairman, I believe that public broadcasting has a vital role 
to play in equipping Americans for their ever changing role in the 
world. I look forward to being part of this enterprise. My thanks again 
for your invitation to appear here today. I am happy to answer any 
questions you may have.
                             Cheryl Halpern
    Cheryl Halpern was appointed to the CPB board by President Bush in 
August 2002. She holds a B.A. degree in political science from Barnard 
College of Columbia University, and an M.B.A. in finance from New York 
University. While living in New York City, she was associated with 
WKCR-FM, where she produced both news and classical music programs. 
Additionally, she has held an F.C.C. radio engineer's license.
    In 1990, Halpern was confirmed as a member of the Board for 
International Broadcasting and as a director of Radio Free Europe/Radio 
Liberty. She is currently serving as a member of the Broadcasting Board 
of Governors with oversight responsibility for Voice of America, Radio 
and TV Marti, Radio Free Europe/Radio Liberty, Worldnet, Radio Free 
Asia, and Radio Free Iraq.
    Halpern's wide range of civic involvement includes participation on 
the boards of the International Republican Institute, the Washington 
Institute for Near East Policy, and the Lexington Institute. She is the 
chair of the UN Advisory Council of B'nai B'rith International. Halpern 
is also the national chairperson of character education program for the 
Words Can Heal organization.
    Halpern resides in New Jersey with her husband Fred.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nick names used.)

        Cheryl Miriam Feldman Halpern.

    2. Position to which nominated: Member of the Board of Directors 
for the Corporation For Public Broadcasting.
    3. Date of nomination: On August 22, 2001, the President announced 
his intent to appoint. Recess appointment: August 6, 2002.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.

        Office: Corporation For Public Broadcasting, 1401 Ninth Street, 
        N.W., Washington, D.C. 20004.

    5. Date and place of birth: November 20, 1954; New Haven, 
Connecticut.
    6. Marital status: (Include maiden name of wife or husband's name.)
        Married. Husband: Frederick Michael Halpern.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.)
        Yonina Halpern, age 23; Maeira Halpern, age 20; Alexander 
        Halpern, age 17.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received)

        Beth Chana Academy, 1968-1969.

        Richard C. Lee Public High School, 1969-1971.

        Barnard College, 1971-1975, B.A. 1975.

        NYU Graduate School of Business Administration, MBA Finance, 
        1980.

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

        Member, Corporation For Public Broadcasting (08/02 to present)
        401 Ninth Street, N.W., Washington, DC 20004

        Member, FCYMA/H, LLC (09/00 through present)
        42 Rockledge Drive, Livingston, NJ 07039

        Member, Peppermint Spice, LLC (1998 through present)
        42 Rockledge Drive, Livingston, NJ 07039

        Manager, Mountain Ledge Investors, LLC (11/99 through present)
        42 Rockledge Drive, Livingston, NJ 07039

        Partner, Integrated CFH Associates, G.P. (04/92 through 
        present)
        42 Rockledge Drive, Livingston, NJ 07039

        Member, Broadcasting Board of Governors (09/95 through 12/02)
        330 Independence Avenue, S.W., Room 3360, Washington, DC 20036

        President, CFYM Associates, Inc. (1984 through 1997)
        42 Rockledge Drive, Livingston, NJ 07039

        Secretary-Treasurer, Porcupine Enterprises, Inc. (05/88 through 
        1996)
        42 Rockledge Drive, Livingston, NJ 07039

        Partner, Then As Now, L.P. (12/88 through present)
        42 Rockledge Drive, Livingston, NJ 07039

        Member, Board for International Broadcasting (10/90 to 08/95)
        1-21 Connecticut Avenue, N.W., Suite 400, Washington, DC 20036

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State or 
local governments, other than those listed above.)
        Member, NJ-Israel Commission.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)

        Corporation For Public Broadcasting--Member of Board

        International Republican Institute--Member of Board
        Integrated CFH Associates, G.P.--Partner

        Joseph Kushner Hebrew Academy--Member, Board of Education

        Washington Institute for Near East Policy--Trustee

        Anti-Defamation League of B'nai B'rith--Regional Board Member

        Community Relations Council, Metro West Jewish Foundation--
        Board Member

        NJ/Israel Commission--Board Member

        Then As Now, L.P.--General Partner

        Fred Halpern Children's Trust--Trustee

        Fred Halpern Irrevocable Trust--Trustee

        Mountainledge Investors, LLC--Manager

        Republican Jewish Coalition--Honorary Chairman, Vice Chairman

        Bionexus Foundation<SUP>*</SUP>--Director
---------------------------------------------------------------------------
    \*\ Inactive.

---------------------------------------------------------------------------
        Lexington Institute--Trustee

        F.C.Y.M.A./H., LLC--Member

        Peppermint Spice, LLC--Member

        B'nai B'rith International--Chairman, UN Affairs Committee, 
        B'nai B'rith Center for Public Policy

        Words Can Heal--National Chairman, Character Education

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

        International Republican Institute--Member of Board of 
        Directors

        Republican Jewish Coalition--Honorary Chairman, Vice Chairman, 
        National Chairman

        B'nai B'rith International--Chairman, UN Affairs Committee, 
        B'nai B'rith Center for Public Policy

        Joseph Kushner Hebrew Academy--Member, Board of Education Board 
        of Trustees

        Anti-Defamation League--Member, Regional Advisory Board

        Beaver Creek Club--Member

        Capitol Hill Club--Member

        Carnegie Club--Member

        N.J. Israel Commission--Member

        Lexington Institute--Board of Trustees Member

        Words Can Heal--National Chairman, Character Education

        Washington Institute for Near East Policy--Lifetime Trustee

        Business Executives for National Security

        National Committee on American Foreign Policy

        American Horse Shows Association--Life Member

        Central N.J. Home for the Aged--Life Member

        AMIT Women--Life Member

        Interparliamentary Council Against Anti-Semitism--International 
        Advisory Board

        Yemenite Federation

        Metrowest Federation--Community Relations Council

        Holocaust Resource Foundation at Kean College--Young Leadership

        Simon Wiesenthal Center--Member

        Synagogue of The Suburban Torah Center

        Congregation B'Nai Vail

        B'Nai B'rith International--Life Member

        Essex County Ritualarium

        Barnard College Fund

        Congregation B'nai Joseph DME

        Institute of Semitic Studies, Princeton University

        Vail Valley Foundation

        A.I.P.A.C.

        J.I.N.S.A.

        Jewish National Fund

        A.R.M.D.I.

        Albert Einstein School of Medicine

        Yeshiva University

        CLAL

        Dorot

        Yad Vashem

        Rabbinical College of America

        N.C.S.Y.

        Orthodox Union

        Empower America

        Bikur Cholim of Rockland County

        Freedom House

        Stem College for Women of Yeshiva University, New York, New 
        York

        United States Dressage Foundation

        United Jewish Appeal

        Jewish Policy Center

        Robin Hood Foundation

        The Actors Fund

        Broadway Cares/Equity Fights Aids

        United Cerebral Palsey

        UMDNJ Foundation for MS

        Children of Chernobyl

        Hillel Foundation

        Creative Coalition

    I believe that the above accurately lists current memberships.
    13. Political affiliations and activities:

    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    I have never run for public office. I have, however, served as the 
following:

        Coalitions Chairman--N.J. Republican Party
        Member, Finance Committee--N.J. Republican Party

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

        Finance Committee--Whitman for Governor

        Advisor--Haytaian for Senate

        Commission for the Future of Republican Party N.J.

        Finance Committee Zimmer for Congress

        Member--Team 100

        Co-Chairman--National Jewish Campaign Committee--Bush '88

        Chairman--N.J. Jewish Campaign Committee for Bush '88

        Consultant--Peter Dawkins for Senate

        Consultant--James Courter for Governor

        Consultant--James Courter for Congress

        Member--Kemp Associates

        Member--N.J. Bush for President--Voter Inclusion Program

        Campaign Volunteer Joseph Lieberman for State Legislature

        Consultant--Assemblyman Bob Franks

        Consultant--Bob Franks for Congress

        Co-Chairman Jewish Americans for Franks, Senate Campaign

        Co-Chairman--Victory Planning Group, N.J. Republican Party

        Trustee--N.J. Governor's Club

        Honorary Chairman--Republican Jewish Coalition

        Advisor--Congressman Mike Ferguson

        Advisor--Congressman Eric Cantor

        Member--National Republican Senatorial Committee

        Finance Committee--Bush for President 2000
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

1992
 
Friends of Bruce Herschensohn                                  $1,000.00
Friends of Lee Solomon                                         $1,000.00
AIPAC                                                          $1,000.00
Friends of Dean Gallo                                          $1,500.00
Victory '92                                                    $2,000.00
AIPAC                                                          $1,000.00
Lieberman Committee                                              $500.00
AIPAC                                                          $1,000.00
Friends of Bob Franks                                          $2,000.00
Jack Kemp for President '88 Debt Retirement                    $1,000.00
Friends of Christie Whitman                                    $3,000.00
                                                  (together with spouse)
RNSEC                                                          $2,400.00
Convention '92 RSC                                               $590.00
N.J. RSC                                               $250.00 + $250.00
N.J. Republican Party                                          $1,370.87
 
1993
 
Friends of Bob Littel                                            $500.00
Friends of Christie Whitman                                      $600.00
Bob Martin Election Fund                                         $500.00
Assembly Republican Majority                                   $1,000.00
Friends of Clayton Fong                                          $500.00
Friends of Bobbie Kilberg                                      $1,000.00
Garden State PAC                                                 $500.00
Linsenberg for Controller                                        $500.00
AIPAC                                                          $1,000.00
Franks for Congress                                            $1,000.00
Friends of Bob Bennett                                         $1,000.00
Friends of Trent Lott                                          $1,000.00
Zimmer for Congress                                            $1,000.00
N.J. Republican State Committee                                $1,000.00
 
1994
 
Friends of John Ashcroft                                       $1,000.00
Friends of Olympia Snowe                                         $500.00
Friends of Pete Wilson                                         $1,000.00
Friends of Bill Brock                                            $500.00
Friends of Bob Franks                                            $500.00
                                                  (together with spouse)
Friends of Spence Abraham                                      $1,000.00
Friends of Chuck Haytaian                             $500.00 + $ 200.00
NATPAC                                                         $1,000.00
 
1995
 
Friends of Bob Dole                                            $2,000.00
Friends of Bob Franks                                          $1,000.00
AIPAC                                                            $500.00
Friends of Dick Zimmer                                         $1,000.00
Friends of Pete Wilson                                         $1,000.00
Forbes for President                                           $1,000.00
Friends of Al D'Amato                                          $1,000.00
Friends of Arlen Spector                                         $500.00
 
1996
 
NJRSC (State Account)                              $12,500.00 + $ 200.00
Victory '96                                                      $500.00
Gary Polland                                                     $500.00
NY Salute '96 Non-Federal                                     $10,000.00
Friends of Nancy Mayer                                          $ 500.00
Friends of Jesse Helms                                           $500.00
Friends of Phil Gramm                                            $500.00
Friends of Larry Pressler                                        $500.00
Franks for Congress                                            $1,000.00
Friends of Frelinghuysen                                       $1,000.00
Friends of Rudy Boschwitz                                      $1,000.00
Fox for Congress                                               $1,000.00
Schiff for Congress                                            $1,000.00
Alexander for President                                        $1,000.00
RNSEC                                                         $10,000.00
NAT PAC                                                        $1,000.00
Victory '97                                                    $1,000.00
Franks for Congress                                            $1,000.00
Friends of Kit Bond                                            $1,000.00
Fox for Congress                                               $1,000.00
Whitman for Governor $1,000.00 + $200.00
RNSEC                                                         $25,000.00
 
1998
 
RN SEC                                                        $25,000.00
Missouri Republican Party                                      $1,000.00
Gisele Stavert for Congress                        $1,000.00 + $1,000.00
Lundgren for Governor                                          $1,000.00
Friends of Rodney Frelinghuysen                    $1,000.00 + $1,000.00
Friends of Bob Franks                                          $2,000.00
Joel Weingarten Election Fund                                    $500.00
Mike Ferguson for Congress                                       $500.00
Americans for Hope, Growth & Opportunity                       $1,000.00
Republican Leadership Council                                    $500.00
Sam Brownback for Senate                                       $1,000.00
Voinovich for Senate                                           $1,000.00
Ensign for Senate                                              $1,000.00
Coverdell Good Government Committee                            $1,000.00
Citizens for Arlen Spector                                     $1,000.00
 
1999
 
Friends of Joe Lieberman For Senate                            $1,000.00
Celebration 2000                                               $1,000.00
Whitman for Senate                                 $1,000.00 + $1,000.00
Bush for President                                             $1,000.00
Bush-Cheney 2000 Compliance Committee                          $1,000.00
Weingarten for Congress                                        $1,000.00
Bob Franks for Senate                              $1,000.00 + $1,000.00
Zimmer 2000                                                    $2,000.00
1999 NJ State Republican Victory Fund                          $5,000.00
New Republican Majority Fund                                   $1,000.00
Trent Lott for Mississippi                                     $1,000.00
 
2000
 
Ferguson for Congress                                          $1,000.00
Zimmer 2000                                                    $1,000.00
New Birth Freedom PAC                                          $1,000.00
RN SEC                                                        $28,600.00
Friends of Olympia Snowe                                       $1,000.00
Cantor for Congress                                            $1,000.00
Friends of Jim Saxton                                          $1,000.00
Burris Governor 2000                                           $1,200.00
Friends of Senator Kyl                                         $1,000.00
 
2001
 
Senate Republican Majority                                     $1,000.00
Senator Kyrillos Committee                                     $1,000.00
Election Fund Paul DiGaetano                                     $500.00
Di Francesco for Governor                                      $5,200.00
                                                  (together with spouse)
NRSC Non-Federal Account                                      $10,000.00
Friends of Bob Franks                                          $5,200.00
                                                  (together with spouse)
AIPAC                                                            $500.00
Friends of Tom Kean, Jr.                                       $2,200.00
Friends of Sam Brownback                                       $2,000.00
Friends of Mike Ferguson                                       $1,000.00
N.J. Republican State Committee                    $5,000.00 + $5,000.00
 
2002
 
Soaries for Congress                                           $1,000.00
Friends of Mike Ferguson                                       $1,000.00
Friends of John Cornyn                                         $1,000.00
Friends of Bob Martin                                  $200.00 + $500.00
Republican Party of L.A.                                         $500.00
N.J.R.S.C.                                                     $1,000.00
Friends of Diane Allen                                         $2,000.00
Friends of Joe Kyrillos                                        $1,000.00
Friends of Gary Polland                                          $500.00
Friends of Forrester for Senate                                $4,000.00
                                                  (together with spouse)
Friends of Joe Biden                                           $1,000.00
American Spirit--PAC                                           $1,000.00
America's Foundation f/k/a Fight--PAC                          $5,000.00
Friends of Linda Lingle                                        $6,000.00
 

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)

        State of Connecticut Scholar; Mortgage Bankers' Association 
        Award for Graduate Study;

        NYC Police Department Auxiliary Police Scholastic Achievement 
        Award.

        Certificate of Appreciation and Achievement, Broadcasting Board 
        of Governors.

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)

        ``Energy Security Is Our National Responsibility'', by Cheryl 
        Halpern and Michael Epstein, Washington Jewish Week, on-line 
        edition 3/17/02;

        ``Our Energy Security Is Our National Responsibility'', by 
        Cheryl Halpern and Michael Epstein, New Jersey Jewish News, 3/
        14/02

        ``Azerbaijan's Support The Kind That Muslim States Should 
        Emulate'', by Cheryl Halpern and Jason Epstein, New Jersey 
        Jewish News, 11/08/01

        ``Encouraging Muslim Moderation'', by Cheryl Halpern and Jason 
        Epstein, Forward, 11/16/01

        ``Bush, Goldsmith And The Faith-Based Policy'' Letter to 
        Editor, Forward (2/16/01)

        ``Bush Offers Fresh Start, New Promise For Education'', by 
        Cheryl Halpern and Matthew Brooks, N.J. Jewish News (2/1!01)

        ``50th Anniversary Of Voice Of America Transmission From 
        Tangier, Morocco'' Speech (3/8/00)

        ``Put Syria Back On Drug List'' Letter to Editor, Jewish Voice 
        (December 1997)

        Testimony before N.J. State Assembly Committee on The 
        Judiciary, in capacity as National Chairman of National Jewish 
        Coalition regarding the N.J. Religious Freedom Restoration Act 
        (11/16/97)

        ``School Vouchers Give Parents More Power To Choose'', by 
        Cheryl Halpern and Matthew Brooks, N.J. Jewish News (10/16/97)

        ``Look Again-President Clinton Is No Friend Of Israel'', by Max 
        Fisher, Cheryl Halpern and Matthew Brooks, The Jewish News (4/
        3/97)

        ``The Republicans' Actions Speak Louder Than Words'', by Max 
        Fisher and Cheryl Halpern, Washington Jewish Week (10/11/96)

        Salute To The Republican Congress-Speech (8/14/96)

        ``Nevertheless'', Letter to the Editor, Washington Jewish Week 
        (1/26/96)

        ``In Congress Jews Should Trust The Republicans'', by Richard 
        Fox, Cheryl Halpern and Sheldon Kamins, The Jewish News (10/17/
        96)

        Women's Rights: A Perspective On Beijing Conference (11/15/95)

        ``Jewish Community Should Effect Change'', ``Swing To GOP?'', 
        by Max Fisher and Cheryl Halpern (10/94)

        ``Reflections On The Accord'', NJC Bulletin (9/93, 10/93)

        ``Convention Was A Great Success In Eyes Of Jewish 
        Republicans'', by Cliff Sobel and Cheryl Halpern, The Jewish 
        News (8/92)

        ``George Bush Kept Promises, Has Been Tested In Crisis'', by 
        Max Fisher, George Klein & Cheryl Halpern, The Jewish Standard, 
        The Jewish News (10/92)

        ``In Praise of Quayle'', by Cheryl Halpern and Elliot Felig, 
        Letter to Editor, The Jewish News (5/89)

        ``Dodd & Weicker Should Stop Meddling In The Israel Issue'', 
        Letter to Editor, New Haven Register (4/88)

    16. Speeches: (Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.)
    Excerpt from transcript--''International Broadcasting: Its Mission, 
Budget And Future'' (attached as Exhibit ``A'')
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President?
    I believe that I was selected for this position because of my 
experience over the last 11 years in government funded broadcasting.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    In 1990 I was nominated by President Bush and confirmed by the 
Senate to serve on the Board for International Broadcasting (the 
``BIB''). In 1995, when the BIB ceased to exist due to congressional 
1egislation, I was the only carryforward to serve on the Broadcasting 
Board of Governors. I was subsequently renominated by President Clinton 
and confirmed by the Senate. I am confident that my experience with the 
board responsible for providing non-commercial programming for diverse 
international audiences, especially youth, for the past 11 years will 
be beneficial to the board serving the multi-cultural American 
audience.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate?
    Not Applicable. Appointment is for 60-day Board position.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.
    Not Applicable. Appointment is for 60-day Board position.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?
    Not Applicable. Appointment is for 60-day Board position.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?
    Not Applicable. Appointment is for 60-day Board position.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.
    I have no ``financial arrangements'' other than my employment 
listed in A(9) and (11) above and my assets (and the financial benefits 
therefrom) listed in response to G(1) below.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    None to my knowledge.
    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    None to my knowledge.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As National Chairman of the Republican Jewish Coalition I 
encouraged and supported legislation that was of concern to the Jewish 
community. As a member of the Broadcasting Board of Governors I 
encouraged support for international broadcasting.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    If I become aware of a potential conflict of interest, I 
immediately will consult with the counsel to the Corporation For Public 
Broadcasting and any other assigned ethics officer and will take 
appropriate steps to address the conflict issue in a manner completely 
satisfactory to counsel and the ethics officer.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you were an officer ever been-
involved as a party in interest in an administrative agency proceeding 
or civil litigation? If so, provide details.
    I was a plaintiff in the C.F.Y.M. Associates, Inc., a New Jersey 
Corporation and Cheryl Halpern v. Andrew Philbrick d/b/a Hunter Farms, 
Ltd. and Cynthia Webber matter, Civil Action No. 87-2713 (REC), United 
States District Court for the District of New Jersey, commenced July 8, 
1987; resolved by entry of Stipulation and Order of Settlement on 
September 25, 1987 and Supplemental Stipulation and Order of Settlement 
on October 23, 1987.
    I was a defendant in Ernest E. Pell v. RFE/RC, Inc., et al, Civil 
Action No. 94-2290 JR, United States District Court for the District of 
Columbia, dismissed as against me by Order filed March 26, 1995.
    4. Have you ever been convicted (including please of guilty or nolo 
contendre) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with-your nomination.
    I believe that my international broadcasting experience and my 
proven ability to work on a bipartisan basis over several 
administrations (Bush, Clinton and now Bush) is worthy of this 
Honorable Committee's attention.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information?
    Yes. If confirmed, I will work with the Board and CPB staff to 
ensure that all CPB reports, and other requests for information, are 
delivered in a timely fashion.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes. If confirmed, I will work with the Board and CPB staff to 
ensure that any congressional witnesses and whistleblowers are 
protected from reprisals.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee?
    Yes. If confirmed, I will work with the Board and CPB staff to 
ensure that Committee requests for witnesses are honored.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How have your previous professional experience and education 
qualifies you for the position for which you have been nominated.
    I believe that I was selected for this position because of my 
experience over the last 11 years in government funded broadcasting. In 
1990, I was nominated by President Bush and confirmed by the Senate to 
serve on the Board for International Broadcasting (the ``BIB''). In 
1995, when the BIB ceased to exist due to congressional legislation, I 
was the only carryforward to serve on the Broadcasting Board of 
Governors. I was subsequently renominated by President Clinton and 
confirmed by the Senate. I am confident that my experience with the 
board responsible for providing non-commercial programming for diverse 
international audiences, especially youth, for the past 11 years will 
be beneficial to the CPB board in serving the multi-cultural American 
audience.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I believe that there needs to be a balanced, non-commercial public 
broadcasting presence on both radio and television that will provide 
programming for the entire spectrum of American society. It will be an 
honor to serve on the Corporation For Public Broadcasting and help to 
continue to bring this to fruition.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    I look forward to working together with my fellow Board Members 
towards providing greater programming for children and towards 
integrating digital technology.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    Digital technology is ever changing. I would hope to continue to be 
brought up to date by professionals, as was the case on the 
Broadcasting Board of Governors.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    In the context of broadcasting, government should serve to foster 
and support accuracy and balance in content, and innovation and 
integrity in format. Government should err on the side of restraint in 
its dealings with the private sector, balancing its policy goals with 
the ideals of a free society. A government program which fails 
consistently to achieve its objectives in a cost-effective manner 
should be the subject of review.
    6. Describe your department/agency's current mission, major 
programs, and major operational objectives.
    CPB is not a Federal agency, but its mission is based in its 
authorizing statute: ``to encourage the development of public radio and 
television broadcasting including the use of such media for 
instructional, educational, and cultural purposes,'' and ``to encourage 
the growth and development of non-broadcast telecommunications 
technologies . . .'' for similar purposes. CPB distributes Federal 
funds and provides a variety of other support to more than 1,000 public 
television and radio stations throughout the country. CPB is committed 
to funding programs and services that inform, enlighten and enrich the 
public. CPB is dedicated to encouraging the development of programming 
that involves creative risks and addresses the needs of unserved and 
underserved audiences, including children and minorities.
    7. What do you believe to be the to three challenges facing the 
board/commission and why?
    The CPB faces significant challenges as it continues to meet the 
goals set by the Public Broadcasting Act. Among these are:

  (i) Strengthening the Public Broadcasting System's financial 
        situation. Ensuring a firm financial footing is critical if 
        Public Broadcasting is to offer the programming and services 
        that our Nation deserves and demands.

  (ii) Realizing the tremendous potential afforded by the new digital 
        technologies.

  (iii) Ensuring that public broadcast programming is responsive to 
        local needs and addresses national concerns in an objective and 
        balanced manner without compromising its editorial 
        independence.

    8. In reference to question number six, what factors in your 
opinion have kept the board/Commission from achieving its missions over 
the past several years?
    While I do not agree that the CPB has failed in achieving its 
missions, it has faced obstacles limiting its success. No factor has 
proven a greater constraint than the lack of adequate funding. This is 
a time of dramatic technological change.

  (i) Television stations are struggling to raise the funds needed to 
        meet the Government mandate to convert to digital transmission 
        technology, and radio stations will soon face a ``marketplace 
        mandate'' of their own.

  (ii) Television's interconnection system--the backbone of the 
        distribution network--is due for replacement, and should be 
        upgraded to take advantage of the opportunities offered by new 
        technology.

  (iii) Both TV and radio will need to develop programming to obtain 
        the full benefit of these new capabilities.

    At this time of increasing cost demands, stations have found 
raising funds from sources other than the Federal Government 
challenging. Public Broadcasting competes with a range of other non-
profit community service organizations for support from charitable 
foundations, individual contributors and corporate underwriting dollars 
that have become less available in the current environment. State 
governments, another major source of funding, are struggling with their 
own budgetary problems.
    In this context, the Federal appropriation becomes more important 
than ever. Although Federal dollars account for only about 15 percent 
of the total system revenues, they are a vital and stable source of 
funding. Preservation of CPB's advance appropriation is particularly 
crucial in providing broadcasters and producers the certainty they need 
to plan award-winning programming and to attract non-government 
funding.
    9. Who are the stakeholders in the work of this agency?
    The stakeholders are the American people, including the Congress, 
educators, public broadcasting stations, parents, students, and the 
unserved/underserved audiences such as children and minorities as 
prescribed by the statute.
    10. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number nine?
    If confirmed, I will hold a position of trust. I would represent 
the interests and needs of all stakeholders. When those interests and 
needs conflict, I would do my utmost to look objectively at all sides.
    11. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    The position for which I have been nominated is one of oversight, 
not direct personnel management. In general, however, my philosophy is 
that we are all responsible for our actions within our scope of 
authority. I believe a Board Member's role is to provide vision, goals 
and priorities for supervisors to carry out. Open lines of 
communication, and accountability ensure successful relationships.
    12. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe.
    As a member of the Broadcasting Board of Governors I have worked 
with both the Senate Committee on Foreign Relations and the House 
Committee on International Relations.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views.
    One of the most pressing legislative needs facing the public 
broadcasting community is efficient and timely transition from analog 
to digital broadcasting. Other priorities include ensuring universal 
access for all Americans as the various technologies and platforms 
evolve. Congress should continue to provide adequate funding to insure 
that the Corporation's technological capability keeps pace with the 
digital age, so that the public may be served.
    14. Please discuss your views on the appropriate relationship 
between a voting member of an Independent board or commission and the 
wishes of a particular president.
    I am very grateful to be given this opportunity to serve the 
American public. If confirmed, I will be guided by the provisions of 
the Public Broadcasting Act in carrying out my responsibilities.

    The Chairman. Thank you.
    Ms. Courtney, Senator Breaux wanted to be here to introduce 
you. As you know, he's a friend and supporter, and his 
statement will be included in the record as support for your 
nomination.
    Welcome.
    [The prepared statement of Senator Breaux follows:]

           Introduction of Beth Courtney by Hon. John Breaux
    It is my great pleasure to introduce Beth Courtney, nominee for the 
Board of Directors of the Corporation for Public Broadcasting. Ms. 
Courtney currently serves as President and Chief Executive Officer of 
Louisiana Public Broadcasting, where she has been a skillful leader. 
Her extensive broadcasting experience, along with the support she 
enjoys from Louisianians will be a great asset to her as a board 
member. I enthusiastically support Ms. Courtney and urge the Senate to 
swiftly confirm her.
    After graduating with a Bachelor's degree in History and Speech, 
Beth earned her Master's degree in European History and Government from 
Louisiana State University. She also received an Honorary Doctorate 
from Southeastern Louisiana University.
    Ms. Courtney is Past Chairman of the Board of America's Public 
Television Stations (APTS) and former Vice Chairman of the Board of the 
Public Broadcasting Service (PBS). She is co-chairman of a PBS/APTS 
initiative to negotiate carriage of public broadcasting channels on 
digital cable and direct broadcast satellites. Ms. Courtney has also 
chaired the PBS education, membership and common carriage task forces.
    Beth Courtney started her career in broadcasting as a Capitol 
Correspondent. She was named Communicator of the Year in 1984, elected 
Broadcaster of the Year by American Women in Radio & Television (AWRT) 
in 1988, and was one of the YWCA's Women of Achievement in 1991. Ms. 
Courtney was inducted into the Louisiana Center for Women in Government 
Hall of Fame in 1999.
    Ms. Courtney has testified before Congress on numerous occasions, 
including the House Appropriations and Commerce Committees. She has 
shared her expertise as a broadcasting professional on numerous 
telecommunications technology advisory committees on local, state and 
national levels.
    Beth is a highly regarded and admired individual in Louisiana. She 
has earned the respect of her colleagues in the broadcasting industry, 
not only in Louisiana but throughout the country. She is very active in 
her community, which has made her well respected both personally and 
professionally. She is married to Bob Courtney, President of Courtney 
Communications. Her daughter Julia is an attorney.
    I commend the President for putting forth her nomination and 
believe she will make an excellent board member.

 STATEMENT OF ELIZABETH COURTNEY, PRESIDENT AND CEO, LOUISIANA 
                      PUBLIC BROADCASTING

    Ms. Courtney. Thank you, Senator.
    Good morning again, Mr. Chairman and Members of the 
Committee. It's an honor to appear before you today. I'd like 
to thank the President for nominating me to serve on the Board 
of Directors of the Corporation for Public Broadcasting.
    I would also like to express my gratitude for all those who 
supported my nomination, especially those from my home state of 
Louisiana. It has been my privilege and pleasure to work most 
of my adult life in public broadcasting. Growing up in a 
military family, we moved frequently, but we always knew that 
Louisiana was home. And when I had the opportunity to help 
start a new public television network in Baton Rouge, 
Louisiana, I enthusiastically agreed. We began in the basement 
of the State Department of Education in 1976, and today we 
operate multiple analog and digital stations across the state. 
New technology that has been spoken of in earlier testimony 
today has allowed us to provide Internet services to schools as 
well as direct satellite instruction.
    I remain committed to the incredible power of this medium 
to teach. I have seen it make a difference in the lives of our 
citizens. My colleagues in public television have afforded me 
the opportunity to represent them on numerous boards. I have 
served as Vice Chairman of the Board of PBS and Chairman of the 
Board of the Association of Public Television Stations.
    The people involved in this enterprise are passionate and 
dedicated public servants. We are not perfect. This is a 
difficult time for all of us. The digital conversion costs are 
staggering, especially in a nonprofit world. But we have 
managed to chart a course that will combine both public and 
private funds to meet that challenge. We also operate in a 
multichannel environment that was not there when I began in 
1976, but I will say, with great conviction, that we are needed 
more than ever in each community we serve.
    In Louisiana, we've just completed a six-part series on the 
history of our state released this year to coincide with the 
200th anniversary of the Louisiana Purchase. It includes a 
book, teacher's guide, website, many outreach activities, 
including a statewide history bee. This was the last project 
that Dr. Steven Ambrose was involved in before his death. He's 
the on-camera host and we've captured for all time his 
excellent teaching. He does the introduction of the book, and 
this is something, I think, that will be a treasure for our 
citizens. It's not a one-time television program or a series 
broadcast from a remote location across the country. This is a 
local service for a local community. My effort is repeated 
every day by the public television stations in your 
communities.
    On the national level, we can share our best efforts with 
audiences across the United States. My inspiration for our 
history series came from a young producer who visited me in the 
early 1980s. We helped him produce a documentary on Huey Long. 
That producer was Ken Burns, and, of course, he went on to 
present on PBS his landmark series on the Civil War, baseball, 
and jazz. We remain in touch, and I look every day for that 
next young producer who can so enrich our lives. Local public 
television stations have a responsibility to nurture that 
creativity.
    We also tackled difficult subjects that should be explored. 
This week, NOVA presented ``The Elegant Universe.'' I'm a 
history major, but even I tried to understand String Theory and 
the theory of everything. This is science and continuing 
education at its very best.
    It's in the area of news and public affairs that I think we 
can make an even greater contribution. This past Sunday--in 
fact, I was on C-SPAN last night, I think--I moderated a 
statewide debate between our gubernatorial candidates. This was 
just one program in an ongoing series of debates and political 
forums taking place across this country on public television 
and public radio stations, intelligent discourse and in-depth 
reporting sorely needed in the political process.
    Louisiana has had its share of colorful politics, and 
Louisiana public broadcasting has always had the reputation of 
fair, balanced, and accurate reporting. Public television and 
public radio should be an oasis for complex and difficult 
stories in a complicated world.
    We should also guard jealously our safe haven for children. 
This commitment to noncommercial and nonviolent children's 
programming is at the heart of our mission. I can testify 
firsthand about the measurable differences made in the lives of 
children because of programs such as Ready to Learn. Arthur, 
Clifford, and Big Bird are familiar names to your children and 
grandchildren, but a lifeline for the many children living in 
poverty in my state.
    Thank you for allowing me to share a few of my thoughts on 
an institution that I feel is vital to this country. If you 
give me the privilege of serving on the Corporation for Public 
Broadcasting's Board of Directors, I will do my best to see 
that we are good custodians of public funds and public airways. 
I will welcome your suggestions and gladly report our progress.
    I thank you for the opportunity to testify. I'm a fortunate 
person to be able to serve in a job that I love and be given 
the opportunity to make a difference in the lives of those 
around me. My 90-year-old father, who's a retired Air Force 
general, and my brother, who is an assistant U.S. attorney in 
San Diego, and here with me today, have both taught me much 
about the importance of public service. I hope you will 
consider giving me the opportunity to offer my service to the 
Corporation.
    Thank you.
    [The prepared statement and biographical information of Ms. 
Courtney follow:]

  Prepared Statement of Elizabeth (Beth) Courtney, President and CEO, 
                     Louisiana Public Broadcasting
    Good Morning Mr. Chairman and Members of the Committee. It is an 
honor to appear before you today. I would like to thank the President 
for nominating me to serve on the Board of Directors for the 
Corporation for Public Broadcasting. I would also like to express my 
gratitude for all of those who supported my nomination, especially 
those from my home state of Louisiana.
    It has been my privilege and pleasure to work most of my adult life 
in Public Broadcasting. Growing up in a military family, we moved 
frequently, but we always knew that Louisiana was home and when I had 
the opportunity to help start a new public television network in Baton 
Rouge, I enthusiastically agreed. We began in the basement of the State 
Department of Education in 1976 and today we operate multiple analog 
and digital stations across the state. New technology has allowed us to 
provide Internet services to schools as well as direct satellite 
instruction. I remain committed to the incredible power of this medium 
to teach. I have seen it make a difference in the lives of our 
citizens.
    My colleagues in public television have afforded me the opportunity 
to represent them on numerous boards. I have served as Vice Chairman of 
the Board of PBS and Chairman of the Board of the Association of Public 
Television Stations (APTS). The people involved in the enterprise are 
passionate and dedicated public servants. We are not perfect. This is a 
difficult time for all of us. The digital conversion costs are 
staggering in a nonprofit world, but we have managed to chart a course 
that will combine both public and private funds to meet that challenge. 
We also operate in a multi-channel environment that was not there when 
I began in 1976. But I will say with great conviction that we are 
needed more than ever in each community we serve. In Louisiana, we have 
just completed a six part series on the history of our state. Released 
this year to coincide with the 200th anniversary of the Louisiana 
Purchase, it includes a book, teacher's guide, website, and many 
outreach activities including a statewide history bee. This is not a 
one time television program or series broadcast from a remote location 
across the country. This is a local service for a local community. My 
effort is repeated every day by the public television stations in your 
communities.
    On the national level, we can share our best efforts with audiences 
across the United States. My inspiration for our history series came 
from a young producer who visited me in the early 80s. We helped him 
produce a documentary on Huey Long. That producer was Ken Bums and of 
course he went on to present on PBS his landmark series on the Civil 
War, Baseball, and Jazz. We remain in touch and I look every day for 
that next young producer who can so enrich our lives. Local public 
television stations have a responsibility to nurture creativity. We 
also tackle difficult subjects that should be explored. This week NOVA 
presented The Elegant Universe. I am a history major but even I tried 
to understand String Theory and the theory of everything. This is 
science and continuing education at its very best.
    It is in the area of news and public affairs that I think we can 
make an even greater contribution. This past Sunday I moderated a 
statewide debate between our gubernatorial candidates. This was just 
one program in an ongoing series of debates and political forums taking 
place across this country on public television and radio stations. 
Intelligent discourse and in depth reporting is sorely needed in the 
political process. Louisiana has had its share of colorful politics and 
Louisiana Public Broadcasting has always had the reputation of fair, 
balanced and accurate reporting. Public television and public radio 
should be an oasis for complex and difficult stories in a complicated 
world.
    We should also guard jealousy our safe haven for children. This 
commitment to noncommercial and nonviolent children's programming is at 
the heart of our mission. I can testify first hand about the measurable 
differences made in the lives of children because of the reading 
program, Ready to Learn. Arthur, Clifford, and Big Bird are familiar 
names to your children and grandchildren, but a lifeline for the many 
children living in poverty in my state.
    Thank you for allowing me to share a few of my thoughts on an 
institution that I feel is vital to this country. If you give me the 
privilege of serving on the Corporation for Public Broadcasting Board 
of Directors, I will do my best to see that we are good custodians of 
public funds and public airways. I will welcome your suggestions and 
gladly report our progress. I thank you for the opportunity to testify. 
I am a fortunate person to be able to serve in a job that I love and to 
be given the opportunity to make a difference in the lives of those 
around me. My ninety year old father who is a retired Air Force 
General, and my brother who is an assistant U.S. Attorney in San Diego 
and here with me today, have both taught me much about the importance 
of public service. I hope you will consider giving me the opportunity 
to offer my service to the Corporation for Public Broadcasting. Thank 
you.
                                 ______
                                 
                             Beth Courtney
    Beth Courtney is President and CEO of Louisiana Public Broadcasting 
(LPB), which includes a statewide public television network with 
stations in Shreveport, Monroe, Alexandria, Lafayette, Lake Charles, 
Baton Rouge and an affiliated station in New Orleans. LPB is also 
responsible for the support and development of public radio throughout 
Louisiana and serves as the state's educational technology resource 
center.
    She is Past Chairman of the Board of America's Public Television 
Stations (APTS) and former Vice Chairman of the Board of the Public 
Broadcasting Service (PBS). She is co-chairman of a PBS/APTS Board 
initiative to negotiate carriage of public broadcasting channels on 
digital cable and direct broadcast satellites. Ms. Courtney has chaired 
the PBS education, membership, and common carriage task forces. She 
currently serves on the Board Satellite Educational Resources 
Consortium (SERC), the Board of the Organization of State Broadcasting 
Executives (OSBE), the National Forum for Public Television Executives 
(NFPTE) and the National Educational Telecommunications Association 
(NETA).
    Ms. Courtney has testified before Congress on numerous occasions, 
including the House Appropriations and Commerce Committees, as an 
advocate and spokesperson for public broadcasting. She has appeared on 
William F. Buckley's Firing Line, CBS' Sunday Morning, CNN's Crossfire, 
and the Freedom Forum. She shared her expertise as a broadcasting 
professional on numerous telecommunications technology advisory 
committees on national, state and local levels.
    Ms. Courtney has a BS in History & Speech and an MA in European 
History and Government from Louisiana State University, an Honorary 
Doctorate from Southeastern Louisiana University, and she completed UC/
Berkeley's course in public broadcasting management. Prior to her 
appointment as CEO of LPB in 1985, she was LPB's Executive Producer. 
During her tenure numerous award-winning programs were produced and 
aired statewide; some aired nationally and internationally.
    Ms. Courtney started her career in broadcasting as a Capitol 
Correspondent, reporting on state government and moderating numerous 
political debates. She was named Communicator of the Year in 1984, 
elected Broadcaster of the Year by American Women in Radio & Television 
(AWRT) in 1988, and was one of the YWCA's Women of Achievement in 1991. 
Ms. Courtney was inducted into the Louisiana Center for Women in 
Government Hall of Fame in 1999. She is active in many community and 
civic organizations, including Rotary, the Public Affairs Research 
Council of Louisiana, Inc. (PAR), Baton Rouge Local Organizing 
Committee, Inc. Senior Olympics (BRLOC), Jr. League Advisory Board, 
Leadership Louisiana and is Vice-Chairman of the WLAE Board. She is a 
member and past president of the Baton Rouge Press Club, a member of 
the State Technology Advisory committee and a member of the Women's 
Network.
    In addition to her administrative duties, Ms. Courtney hosts the 
Annual Louisiana Young Heroes Awards, is the emcee of the Louisiana 
Legends Gala and recently co-hosted an award winning call-in program on 
breast cancer.
    Ms. Courtney was also honored by the National D-Day Museum for her 
work both behind the scenes and as co-host of the three-hour live 
program ``Louisiana Honors Its Veterans'' which celebrated the 
contributions of the state's World War II veterans and the opening of 
the National D-Day Museum.
    Ms. Courtney is married to Bob Courtney, President of Courtney 
Communications. Her daughter, Julia is an attorney.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nick names used): Elizabeth 
(Beth) Hardy Courtney.
    2. Position to which nominated: Corporation for Public 
Broadcasting, member, Board of Directors.
    3. Date of nomination: March 20, 2003.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Louisiana Public Broadcasting, 7733 Perkins Road, Baton 
        Rouge, Louisiana 70810.

    5. Date and place of birth: May 15, 1945; Shreveport, Louisiana.
    6. Marital status (Include maiden name of wife or husband's name):

        married to Robert Louis Courtney.

    7. Names and ages of children (Include stepchildren and children 
from previous marriages):

        Julia George Moore (33) daughter; Audrey Courtney (33) 
        stepdaughter; Jason Courtney (31) stepson; Joel Courtney (26) 
        stepson; Christopher Courtney (24) stepson.

    8. Education (List secondary and higher education institutions, 
dates attended, degree received):

        Louisiana State University--B.S. 1966

        Louisiana State University--MA. 1973

        Southeastern Louisiana University, Honorary Doctorate 1996

    9. Employment record (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.):

        Louisiana Educational Television Authority--President & CEO of 
        Louisiana Public Broadcasting--7733 Perkins Road, Baton Rouge, 
        Louisiana 70810--May, 1982 to present.

        Louisiana Educational Television Authority-News Director for 
        Louisiana Public Broadcasting, May 1976 to May 1982

        Free Lance Reporter 1972-1976

        Graduate Assistant LSU 1967-1970

        Stars and Stripes Newspaper 1966-1967

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State or 
local governments, other than those listed above.)

        Governor's Taskforce on Telecommunications

        State Technology Advisory Committee

        Chairman of the Board, the Association of Public Television 
        Stations (APTS)

        Mayor's Taskforce Smart Growth

        Mayor's Taskforce Children's Coalition

        Chairman of Louisiana's Film & Video Archives Commission

    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)

        Vice Chairman Public Broadcasting Service

        Chairman Satellite Educational Resources Consortium

        Chairman Organization State Broadcasting Executives

        Chairman SECA

        Chairman of Forum of Public Television Executives

        University Pointe (Chairman of the Board, non-profit retirement 
        Community)

        Mary Bird Perkins Cancer Center (Board of Directors)

        First Benefit Capital Insurance Company (Board Member)

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

        University Methodist Church

        Rotary Club of Baton Rouge

        Junior League Sustainer

        Public Affairs Research Council (Board of Directors)

        Baton Rouge Chamber of Commerce (Board of Directors)

        Baton Rouge Green (Board of Directors)

        Chi Omega Alumni

        Capital Area Women's Network

        Leadership Louisiana

    13. Political affiliations and activities:
    I have been employed as a political reporter, on camera host or 
public television executive since 1972. Therefore, I have not been a 
participant in any political party activities or elections. Serving as 
a moderator for numerous statewide debates, it is important for me to 
be very clearly non-partisan.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)

        Honorary Doctorate of Humanities--Southeastern University

        Communicator of the Year (PRAL)

        Outstanding Women of Achievement (YWCA)

        Louisiana Women's Political Hall of Fame

        Marketer of the Year

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)
    Numerous letters in Visions Magazine, a monthly publication sent to 
Friends of Louisiana Public Broadcasting. An introduction to An 
Illustrated History Of Louisiana published 2003 by the Foundation for 
Excellence in Louisiana Public Broadcasting.
    16. Speeches: (Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.)
    Please see attachments as Graduation Speech 2002 & Congressional 
Testimony
    17. Selection:

    (a) Do you know why you were selected for the position to which you 
have..been nominated by the President?
    My name was suggested by the board and officers of the Association 
of Public Television Stations (APTS). The authorizing legislation of 
CPB indicates one member shall be selected from among individuals who 
represent the licensees and permittees of public television stations. 
It is my honor to be considered for this position.
    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    Since 1976, I have worked for Louisiana Public Broadcasting helping 
to build our network into a vital community institution. In a state 
that has great challenges, we recognize the importance of public 
broadcasting as an educational medium. On the national level, I have 
served as Chairman of the Board for APTS and Vice Chairman of the Board 
for PBS. When there is a thorny subject facing public broadcasting, I 
have co-chaired our national negotiation for voluntary carriage of PBS 
stations by cable providers and direct broadcast satellite. I have also 
chaired industry groups on common carriage of programs, membership and 
education. On several occasions, I have testified before Congress as a 
representative of the station community. I hope my knowledge of our 
industry will be helpful to the Corporation for Public Broadcasting.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate?
    Not applicable. Position is for 60 day Board position.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.
    Not applicable. Position is for 60 day Board position.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employers, business firms, associations, or 
organizations?
    Not applicable. Position is for 60 day Board position.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?
    Not applicable. Position is for 60 day Board position.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?
    If confirmed, I would hope to serve out my full term.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    I am a state employee with retirement benefits after age 60. I am a 
participant in the state's deferred compensation plan and also have an 
individual IRA.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    My investments consisting of mutual funds and bank money market 
accounts are modest and should not create any potential conflicts of 
interest.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    My personal business dealings should result in no conflict of 
interest. I would recuse myself.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have testified before the House Appropriations Committee when it 
was chaired by Representative Bob Livingston of Louisiana. My testimony 
was in support of the funding for Public Broadcasting. I have also 
testified before the House Commerce Committee chaired by Representative 
Billy Tauzin of Louisiana. At the Congressman's request, I discussed 
the digital transition and the authorization of the Corporation for 
Public Broadcasting.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    I anticipate no potential conflict of interest, but I would rely on 
the General Counsel to give me advice if any question should arise.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?
    I agree to have any such opinions provided to the Committee.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain?
    No, other than routine licensing proceedings before the Federal 
Communications Commission.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I came from a military family with a strong sense of public 
service.
                     e. relationship with committee
    1. Will you ensure that your board/commission complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your board/commission does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    Yes. I look forward to the opportunity.
                  f. general qualifications and views
    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    I have 27 years experience in public broadcasting and a passion for 
the potential of this medium. I also understand the many challenges we 
face both fiscally and technically. I hope my knowledge will prove 
useful to the Corporation and to Congress.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    As a station representative, I hope to bring the grassroots 
perspective to this board. Local service to citizens is the foundation 
of public broadcasting.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    I would like to explore how the Federal appropriations are spent 
and how success is measured. Additionally, I would like to better 
understand the strategic planning role of the Corporation.
    4 What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    Although I have legislative responsibilities for encouraging the 
growth of Public Radio in Louisiana, I do not have an in-depth 
knowledge of the industry on a national basis. There are numerous 
meetings I would attend that would educate me fairly quickly.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    Our representative democracy has a clear responsibility to secure 
life, liberty and the pursuit of happiness for our citizens. As a 
wealthy nation, we should not allow our poor to go hungry nor our sick 
to suffer. Government should allow individual freedom of opportunity, 
religion, and speech. I also believe in personal responsibility and 
private investment. Government must provide security, but should also 
encourage business development, cultural investments, and charitable 
donations. Some government programs are created to address a crisis, 
but continue past the need. I think changing technology may also 
require a change in the way government does business.
    6. Describe the current mission, major programs, and major 
operational objectives of the board/commission to which you have been 
nominated.
    It is my understanding that the role of the Corporation for Public 
Broadcasting is to encourage the growth and development of public radio 
and television broadcasting as media for instructional, educational, 
and cultural purposes. The specifics of programs and objectives will be 
something I must learn if the Senate sees fit to confirm my nomination.
    7. What do you believe to be the top three challenges facing the 
board/commission and why?
    My initial impressions of the challenges to the Corporation come 
from a station perspective and include a chronic lack of funding, a 
changing media environment, and an expensive fundamental change in 
technology.
    8. In reference to question number six, what factors in your 
opinion have kept the board/commission from achieving its missions over 
the past several years?
    The Board has had to respond to rapidly changing technologies at 
the same time an economic downturn at both the national and state 
levels has seriously impacted public broadcasting.
    9. Who are the stakeholders in the work of this board/commission?
    I mentioned many of them previously, but I should say that every 
taxpayer and every viewer or listener has a clear stake in this 
enterprise.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    I believe we have a responsibility to listen and to respond to all 
stakeholders with policies that support the legislation that created 
the Corporation for Public Broadcasting.
    11. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    Although I was brought up in a military family, I believe in a 
``team approach'' to running our organization. We have clear civil 
service guidelines, and I have never had a complaint brought against 
me.
    12. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    I have a long and good working relationship with every member of 
the Louisiana delegation. I have known many of them and their staffs 
prior to their coming to Washington. As I mentioned previously, I have 
testified before both the House Appropriations and Commerce Committees. 
As the Chairman of the Board of APTS, I have had the pleasure of 
meeting with numerous Senators and Congressmen.
    13. In the areas under the board/commission jurisdiction to which 
you have been nominated, what legislative action(s) should Congress 
consider as priorities? Please state your personal views.
    I would hope Congress would reauthorize the Corporation for Public 
Broadcasting and would adequately fund our transition to digital 
broadcasting.
    14. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president.
    I would hope to serve the President as a thoughtful, honorable, and 
responsible board member.

    The Chairman. Thank you very much, Ms. Courtney.
    Mr. Van Tine?

STATEMENT OF KIRK K. VAN TINE, COUNSELOR TO THE SECRETARY, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Van Tine. Chairman McCain, Senator Lautenberg, and 
Senator Allen, thank you for the opportunity to appear before 
you today. And I especially want to thank Senator Allen for his 
kind introduction.
    It's a privilege to be here, and a great honor to have been 
selected by President Bush and Secretary Mineta for this 
position. If confirmed, I look forward to working closely with 
all the Members of this Committee on the many important 
transportation issues facing the Department today.
    During the past 2 years as General Counsel of the 
Department, I had the opportunity to work on a wide variety of 
transportation issues with a wide variety of people both inside 
and outside the Department. I learned a great deal during that 
period, and I believe that, if I were confirmed, my experience 
as General Counsel would be valuable preparation for the duties 
of the Deputy Secretary.
    I understand the complexity of the issues before the 
Department, and I have learned, from Secretary Mineta, the 
importance of listening and establishing a dialogue among those 
with conflicting views. One of the hallmarks of Secretary 
Mineta's tenure has been a persistent effort to achieve 
consensus where there are differences of opinion, and I view 
that as one of the fundamental responsibilities of the Deputy 
Secretary, as well.
    If confirmed, I'd also hope to work closely with all the 
Members of the Committee in connection with the Secretary's 
legislative priorities. As you know, the most urgent of these 
right now are reaching agreement on the FAA reauthorization and 
the reauthorization of the many surface transportation programs 
affecting the safety and infrastructure of our transportation 
system.
    I'd also hope to participate in an active dialogue with 
this Committee to help shape a new and stable future for 
national intercity passenger rail service in this country. And, 
Senator Lautenberg, on that point I would just like to assure 
you that the Department understands your concerns and is 
committed to the continuation of intercity passenger rail 
service, and I'd especially like to talk to you further about 
those issues, if I were confirmed.
    A second objective would be to help develop a seamless, 
smoothly functioning working relationship with the Department 
of Homeland Security. While our relationship is already 
cooperative and productive, there are numerous issues pending 
now and numerous issues that will arise in the future where 
close coordination and collaboration would help substantially 
to ensure that both the security and economic consequences of 
our respective actions are understood before, rather than 
after, the actions are taken. We owe it to the transportation 
industries we deal with every day and to the American people, 
as a whole, to ensure that both missions are accomplished as 
efficiently and intelligently as possible.
    Finally, a traditional role for the Deputy Secretary is to 
focus on improving the management of the Department's programs. 
While Secretary Mineta's team has made excellent progress in 
that regard over the past few years, there is always room for 
improvement, as our Inspector General reminds us from time to 
time. As General Counsel, I worked closely with the Inspector 
General in addressing numerous management issues within the 
Department, and I would expect to maintain that excellent 
working relationship in the future.
    Secretary Mineta has emphasized the need to deliver a full 
measure to the American taxpayers in programs we administer, 
and I believe that, if confirmed, my background would equip me 
well for that task. I know you're extremely busy, and I'd like 
to thank the Committee for scheduling today's hearing. I'd be 
pleased to respond to any questions you may have.
    [The prepared statement and biographical information of Mr. 
Van Tine follow:]

Prepared Statement of Kirk K. Van Tine, Nominee to be Deputy Secretary, 
                   U.S. Department of Transportation
    Chairman McCain, Senator Hollings and members of the Committee, 
thank you for the opportunity to appear before you today to consider my 
nomination to be Deputy Secretary of the Department of Transportation. 
It is a privilege to be here and a great honor to have been selected by 
President Bush and Secretary Mineta for this position. If confirmed, I 
look forward to working closely with all the members of this Committee 
on the many important transportation issues facing the Department 
today.
    During the past two years, as General Counsel of the Department, I 
had the opportunity to work on a wide variety of transportation issues 
with a wide variety of people, both inside and outside the Department. 
I learned a great deal during that period, and I believe that, if I 
were confirmed, my experience as General Counsel would be valuable 
preparation for the duties of the Deputy Secretary.
    I understand the complexity of the issues before the Department, 
and I have learned from Secretary Mineta the importance of listening 
and establishing a dialogue among those with conflicting views. One of 
the hallmarks of Secretary Mineta's tenure has been a persistent effort 
to achieve consensus where there are differences of opinion, and I view 
that as one of the fundamental responsibilities of the Deputy Secretary 
as well.
    If confirmed, I would also hope to work closely with all the 
members of this Committee in connection with the Secretary's 
legislative priorities. As you know, the most urgent of those 
priorities right now are reaching agreement on the FAA reauthorization, 
and the reauthorization of the many surface transportation programs 
affecting the safety and infrastructure of our transportation system 
that will expire next February under the current TEA-21 extension. I 
would also hope to participate in an active dialogue with this 
Committee to help shape a new and stable future for national intercity 
passenger rail service in this country.
    A second objective, both in the short term and the long term, would 
be to help develop a seamless, smoothly functioning working 
relationship with the Department of Homeland Security in the many areas 
where our respective responsibilities intersect. While our relationship 
is already cooperative and productive, there are numerous issues 
pending now, and numerous issues that will arise as the Department of 
Homeland Security becomes fully operational, where close coordination 
and collaboration would help substantially to ensure that both the 
security and economic consequences of our respective actions are 
understood before, rather than after, the actions are taken. We owe it 
to the transportation industries that we deal with every day, and to 
the American people as a whole, to ensure that both missions are 
accomplished as efficiently and intelligently as possible.
    Finally, a traditional role of the Deputy Secretary is to focus on 
improving the management of the Department's programs. While Secretary 
Mineta's team has made excellent progress in that regard over the past 
few years, there is always room for improvement, as our Inspector 
General reminds us from time to time. As General Counsel, I worked 
closely with the Inspector General in addressing numerous management 
issues within the Department, and I would expect to maintain that 
excellent working relationship in the future. I take very seriously the 
Inspector General's recommendations regarding the top management 
challenges facing the Department, including particularly the need for 
effective oversight of ``mega projects.'' Secretary Mineta has 
emphasized the need to deliver ``full measure'' to the American 
taxpayer in the programs we administer, and I believe that, if 
confirmed, my background would equip me well for that task.
    I know that you are extremely busy, and I would like to thank the 
Committee for scheduling today's hearing. I would be pleased to respond 
to any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nick names used.) Kirk K. Van 
Tine.
    2. Position to which nominated: Deputy Secretary, U.S. Department 
of Transportation.
    3. Date of nomination: September 18, 2003.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.

        Office: U.S. DOT, 400 7th Street, S.W., Washington, D.C. 20590.

    5. Date and place of birth: August 30, 1948; Syracuse, New York.
    6. Marital status: (Include maiden name of wife or husband's name.)

        Married to Barbara B. Van Tine; maiden name Barbara A. Byers.

    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.)

        Mary Lindsay Van Tine, 22; Meredith Leigh Van Tine, 19.

    8. Education: (List secondary and higher education institutions, 
dates attended, degree received.)

        1966 to 1970 U.S. Naval Academy, Annapolis, MD; B.S., June 1970

        1975 to 1978 University of Virginia School of Law, 
        Charlottesville, VA; J.D. 1978

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

        1970-1975 Officer, U.S. Navy, various locations

        1975-1978 Student, U. Va. School of Law, Charlottesville, VA

        Summer 1976 Summer Associate, Law office of Northcutt Ely, 
        Washington, D.C.

        Summer 1977 Summer Associate, Baker & Botts, Washington, D.C.

        Summer 1977 Summer Associate, Hunton & Williams, Richmond, VA

        1978-2001 Attorney, Baker Botts, L. L. P., Washington, D.C. 
        (Associate 1978-1986; Partner 1987-2001)

        9/01 to Present General Counsel, U.S. Department of 
        Transportation

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State or 
local governments, other than those listed above.)

        General Counsel, U.S. Department of Transportation, 2001-2003

        U. S. Navy, 1966-1975

    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)

        Former Partner, Baker Botts, L.L.P

        Former Partner, Boterlove (Baker Botts real estate partnership 
        in Houston office building where firm offices are located)

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

        Member, D.C. Bar Association
        Member, City Club of Washington

    13. Political affiliations and activities:

    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.
    11/17/00 to 12/13/00 Provided legal services in support of George 
W. Bush in connection with 2000 Presidential Election litigation in 
Tallahassee, Florida.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        1999 The Bluebonnet Fund (Baker Botts Political Action 
        Committee, $522)

        2000 The Bluebonnett Fund (Baker Botts Political Action 
        Committee, $522)

        2001 The Bluebonnett Fund (Baker Botts Political Action 
        Committee, $540)

        1999 George W. Bush, Republican Presidential Primary Campaign, 
        $1,000

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)

        Competitive Appointment to U.S. Naval Academy

        National Defense Service Medal, U.S. Navy

        Virginia Law Review

        Order of the Coif (top 10 percent of law school class)

        D.C. Bar Best Section Award, Litigation Section Co-chair, 1999-
        2000

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)

        ``Financial Services Modernization:'' A Cure for Problem 
        Banks?, 69 Wash, U.L. Q. 809 (1991).

        Enforcement Issues Under the Natural Gas Act of 1938 and the 
        Natural Gas Act of 1978, 16 Hous. L. Rev. 1025 (1979).

    16. Speeches: (Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.) None.
    17. Selection:

    (a) Do you know why you were chosen for this nomination by the 
President?
    I believe I was chosen as a result of my background and experience 
as General Counsel of the Department of Transportation for the past two 
years and as a lawyer practicing in Washington, D.C. since 1978. As 
General Counsel, I have gained substantial experience and familiarity 
with a wide range of policy issues and administrative matters presently 
before the Department of Transportation.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    For the past two years, as the chief legal officer of the 
Department, I have been responsible for the resolution of significant 
substantive issues arising across the whole range of the Department's 
activities. In addition, working with the modal Chief Counsels, I have 
been responsible for the management of the Department's legal 
personnel. My experience and training to date, both at the Department 
and in private practice, have been directed towards solving practical 
problems in ways that are consistent with law. Through my involvement 
as General Counsel, I am already familiar with many of the important 
issues facing the Department today, and I am well acquainted with many 
of the key career staff and political appointees at the Department. I 
have also gained experience with respect to the workings of government, 
and have learned to represent the Department capably in the legislative 
process and within the Executive Branch. Also relevant to the day-to-
day functions of the office of Deputy Secretary is my management 
experience over the past 33 years in various positions in the U.S. 
Navy, in a law firm, and at the Department.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate?
    Not applicable (current DOT employee).
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.
    I have no such arrangements or agreements with any entity.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Please refer to Deputy General Counsel Opinion Letter.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    Please refer to Deputy General Counsel Opinion Letter. In addition, 
during 1995-1996, I served as lead counsel in one case against the 
Department of Transportation, Mesa Air Group, Inc. v. Department of 
Transportation, 87 F.3d 498 (D.C. Cir. 1996). That case concluded in 
1996, and I have had no relationship with Mesa Air Group since that 
date.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.
    For the past two years, I have participated in DOT legislative 
issues as necessary to carry out my duties as General Counsel.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    Please refer to the Deputy General Counsel Opinion Letter.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information?
    Yes, to the best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes, to the best of my ability.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee?
    Yes, to the best of my ability.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress.
    If confirmed, I expect that one of my primary responsibilities as 
Deputy Secretary would be to supervise and work to improve the 
rulemaking process within the Department. I would expect to be involved 
in all major rulemaking efforts, with the goal of ensuring that all 
rules issued by the Department comply with the letter and the spirit of 
the laws passed by Congress. As part of that process, I would expect to 
meet regularly with each of the operating administrations within the 
Department to review the progress of their rulemaking efforts.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives.
    The Department's primary mission with respect to every mode of 
transportation is to promote safety. Other missions include, in 
general, the need to maintain and improve the transportation 
infrastructure, increasing transportation efficiency and capacity, 
thereby relieving transportation congestion, the regulation of 
transportation modes as authorized by statute, and the appropriate 
balancing between development of transportation systems and the 
protection of the environment. In addition, the Maritime Administration 
promotes a healthy merchant marine in support of the defense posture of 
the United States. The Department also works closely with the 
Department of Homeland Security to improve the security of all modes of 
transportation.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How have your previous professional experience and education 
qualifies you for the position for which you have been nominated.
    See response to Part A, items 17 (a) and (b) above.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    First and foremost, I have a genuine desire to be of service to the 
United States. The actions of the Department of Transportation have a 
direct impact on the daily lives of the American people and I would be 
honored to play a role in helping to shape those actions. In addition, 
I enjoy new challenges, and I believe that the position of Deputy 
Secretary would be both intellectually challenging and professionally 
stimulating.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    If confirmed, my immediate short term goal will be to meet with 
each of the Administrators, reacquaint myself with the current issues 
facing each of the operating administrations, and ensure that an action 
plan to resolve those issues is in place and proceeding satisfactorily. 
In addition to the remaining issues regarding DOT's 2004 appropriation, 
the Department presently has pending reauthorization proposals for each 
of its modes, and a reauthorization proposal for Amtrak is pending as 
well. I would expect to be involved in those legislative matters and 
would expect to work closely with Congress as it considers and enacts 
authorizing legislation. Longer term, I would also expect to devote 
substantial time and attention to a continuing review of the economic 
condition of the airline industry, as it recovers from the terrorist 
attacks of September 11, 2001. On a continuing basis, I would work to 
cement a strong working relationship and solid communication links with 
the Department of Homeland Security, as we work together to address the 
security challenges facing the Nation's transportation infrastructure. 
Finally, I would hope to make significant progress in achieving the 
Secretary's goal of improving and expediting the Department's 
rulemaking process.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    As General Counsel, I worked closely with the previous Deputy 
Secretary virtually every working day for almost two years. As a 
result, I had daily opportunities to observe the considerable skill 
with which he carried out his duties, and I learned a great deal from 
watching him. While I am still relatively inexperienced in government, 
I believe that my legal training and my experiences over the past two 
years provide me with the basic skills necessary to carry out the 
duties of the Deputy Secretary successfully.
    5. Who are the stakeholders in the work of this agency?
    The Department's primary stakeholders are the American people, 
virtually all of whom have significant personal and economic interests 
in the safety and efficiency of our transportation systems. Other 
stakeholders, all of whom have major roles in improving the overall 
quality of our transportation systems include Congress, the States, 
local governments, commercial businesses that provide transportation 
goods and services, and the labor forces who build and operate our 
transportation network.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten.
    If confirmed, one of my responsibilities as Deputy Secretary would 
be to listen to the views of the stakeholders identified above, and 
give those views appropriate weight in making decisions affecting the 
operations of the Department. In balancing the views of various 
stakeholders, the Department should be guided by the intent of Congress 
as expressed in the statutes applicable to the Department's operations.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your agency has proper management and accounting controls?
    If confirmed, I would be responsible as Deputy Secretary for 
ensuring the Department's compliance with all Acts of Congress, 
including the Chief Financial Officers Act. As General Counsel, I have 
worked closely with both the Chief Financial Officer and the Inspector 
General to ensure full compliance with all legal requirements regarding 
the Department's financial management. I understand the importance of 
accounting controls and would ensure continued compliance with all 
legal requirements to the best of my ability.
    (b) What experience do you have in managing a large organization?
    My management training and experience began, in a very small way, 
on my first day at the U.S. Naval Academy, and my primary roles during 
my subsequent service as an officer in the Navy were to lead and 
manage. While I did not manage large numbers of people, I learned to 
lead by example, to instill a sense of common purpose and pride in the 
organization, to earn the respect of my subordinates by learning the 
details of their work, and to value the contributions of all.
    Between 1978 and 2001, I practiced law at the firm of Baker Botts, 
L. L. P., eventually becoming the head of the Litigation Practice Group 
in the Washington, D.C. office. When I left the firm, that practice 
group consisted of approximately 40 lawyers and seven legal assistants, 
for which I had management responsibility. Over the course of my 23 
years at Baker Botts, I had various other management responsibilities 
within the firm, serving as hiring partner for the Washington office 
for nine years, serving on the firm-wide strategic planning committee, 
serving on the firm-wide compensation committee, and serving on various 
ad hoc budget and marketing committees. I also served on the Steering 
Committee of the Law Practice Management Section of the D.C. Bar for 
several years, serving as Co-Chair of the Section during 2000-01. While 
no law firm experience can compare to the management challenges 
presented by government service, I believe that, when I became General 
Counsel of the Department in 2001, I was adequately prepared to assume 
the management responsibilities associated with that position.
    Since September 2001, as General Counsel, I have had primary 
responsibility for managing the legal affairs of the Department, and 
have been significantly involved in a wide range of other management 
issues, including major administrative matters regarding the personnel, 
working space and organization of the Department.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals.
    Performance goals and required reports are a valuable tool for both 
Congress and the Department. For Congress, the requirement to establish 
goals and report results provides a concrete way to assess an agency's 
effectiveness in carrying out its missions. The required reports also 
provide a way for Congress to identify specific problem areas at an 
early stage. For the Department, the establishment of performance goals 
is beneficial because the process of developing those goals requires 
the Department to consider, discuss and decide among competing 
priorities and possible policy choices and formulate an integrated and 
coherent plan for achieving its objectives. In addition, the 
requirement to submit reports is useful as a catalyst for establishing 
internal deadlines in the organization and ensuring that necessary 
actions move forward as expeditiously as possible. The preparation of 
required reports also serves as a focus for a periodic internal 
evaluation of the Department's performance, and as an additional 
incentive to maintain proper management and supervision over the 
Department's activities.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs?
    Congress has an important oversight role in reviewing the 
performance of Executive Branch agencies. Where an agency has failed to 
achieve its goals, an important first question should be whether the 
agency has sufficient resources to achieve those goals. If so, then the 
focus should be on whether the agency has been granted, and has 
exercised, the necessary legal authority to carry out its missions and 
achieve its goals. If the agency has simply failed to perform 
satisfactorily, its operations should be reviewed to determine the 
fundamental problems that it must overcome. While it is beneficial to 
review periodically the need for and nature of government programs, 
elimination, downsizing, privatization or consolidation would seem to 
be solutions to be undertaken only where there is sufficient consensus 
that the original purposes of the agency are no longer necessary in the 
public interest, or that the agency no longer has the ability to 
perform its assigned mission.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    The performance of the Deputy Secretary should be evaluated in at 
least three areas. First, as one of the senior officials of the 
Department, the Deputy Secretary should give sound, clear and timely 
advice to the Secretary and the Administrators, helping the Department 
to achieve its operational and policy goals in implementing the 
statutes adopted by Congress. Second, as a senior manager within the 
Office of the Secretary, the Deputy Secretary has a responsibility to 
direct the activities and monitor the performance of other OST 
personnel. Third, as a Departmental official who will work closely with 
both Congress and the other Executive Branch agencies, the Deputy 
Secretary should be a knowledgeable, professional and collegial 
advocate for the views of the Department, and should attempt to resolve 
differing views in a cooperative rather than a confrontational way.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I believe that supervisor/employee relationships should be 
professional, but as informal as possible while maintaining a 
businesslike atmosphere. I have always tried to treat others as I would 
like to be treated, with respect and consideration. I follow a 
supervisory model that stresses teamwork, open and frequent 
communications, and inclusion and consideration of all views and ideas 
in the decision making process. I give credit for successes to my 
subordinates, and assume responsibility for problems myself. No 
employee complaints have ever been brought against me.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe.
    During the past two years, in the course of my duties as General 
Counsel, I believe I have begun to develop a good working relationship 
with Congress, including particularly the committees with jurisdiction 
over transportation issues. The majority of my communications with 
Congress to date have been in the form of formal correspondence or 
technical discussions with committee staff. If confirmed, I would 
continue to develop a cooperative and professional working 
relationship, to ensure that the concerns of the committees and of 
individual Members are promptly and effectively addressed.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    I believe that the proper relationship between the Deputy Secretary 
and the Inspector General is one of independence and mutual respect. As 
a matter of course, I believe the Deputy Secretary should cooperate 
fully with the Inspector General at all times, and should make every 
effort to implement recommendations of the Inspector General regarding 
matters within the scope of the Deputy Secretary's authority. As 
General Counsel, I have established a close working relationship with 
the Inspector General and his staff, and if confirmed, I would expect 
to continue that relationship and work cooperatively with the common 
goal of improving the operations of the Department.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress.
    I believe that one of the Deputy Secretary's primary 
responsibilities is to ensure that all of the Department's actions are 
authorized by law, and consistent with both the letter and the spirit 
of the statutes passed by Congress. If confirmed, I will work closely 
with the Committee and other stakeholders to ensure that all views as 
to the intent of Congress are given appropriate weight.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views.
    With respect to the Department of Transportation, I believe that 
safety issues should always be the highest priority. With that in mind, 
establishing the statutory authority for, and long-term financing of, 
the Department's aviation and surface transportation programs through 
the reauthorization process is currently the highest legislative 
priority of the Department. Finally, in the near term, it is important 
that appropriations legislation be enacted to provide current-year 
funding for the programs of the Department.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a time frame for their 
implementation.
    Yes, to the extent such matters are within my authority as Deputy 
Secretary. If confirmed, my primary roles in this area will be to 
consult with the senior staff of the Department regarding the criteria 
in each case and to advise the Secretary with respect to budget and 
grant award issues. I would begin to do so immediately, to the extent I 
am involved in decisions regarding discretionary spending.

    The Chairman. Thank you very much.
    Mr. Rosen?

   STATEMENT OF JEFFREY A. ROSEN, SENIOR PARTNER, KIRKLAND & 
                           ELLIS, LLP

    Mr. Rosen. Chairman McCain, Senator Allen, Senator 
Lautenberg, thank you for the opportunity to appear here today. 
It is an honor both to have been nominated by President Bush 
and to appear before this Committee as you consider my 
nomination for the position of General Counsel of the U.S. 
Department of Transportation. I also would like to thank 
Senator Allen for those very kind introductory remarks.
    After spending more than 21 years in the private practice 
of law, it would be a privilege for me to play a part in 
helping Secretary Mineta and the Department address the 
transportation issues that affect every citizen and every 
business in our country. Indeed, the transportation industries 
have been important to my family and of great personal interest 
to me.
    My grandfather worked most of his life for a railroad in 
the Northeast. My brother went to college at Embry-Riddle 
Aeronautical Institute because he wanted to fly. And in my own 
professional career, I came into contact with a wide range of 
industries, occasionally including the transportation sector of 
our economy, such as cruise lines, ammonia pipelines, and 
automobiles.
    The Department of Transportation faces important challenges 
in improving the safety of our transportation systems, in 
reducing congestion, and maintaining and improving our 
transportation infrastructure while, at the same time, 
protecting our communities and environment. If confirmed as 
general counsel, I would work to provide the Department with 
the highest quality of legal advice and representation.
    Finally, let me say that I have a strong desire to 
participate in public service and contribute in some meaningful 
way to our country. Reflecting back many years, that was what 
attracted me to law school in the first place. I regard my 
nomination to this position as a great honor, and I hope I'll 
have the privilege to serve. If I am confirmed, I look forward 
to working with all of you and your staffs.
    Thank you, again, for giving me this opportunity to appear 
today, and I would be, of course, pleased to answer any 
questions you might have.
    [The prepared statement and biographical information of Mr. 
Rosen follow:]

Prepared Statement of Jeffrey A. Rosen, Nominee to be General Counsel, 
                   U.S. Department of Transportation
    Chairman McCain, Senator Hollings and Members of the Committee, 
thank you for the opportunity to appear here today. It is an honor both 
to have been nominated by President Bush and to appear before this 
Committee as you consider my nomination for the position of General 
Counsel of the U.S. Department of Transportation.
    After spending more than 21 years in the private practice of law, 
it would be a privilege for me to play a part in helping Secretary 
Mineta and the Department address the transportation issues that affect 
every citizen and every business in our country. Indeed, the 
transportation industries have been important to my family, and of 
great interest to me. My grandfather worked most of his life for a 
railroad in the northeast. My brother went to college at Embry-Riddle 
Aeronautical College because he wanted to fly. In my own professional 
career, I came into contact with a wide range of industries, 
occasionally including the transportation sector of our economy, such 
as cruise lines, ammonia pipelines, and automobiles.
    The Department of Transportation faces important challenges in 
improving the safety of our transportation systems, reducing 
congestion, and maintaining and improving our transportation 
infrastructure, while protecting our communities and environment. If 
confirmed as General Counsel, I would work to provide the Department 
with the highest quality of legal advice and representation.
    Because I was a litigator, as opposed to a specialist in 
transportation regulations or legislation, I will need to learn more 
about the details of the particular statutes under which the Department 
operates, and I have started that process. Given the variety and volume 
of the Department's activities, I believe that my broad experience as a 
lawyer, as well as my experience in managing lawyers at a large law 
firm, would prove to be helpful if I am confirmed to serve as the chief 
legal officer of the Department of Transportation.
    Finally, let me say that I have a strong desire to participate in 
public service and contribute in some meaningful way to our country. 
Reflecting back many years, that was what attracted me to go to law 
school in the first place. I regard my nomination to this position as a 
great honor, and hope I will have the privilege to serve. If I am 
confirmed, I look forward to working with all of you and your staffs.
    Thank you again for giving me this opportunity to appear today, and 
I would be pleased to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1.  Name (Include any former names or nick names used.): Jeffrey 
Adam Rosen.
    2. Position to which nominated: General Counsel of the U.S. 
Department of Transportation.
    3. Date of nomination: October 3, 2003.
    4. Address:

        Residence: Information not released to the public.

    5. Date and place of birth: April 2, 1958; Boston, Massachusetts.
    6. Marital status: Married for 21 years to Kathleen Nichols Rosen; 
wife's maiden name was Kathleen Sue Nichols.
    7. Names and ages of children: Anne Rebecca Rosen, age 13; Sally 
Amanda Rosen, age 11; James Kenneth Rosen, age 9.
    8. Education:

        Brockton High School, Brockton, Massachusetts; attended 9/72-6/
        76; diploma in June 1976.

        Northwestern University, Evanston, Illinois; attended 9/76-6/
        79; B.A. with highest distinction received in June 1979.

        Harvard Law School, Cambridge, Massachusetts; attended 9/79-6/
        82; J.D. magna cum laude received in June 1982.

    9. Employment record:

        (a) Kirkland & Ellis LLP., Washington, D.C., June 1982 to 
        October 2003: Began as an associate, became a partner in 1988, 
        and eventually became co-head of firm's Washington, D.C. office 
        and a member of the firm-wide management committee beginning in 
        1999. Private practice of law for 21 years.

        (b) Georgetown University Law Center, Washington, D.C., January 
        1996 to present: Adjunct Professor. Have taught courses in 
        professional responsibility and legal ethics.

        (c) Dewey Ballantine LLP., New York, N.Y., June 1981 to August 
        1981. Worked as summer associate at law firm during summer 
        before last year of law school.

        d) Lord Bissell & Brooke, Chicago, Illinois, June 1980 to 
        August 1980. Worked as summer associate at law firm during 
        summer after first year of law school.

        (e) Apparel Buying Company, Braintree, Massachusetts, June 1979 
        to August 1979 (and previous summers). Worked as summer 
        warehouse employee during summer after college and before law 
        school

    10. Government experience:
    Member of Arlington County (Virginia) Historical Affairs and 
Landmark Review Board, appointed by County Board, during the period 
March 1991 to March 1993.
    11. Business relationships:

        Partner in Kirkland & Ellis L.L.P., 6/82 to 10/03, and Kirkland 
        & Ellis International, 11/94 to 10/03

        Member of the Board of Visitors, Northwestern University 
        College of Arts & Sciences, 5/98 to present.

    12. Memberships:

        Memberships: U.S. Supreme Court Historical Society (1990 to 
        present); American Law Institute (1996 to present); American 
        Bar Association (1983 to present); National Association of 
        Scholars (approx. 1995 to present); Society of Automotive 
        Engineers (approx. 1990 to present); Association for the 
        Advancement of Automotive Medicine (approx. 1990 to present); 
        Defense Research Institute (approx. 1990-95); Chesterbrook 
        Woods Citizens Association (1993-present); McLean Community 
        Association (approx. 1994-2002); Virginia Historical Society 
        (1991 to present); National Trust for Historic Preservation 
        (approx. 1995-2002); Arlington Historical Society (1991-94); 
        Fairfax Historical Society (1997 to present); Library of 
        Congress Associates (approx. 1995-2001); Northwestern 
        University Alumni Club of Washington, D.C. (1983 to present); 
        McLean Racquet Club (1994 to present); Chesterbrook Community 
        Association (1994 to present); Reston Raiders Hockey Club (1998 
        to present).

        Bar Memberships: D.C. Bar; U.S. Supreme Court; U.S. Court of 
        Appeals for the D.C. Circuit, U.S. Court of Appeals for the 
        Federal Circuit; U.S. Court of Appeals for the Third Circuit; 
        U.S. Court of Appeals for the Fourth Circuit, U.S. Court of 
        Appeals for the Sixth Circuit; U.S. Court of Appeals for the 
        Eleventh Circuit; U.S. District Court for the District of 
        Columbia; U.S. District Court for the Eastern District of 
        Michigan; U.S. District Court for the Northern District of 
        Illinois.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    I have not held nor been a candidate for any public office. While 
in law school in 1981 I became an Alternate Member of the Ward Seven 
Democratic Committee in Cambridge, MA. In 1987 I served as a member of 
the Arlington, VA Democratic Committee. In 1988 I was elected as a 
delegate to the Virginia Democratic convention.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years: None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    My records reflect the following contributions of$500 or more: 
September 1993:

        Kirkland & Ellis PAC, $750

        July 1994: Kirkland & Ellis PAC, $750

        November 1995: Kirkland & Ellis PAC, $1,125

        December 1997: Cordray for Ohio Attorney General, $500

        June 1999: Bush for President, $1,000

        May 2000 Bush for President Compliance Committee, Inc., $200

        February 2000: Cordray for U.S. Senate Committee, $500

        April and December 2001, Senator John Warner Committee, $250 
        and $250

    In addition, I have from time to time made various contributions of 
lesser amounts to other candidates and political organizations, such as 
the Republican National Committee.
    14. Honors and awards:
    Member of American Law Institute; In college, I was elected to Phi 
Beta Kappa and Deru honorary societies.
    15. Published writings:
    Article: ``Court Acceptance of `In Kind' Settlements in Consumer 
Class Actions,'' 9 Class Actions & Derivative Suits (ABA Litigation 
Section) 20 (Summer 1999).
    16. Speeches:

        Speaker at Kirkland & Ellis Litigation Conference on ``The 
        Future of Class Action Litigation: Dealing with the Ripple 
        Effects of The Supreme Court Decisions in Amchem and Ortiz'' 
        (September 16, 1999)

        Speaker at Price Waterhouse General Counsel Forum on ``Taming 
        the Class Action Tiger: Surviving Settlement Challenges'' 
        (December 16, 1999).

        Speaker at ALI-ABA Securities Law Seminar on ``New Dimensions 
        In Sec ties Litigation'' (March 22, 1990).

    I have not been able to locate copies of my actual remarks at these 
presentations.
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President?
    I believe I was chosen for this nomination because I was regarded 
as an experienced lawyer with management experience in a large national 
law firm.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    Several aspects of my professional experience qualify me for this 
position. First, I am an experienced trial lawyer, with more than 21 
years of experience in Federal and state courts around the country. I 
have appeared in courts in more than 20 states, and in proceedings 
involving jury trials, bench evidentiary hearings, arbitrations, and 
appeals, so I have a background that enables me to provide legal 
counsel to the Secretary and others at the Department. Second, I have 
had considerable experience in the management of lawyers in a large 
organization at Kirkland & Ellis LLP, which is a law firm with more 
than 900 lawyers and 2400 total personnel in six office locations. In 
addition to my term on the firm's management committee, I have had 
experience on the firm's finance committee, litigation management 
committee, technology committee, and personnel review committees. Those 
experiences should be useful in helping to guide the Department's legal 
activities and its more than 450 lawyers. Third, during the course of 
my 21 years of private practice, the business litigation in which I 
have participated has brought me into contact with a wide variety of 
industries, including at times some participants in the transportation 
sector, such as cruise lines, ammonia pipelines, railroads, and 
automobile manufacturers. While I am not an administrative law or 
regulatory practitioner, some familiarity with the transportation 
sector is likely to be helpful to my understanding of the legal, 
legislative, and policy issues that the Department faces. Fourth, as an 
adjunct professor at Georgetown University Law Center I have taught 
professional responsibility and legal ethics, which are obviously as 
important to public service as to the private practice of law.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.
    I have no such arrangements except the departure compensation 
payment owed by Kirkland & Ellis LLP and the unfunded retirement plan 
benefits that are identified on my financial disclosure report.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I am unaware of any potential conflicts of interest other than 
those identified in the Acting General Counsel's Opinion letter.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    Please refer to the Acting General Counsel's Opinion Letter.
    In addition, during 1994 and 1995 I served as counsel in a case 
against the Department of Transportation, General Motors Corp. v Pena, 
No. 94-CV-74668 (E.D. Mich. 1994-95) and NHTSA EA92-041(1992). That 
case concluded in March, 1995 with a settlement See 60 Fed. Reg. 13752 
(March 14, 1995). I also appeared as counsel with regard to 
investigations before the NHTSA in four instances: (a) 1986-89 Hyundai 
Excel transmission investigation, NHTSA C-92-001; this matter was 
closed by the agency on October 29, 1993. (b) 1994 Hyundai Sonata 
compliance with FMVSS 214, NHTSA HS#631039; this matter was closed by 
the agency early in 1995. (c) GM Type III door latch petition, NHTSA 
DP-96-008; this petition was denied by the agency in 1996. See 61 Fed. 
Reg. 64563 (December 5, 1996). (d) 1991-97 GM S/T Trucks Antilock 
Brakes, NHTSA EA94-038; the agency closed this investigation on 
February 8, 2000. To the best of my knowledge, none of these presently 
remain open and/or pending before the Department of Transportation.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    Please refer to the Acting General Counsel's Opinion Letter.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details?
    I have never been involved as a party to any civil litigation or 
administrative agency proceeding, nor have I been an officer of any 
business that was a party. I am aware that Kirkland & Ellis LLP has on 
occasion been a party in some civil litigation, but none of those 
concerned any activities involving me personally nor did they involve 
the Department of Transportation, and I am not personally familiar with 
the details of those lawsuits.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information?
    Yes, to the extent it is within my authority and ability to do so.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes, to the extent it is within my authority and ability to do so.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee?
    Yes, to the extent it is within my authority and ability to do so.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress.
    If I am confirmed, this would be an important aspect of my 
responsibilities as General Counsel. I am generally familiar with the 
Administrative Procedure Act and the body of judicial case law that 
addresses the need for rulemaking activities to comport with the 
enabling statutes enacted by Congress. The Office of the General 
Counsel has significant oversight responsibilities with respect to 
rulemaking activity within the Department. If confirmed, I would want 
all Department rulemakings to implement effectively the objectives of 
the statutes passed by the Congress. I would also anticipate that, to 
the extent permitted by applicable law, I would receive and consider 
communications from Congress with respect to ongoing and future 
rulemaking activities. I am prepared to devote the necessary time and 
effort to avoid the issuance of regulations that would be inconsistent 
with the laws passed by Congress and the objectives reflected in such 
laws.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives.
    The Department's mission, programs, and objectives have been 
defined by the governing statutes passed by Congress and the policy 
directions set forth by President Bush and Secretary Mineta. As 
described in the DOT Strategic Plan for 2003-2008, the Department's 
mission is to ``develop and administer policies and programs that 
contribute to providing fast, safe, efficient, and convenient 
transportation at the lowest cost consistent with the national 
objectives of general welfare, economic growth and stability, the 
security of the United States and the efficient use and conservation of 
the resources of the United States.'' Much of the Department's mission 
is pursued through the operating administrations' programs at the FAA, 
NHTSA, FMCSA, FHWA, FRA, FTA, MARAD, and SLSDC, as well as the RSPA and 
the Bureau of Transportation Statistics.
    As I understand them, the Department's major priorities involve the 
enhancement of safety and security to protect the well-being of our 
population, and the maintenance and improvement of the Nation's 
transportation infrastructure so as to expand mobility, improve 
intermodal and global connections, and reduce congestion in order to 
promote our national economy and quality of life. These objectives need 
to be accomplished by means (a) that enhance our communities and 
protect the natural and built environment, (b) that are coordinated 
with other government objectives and activities, and (c) that reflect 
an organizational commitment to excellence and continual improvement.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated.
    Please see my response to Part A, items 8, 9, and 17.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    First, I have a strong desire to participate in public service, and 
to make a contribution to our country to the extent I can do so 
usefully. Second, I believe that I can make a positive contribution at 
DOT because of my professional experience in private practice, my 
experience in managing lawyers, and my personal interest in the 
transportation sector of our economy. In addition, I am attracted to 
the challenge of assisting in the objectives of a Department whose 
actions have a direct impact on the daily lives of the American people, 
and I am honored that President Bush has nominated me for this 
position.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    My first and foremost goal is to provide the Secretary and others 
in the Department of Transportation with the highest quality of legal 
advice and representation. That would apply with regard to regulation, 
legislation, litigation, enforcement, negotiation of agreements, and 
all other aspects of the legal and policy issues that arise at DOT. A 
second goal is to maintain and enhance consistency in the way that 
legal issues are considered and addressed throughout the Department. A 
third goal is to continue and enhance the Department's coordination 
concerning legal issues with other parts of the Executive Branch, such 
as the Department of Justice, Department of Homeland Security, Office 
of Management and Budget, and others. And a fourth is to develop a 
positive working relationship with the committees and members of 
Congress with regard to any issues of concern that fall within the 
General Counsel's purview.
    Most immediately, I plan to focus my attention on identifying the 
current legal issues confronting the Department and its operating 
administrations, to ensure that they are given the appropriate 
resources, attention, and support.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    Although I do not consider myself lacking in any necessary skills, 
the area in which I have the least applicable experience is the 
legislative process. However, I understand the Department of 
Transportation to have skilled professionals in the government 
relations area, skilled legislative lawyers, and the Secretary of 
course was a member of the Congress for many years, so I expect to 
become better educated by interacting with the Department's personnel 
and with the Congress.
    5. Who are the stakeholders in the work of this agency?
    Ultimately every citizen of the United States is a stakeholder of 
the Department of Transportation. Every user of the transportation 
system (and associated systems) is a stakeholder: every motorist, every 
air traveler, every train passenger, every shipper, and so on. In 
addition, the suppliers of transportation services are stakeholders: 
every airline, every trucker, every railroad, every marine operator, 
every automotive manufacturer, and so on. The builders and suppliers to 
these providers are themselves also stakeholders: road construction 
contractors, parts manufacturers, and the like. All of the employees of 
the businesses that use the transportation system, that provide the 
transportation services, or that build or furnish supplies to the 
transportation providers are likewise stakeholders.
    Moreover, state and local agencies that have responsibility for our 
roadways, airports, sea terminals, traffic inspections, and other 
transportation functions are likewise stakeholders, as are other 
Federal agencies with transportation-related operations such as the 
NOAA National Weather Service.
    Transportation is a critical element for every business and for 
every citizen. For that reason, the Congress which represents the 
American people is also a stakeholder.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number five.
    Existing legislative mandates, executive orders, and department 
precedents define the relationships between the stakeholders and the 
Department of Transportation (and its operating administrations). If 
confirmed, my role as the General Counsel would include assuring 
compliance with applicable legal requirements with regard to 
considering the views and interests of stakeholders, and assuring that 
the appropriate weight was given to stakeholders' views in the 
Department's decision-making and operations. In rendering decisions, 
the Department should of course be guided by the laws passed by the 
Congress that apply to the Department's operations.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your agency has proper management and accounting controls?
    If confirmed, I would be responsible as General Counsel for 
advising the Department with regard to compliance with the Chief 
Financial Officers Act. My own authority and ability to direct specific 
actions in financial management and accounting would be limited, but I 
would seek to ensure that Departmental officials receive appropriate 
advice about the Act's requirements, and receive assistance in 
developing any additional measures needed to ensure compliance.
    (b) What experience do you have in managing a large organization?
    Please see Part A, item l7(b) above. In addition to my role in the 
firm-wide management of a national law firm with approximately 900 
lawyers and 1,500 additional staff in six offices, for the last several 
years I served as a co-head of the Washington, D.C. office of the law 
firm of Kirkland & Ellis LLP, which has approximately 130 lawyers and 
200 additional staff. Among other things, that required my involvement 
in a wide range of management issues, such as: (a) hiring, retention, 
promotion, relocation, and departure issues; (b) budget issues; (c) 
real estate issues; (d) coordination between different legal practice 
areas, (e) training and supervision issues, and (f) leadership, 
motivation, and professional development issues.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals.
    Identifying performance goals can help to ensure efficient and 
effective agency management and performance. Performance goals, once 
set, can provide significant measures of accountability for the agency 
and its personnel. Requiring reports on achieving performance goals can 
provide Congress with objective information to assess efficiency and 
effectiveness of agency programs and spending.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs?
    If an agency fails to achieve its performance goals, inquiry should 
be made as to whether the agency has sufficient resources and adequate 
legal authority to achieve those goals. If so, the causes of failure 
should be reviewed and analyzed, and positive corrective steps taken. 
Ultimately, the steps the Congress should consider must depend on the 
nature of the problem and its amenability to potential solutions. No 
steps should be ruled in or out in advance; Congress should maintain 
the flexibility to make considered judgments based on all the facts and 
circumstances. Ultimately, Congress must be prepared to take whatever 
steps it concludes will be most effective and best suited to the public 
interest.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    If confirmed as General Counsel, I would expect to be evaluated in 
terms of whether the Secretary and the Department receive appropriate 
and timely legal advice to enable them to perform their mission well. 
Indicators of that would include a reasonable success rate in the 
courts in litigation involving the Department, and more generally, 
acceptance of interpretations of law by the General Counsel as being 
consistent with Congressional intent.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    No employee complaints have ever been brought against me.
    My basic philosophy of supervisor/employee relationships is to 
treat everyone with professional respect, courtesy, and dignity. I 
assume that people are competent and responsible (unless and until they 
demonstrate otherwise), and I believe in rewarding and promoting those 
who excel. In general, I believe that people respond better to positive 
encouragement than to criticism, but some balance of the two is 
sometimes necessary. Because no one person can do everything that is 
important, I also believe in teamwork and collaboration, with open and 
frequent communications (including ``bad news'' as well as ``good 
news''). In general, success is usually the result of joint efforts, 
and calls for credit to be shared among the team.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe.
    I have had no professional experience working with committees of 
Congress. If confirmed, one of my goals would be to establish a 
positive professional working relationship with the committees and 
members of Congress with regard to any issues of concern that fall 
within my purview.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    I believe that the General Counsel is the final authority on legal 
issues with the Department. But the Inspector General has an essential 
role to play in ensuring that the Department is operating consistent 
with applicable law and that its programs and activities are not 
subject to waste, fraud, or abuse. As I understand it, the Inspector 
General has independent authority to investigate and make 
recommendations, and to make reports to Congress. If confirmed, I would 
seek to develop a good working relationship with the Inspector General 
and cooperate appropriately with his office in the performance of his 
responsibilities. Because I would share the objective of improving the 
operations of the Department, I would take seriously and consider 
carefully any recommendations made by the Inspector General.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress.
    There are a number of rulemaking proceedings underway within the 
Department of Transportation. The General Counsel has a primary 
responsibility to ensure that the Department's actions, including 
regulatory actions, are authorized by law, and consistent with both the 
letter and spirit of the law as enacted by Congress. If confirmed, I 
intend that my office would pursue that responsibility appropriately. 
If confirmed, I will work closely with Members of the Committee and 
other stakeholders to ensure that their views as to the intent of 
Congress are sufficiently considered.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views.
    The General Counsel needs to pursue the legislative priorities 
established by the President and the Secretary. In that regard, I 
understand that almost every operating administration within the 
Department is operating under lapsed authorizations and would benefit 
from final action on the reauthorization legislation pending in the 
108th Congress. Perhaps most significant is final action on the funding 
authorities and programmatic changes for the Federal Aviation 
Administration, where a four-year authorization would provide a firm 
foundation for modernization of the national airspace system. 
Comparably, Congressional action on a long-term renewal of ``TEA-21'' 
authorities for the surface modes is needed, hopefully by early next 
year. Also, the Department as a whole would benefit from final action 
on full-year appropriations for Fiscal Year 2004 before the adjournment 
of the First Session, and the Maritime Administration could benefit 
from legislation being developed to extend the Maritime Security Fleet 
Program. In addition, the Secretary has proposed legislation to address 
future aspects of the intercity passenger rail system. I anticipate 
that other legislative needs and initiatives will arise during the 
upcoming years, and, if confirmed, I will be prepared to advise the 
Secretary and work with the Congress to pursue beneficial legislative 
action.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a time frame for their 
implementation.
    My general understanding is that as a percentage of its total grant 
spending, the Department has a relatively small percentage of funds 
over which it has discretion, and as to those, some funds are earmarked 
by Congress for specific projects. If confirmed as General Counsel, I 
would not expect to have major direct responsibility for the allocation 
of discretionary spending. But to the extent that I could be helpful to 
the Secretary in pursuing the most cost-effective spending based on 
national priorities and objective and publicly-stated criteria, I would 
do so.

    The Chairman. Thank you very much, Mr. Rosen.
    Mr. Gallagher, as you know, we will be militarily involved, 
in one way or another, in the war on terror for a long period 
of time. I think we all know and appreciate that. And I know 
you were involved in forging an agreement earlier this year 
between the Department of Defense and private industry to share 
spectrum in a manner that'll protect sensitive military 
functions while providing more opportunities for WiFi services. 
What lessons did you learn, and what more do we need to do in 
this area? As we all know, one our greatest vulnerabilities is 
our telecommunications systems.
    Mr. Gallagher. Thank you, Mr. Chairman, for that question.
    It was a privilege to work with the Department of Defense 
on that particular spectrum matter. It was particularly 
difficult, but it was really a team effort that included the 
engineering staffs of the FCC, private industry, and the 
Department of Commerce, and our own Office of Spectrum 
Management at NTIA. The collaborative work of those entities 
and those groups was able to double the amount of spectrum for 
WiFi, at 5 gigahertz, at the same time we protected very 
sensitive military operations in the 5 gigahertz band.
    What made that accomplishment particularly satisfying is 
that it, in very short order, became an international standard 
through our advocacy and collaboration with private industry, 
with the Department of Defense, with NASA, and with the 
Commission at the World Radio Conference this summer. And we 
now have a single allocation and a single technical framework 
that will allow that to go forward.
    And I would say that there were probably three key 
learnings that came from that exercise. First is trust the 
engineers over the lawyers.
    [Laughter.]
    Mr. Gallagher. Our technical focus was very, very heavy on 
engineering and very, very light on the lawyering and on the 
public-relations aspects. And when you have professionals, like 
the folks in our Office of Spectrum Management, in the Office 
of Engineering and Technology at the Commission, and the 
experts from the private sector, we find that they speak a 
common language that is liberated by today's technologies.
    I'd say that the second component would be trust. We had 
worked together with the Department of Defense credibly in how 
we dealt with the very difficult issues of finding additional 
spectrum for advanced wireless services, or 3G. We had also 
worked together figuring out a way to authorize ultrawideband 
devices in this country. And in the context of those 
discussions, we were able to build a rapport and trust that 
focused us on what served the American people the best.
    The Secretary of Commerce told me early on, when I arrived 
at the Department of Commerce, he said, ``Mike, when you're 
working on these spectrum matters,'' he said, ``you'll be 
having to make a choice between advancing our economic security 
as a country in our economy versus advancing our national 
security. My direction to you is: Do both.'' That leadership 
provided by the Secretary was the third component. When you 
have strong direction from above, from the Secretary of 
Commerce, the Secretary of Defense, Chairman Powell, to his 
staff, expecting that these results will occur, there is clear 
responsibility. Then you're able to get to the type of result, 
which not only allowed the Department of Defense to continue 
operating, but also authorize a new technology, which will 
create jobs, which will continue to put the U.S. at the leading 
edge of competitiveness, and also will provide, in response to 
the last part of your question, additional telecommunications 
capability in the event of any challenge or disaster. It's 
another pathway for people and devices to connect with one 
another.
    The Chairman. Thank you.
    Ms. Halpern and Ms. Courtney, from time to time there are 
allegations that the CPB, slash, PBS NPR have an ideological 
bias. I hope that in your exercise of oversight, you will make 
sure that there is no substance to those allegations.
    Ms. Courtney, you've had extensive experience in this 
business. We intend to introduce reauthorization of the CPB 
early next year, and hopefully get it approved by the Congress 
and signed by the President. What input would you have in 
additional or deletions that need to be made in reauthorization 
of the CPB?
    Ms. Courtney. Well, of course, our eternal problem is we're 
always short of funds. That's fundamentally it. But as I was 
listening to the conversation today about new technology, I 
realized the digital conversion has offered tremendous 
opportunity for us, but at great expense. The whole world that 
we're existing in has changed, and I think maybe we need to 
look at that. Examine such things as multi-casting and data 
transfer. Many of us are involved, for instance, in homeland 
security because we operate interconnecting networks. We 
operate the Amber Alert for the entire state of Louisiana. We 
have spectrum that should be used for good public service, and 
we want it to be. So I think, the transition from the analog 
world to a digital environment, allow us to look at that.
    The other thing I guess I would say is simply that I think 
public broadcasting--the bedrock of public broadcasting, both 
radio and television, is localism and understanding that it's 
in the local communities that it really plays out. And I think 
sometimes we don't understand that on the national level. Some 
of our national institutions and--I've been on all the national 
boards, have a different agenda and it's not a question of 
mistrust or anything; simply a question--sometimes not 
understanding what happens day to day on the ground. And I hope 
I can bring that sensibility to bear.
    The Chairman. Well, if you're in favor and emphasize the 
importance of localism, then are you satisfied with the way 
that so much funding goes to a small number of major stations, 
such as the one in Boston and others?
    Ms. Courtney. As long as they continue--well, actually, 
what we do is, we choose to air those programs. And as long as 
they produce NOVA, Masterpiece----
    The Chairman. But they get the funding to produce those 
programs.
    Ms. Courtney. They do, but I give them a lot more money 
from own raised funds in my community, and that would fall 
apart if we didn't----
    The Chairman. You'd take Louisiana money and send it to 
Boston. Is that----
    Ms. Courtney. Basically, yes.
    The Chairman.--what you're----
    Ms. Courtney. If they produce the programs you want. 
Because unlike commercial networks, where we just receive the 
programs, we have input in whether we want those programs or 
not, so it's a combination of funding from the Corporation for 
Public Broadcasting, from viewers like you----
    The Chairman. I'm not saying there's anything wrong with 
it----
    Ms. Courtney. Right.
    The Chairman.--but I don't know how that helps localism.
    Ms. Courtney. Because--well, one of the things we should 
always have--and Cheryl alluded to this--is that we should have 
outreach. It's not enough to do just a program. If you're doing 
something on Alzheimer's, we should have outreach funds to make 
sure we can touch the local communities with this program. It's 
not enough to do just a television program anymore, and that's 
kind of the thing we're saying today. It's not just a national 
broadcast program; it has to have outreach and touch people in 
every community, and that's something we should do.
    You disagree. What?
    [Laughter.]
    The Chairman. I hesitate to get into these matters too 
deeply. But if you're for localism, I think most local station 
managers would allege that unless they have sufficient funding, 
it's hard to emphasize that.
    But, Mr. Van Tine, I would mention that I have a letter 
here supportive of your appointment from the CEOs of AirTran 
Airways, America West Airlines, Frontier, Jet Blue, Midwest, 
Southwest, and Spirit Airlines. And, without objection, that 
letter will be entered for the record.
    [The information referred to follows:]

                                                   November 3, 2003
Hon. John McCain,
Chairman, Senate Commerce Committee,
United States Senate,
Washington, DC.

Dear Mr. Chairman:

    On September 18, the President announced his intention to nominate 
Kirk Van Tine as Deputy Secretary of Transportation. Based on our 
collective and individual experiences with him, we believe he would 
make an excellent Deputy Secretary of Transportation and urge you to 
proceed with the confirmation process to fill that vitally important 
position.
    While Mr. Van Tine was General Counsel at the Department of 
Transportation, he was devoted to the mission of the Department, 
particularly enhancement of airline competition, open markets and the 
restoration of service following the tragic events of September 11, 
2001. During his tenure as General Counsel, we found Mr. Van Tine to be 
consistently even-handed and objective while he worked tirelessly to 
address the issues facing the airline industry. While we did not 
necessarily agree with all Department decisions in which Mr. Van Tine 
was involved, he carefully listened to all positions, engaged in 
constructive government/industry dialogue, and acted with great 
integrity. He pursued constructive steps for the benefit of all 
carriers.
    As the airline industry continues on the fragile road to recovery, 
it is essential that Mr. Van Tine be allowed to bring his experience 
and knowledge to the Department, so that he can help lead the 
Department's efforts to address the needs of consumers, communities, 
and airlines.
    If there is anything further we can do to assist the Committee in 
the nominating process for Mr. Van Tine, please let us know.
            Sincerely,

Joseph Leonard
Chairman & CEO
AirTran Airways, Inc.

Jeff Potter
President & CEO
Frontier Airlines, Inc.

Timothy E. Hoeksema
Chairman, President and CEO
Midwest Express Airlines

Jacob M. Schorr
President and CEO
Spirit Airlines

Doug Parker
Chairman, President and CEO
America West Airlines

David Neeleman
CEO
JetBlue Airways Corporation

Herb Kelleher
Chairman
Southwest Airlines

  
  
  

cc: Majority Leader Bill Frist

    The Chairman. Mr. Van Tine, let's talk about Amtrak just 
for a minute. It's a very controversial issue. Numerous 
administrations, not just this one, have tried to institute 
reforms. One of the few benefits of being on this Committee for 
a long time is you accumulate a history of attempts at reform 
all being fought off, and then more money, and then 
administrators of Amtrak--and I would say, with the notable 
exception of the latest one--saying, ``We're on the glide path 
to economic self-sufficiency.'' I'm sure you may have heard 
those from previous administrators. I believe, if my memory 
serves me correct, it was 1973 when Amtrak was formed, and 
within 3 years it was going to be financially independent. It's 
been 30 years, a little over 30 years, since that promise was 
made. And yet we seem, even with the present administrator, 
unable to impose even the cancellation of one route, because, 
in his words, Mr. Gans says it's, quote, ``political.'' Well, 
it's political, but it's also financial, because my 
constituents have to pay for Senator Lautenberg's extensive 
network, which is heavily subsidized, and so there's a certain 
fairness issue here.
    As much as I support and want a viable Northeast Corridor, 
I don't think it's viable in my home state of Arizona. I wish 
it was. But I'd like to have some of your thoughts about how we 
can go about the business of reforming Amtrak, or are we just 
doomed to the annual exercise, which we do around here--the 
Administration, whether it be this one or previous 
Administrations, will propose a certain amount of money, which 
will be immediately condemned as insufficient, which will then 
be responded to as not having any reforms being made, which 
will then be responded to by saying that the system is about to 
collapse and is unsafe, and we end up in the same gridlocked 
position that we are in today.
    And so I'd--maybe I'd like to have a few of your views on 
that issue, and then maybe we'll move on to----
    Mr. Van Tine. Senator McCain, I don't have the history with 
the issue that you do, but I've read the history, and I 
understand everything you're saying, and I think your last 
point is one of the Department's central concerns this year. I 
think we would like to break out of that cycle where there is 
an annual crisis and we have to resolve that crisis at the last 
minute to keep Amtrak operating. And the only way to do that is 
to reach some agreement on a longer-term authorization.
    My first experience with Amtrak was in connection with the 
$100 million loan that the Department was asked to give Amtrak 
in 2002. And, as you know, we ended up giving Amtrak that loan. 
It was a very difficult process, though. We worked very hard to 
get that done, and one of the reasons it was difficult, because 
Amtrak's accounting was not in the condition it should be, and 
that it's----
    The Chairman. That wasn't just your opinion. That was of 
the DOT IG, among others.
    Mr. Van Tine. Yes, sir. And it was also the opinion of 
their independent auditors. And their financial reporting was 
not in the condition it should be. And I think that, you know, 
we start with the fundamental principles that Amtrak should be 
honest with Congress in its financial reporting, Amtrak's 
accounting should be understandable and transparent, and that 
Amtrak's management should be as efficient and businesslike as 
possible. I think those are principles that we all should be 
able to agree on.
    I think the core issue right now, though, Senator, is 
whether we can find a way to match up the service that we 
provide with the needs and desires of most people in the 
country, and that's where there is a mismatch right now, and I 
think that's what you're getting to in your comments about 
Amtrak service. I know that Phoenix, for instance, doesn't have 
any Amtrak service, and you seem to do all right.
    But there are other ideas about this. I know that there are 
ways to go about this process of matching up, besides cutting 
routes. Perhaps there are other ways to arrange things. The 
system is virtually unchanged from when it was created, about 
30 years ago, and it's the one transportation system in the 
United States that has not kept up with the times, I guess, and 
the needs and desires of the American people.
    And those are, sort of, my fundamental thoughts at this 
point, Senator.
    The Chairman. Well, thank you. And, Mr. Van Tine, I just 
want to emphasize again, I don't mind using my constituents' 
tax dollars to subsidize the Northeast Corridor. They fly to 
the East Coast, and hopefully would make use of that service if 
it was suitable.
    What I do mind is asking them to contribute an unending 
amount of money, with no end in sight, which was promised 30 
years ago after 3 years. And that's the aspect of it that I 
find disturbing, and I hope that we will be able to reach some 
conclusion. But, in the interest of straight talk, I don't 
think we will.
    Senator Lautenberg?
    Senator Lautenberg. Thanks very much, Mr. Chairman.
    Our Chairman is a very distinguished American and Chairman 
and Member of the U.S. Senate----
    The Chairman. Look out.
    Senator Lautenberg. And he----
    The Chairman. Look out.
    [Laughter.]
    The Chairman. Here we go.
    [Laughter.]
    Senator Lautenberg. We're getting close to the edge of the 
cliff.
    [Laughter.]
    Senator Lautenberg. But being--there are virtues to being 
on this Committee for a long time. You get to be Chairman. 
That's one of the significant assets.
    The Chairman. If you choose to run for re-election.
    [Laughter.]
    Senator Lautenberg. But it's always with a good nature, but 
it's sometimes different in viewpoint. And, you know, one of 
the things that the people in New Jersey holler a lot about is 
the fact that we are 49th among states in return on the Federal 
tax dollar--49th among states--so we give out a lot more money 
than we get.
    Now, it's fair to say that some of that has got to be 
included in water rights for western states, some of it's got 
to be included in the national aviation system, some of it's 
got to be involved with the national transportation system 
generally. So I quickly point out, in addition to sending all 
that money to the Federal Government, that New Jersey has 
contributed over one-and-a-half billion dollars in the last 
decade to the Northeast Corridor Improvements Program.
    And, Mr. Van Tine--I want to say, Mr. Chairman, I think we 
have a group of excellent candidates across the board, and I 
have to reconstruct my comment a little bit. Cheryl Halpern--
it's not her dad; it's her father-in-law, but she's just as 
proud. They're a very tight family.
    But there has been some significant changes in the 
structure of Amtrak. We started some years ago in providing 
electrification to the Northeast Corridor, from New Haven to 
Boston, and it's made an enormous difference.
    And I also want to point out, Mr. Chairman, that last year 
was the biggest year in Amtrak's history, including going back 
to its pre-Amtrak ownership days. It had 24 million people that 
it carried last year. And without overdramatizing, the fact of 
the matter is that 9/11, which had its most significant effect 
in our region, New Jersey and New York, was serviced on a 
continuing basis by Amtrak when nothing else was working--
highways or aviation. And it's a national resource, in my view, 
that has to be maintained.
    And, Mr. Van Tine, I listened closely to your comments, and 
I hope that you will work closely with all the Members of this 
Committee, but I've not had a lot of good luck, in terms of 
contact with the Administration, on my point of view about 
Amtrak or about the privatization of FAA.
    Were you, in your previous position, Mr. Van Tine, involved 
with the development of the reauthorization of the FAA 
organization?
    Mr. Van Tine. Not substantially, Senator Lautenberg.
    Senator Lautenberg. You know that some states were made 
exempt from privatizing their----
    Mr. Van Tine. I'm aware of the history of the bill, and I 
understand what's happened in----
    Senator Lautenberg. Yes.
    Mr. Van Tine.--in that regard. My role----
    Senator Lautenberg. What a coincidence it is that the 
Chairman of the House Committee on Transportation had the two 
Alaskan airports removed from the possibility of privatization 
as the bill worked its way through. It wasn't included in the 
original House bill, but it got--somehow or other, it found its 
way in there. And it's my understanding that there are others 
that are protected from privatizing or turning commercial with 
the FAA. And I hope that you're going to look closely at that 
and that we'll be able to discuss it.
    Now, this year the Administration proposed that Congress 
appropriate $900 million for Amtrak, and at the same time $300 
million for Iraq's railroads. Now, Iraq is a place that has 
developed a lot of controversy, a lot of pain, a lot of 
anguish, but it's ironic, I think, that we should spend $300 
million for railroads in a country the size of California, and 
it's proposed that we simply spend $900 million for the entire 
rail system, passenger rail system, city-to-city, in our 
country. So does this--do you think this indicates the 
Administration's commitment to passenger rail service in the 
United States?
    Mr. Van Tine. Senator Lautenberg, first I want to say that 
I understand your concerns, and the Department understands your 
concerns, and I want to assure you that, if confirmed, I would 
like to sit down and talk with you about all your concerns. But 
on the specific $900 million number, it's my understanding that 
that number is the Administration's estimate of the operating--
the number necessary to cover the operating expenses and the 
debt service for the coming year. And the intent is to open the 
debate, the dialogue, on how to resolve Amtrak's problems and 
the broader issue of intercity passenger rail this year, rather 
than, as Senator McCain was saying, to limp along from year to 
year with the same drama playing out each time. We'd like to 
make a serious effort this year to try and achieve some 
consensus.
    Senator Lautenberg. Well, in your comments, you noted how 
closely you work with the IG, with the Inspector General.
    Mr. Van Tine. Yes, sir.
    Senator Lautenberg. He happens to be sitting here. He's a 
familiar face to all of us, and he's the conscience for many of 
us. And the disparity between his proposal and the $900 
million, he offered a rather gloomy perspective and said that 
the railroad couldn't survive.
    Now, (a) is he just wrong, and, (b) do you consider that 
the national passenger rail service is a critical element of 
our transportation system, or is it just a regional service 
that ought to be taken care of locally?
    Mr. Van Tine. Well, as I said, Senator, the Administration 
is committed to support for national passenger rail service, 
and I think everybody believes that it is important. It's more 
important, clearly, in some parts of the country than in 
others, and people are willing to support it more in some parts 
of the country than in others, and we need to find a way to try 
and match up the support for the system with the funding that 
we give it.
    On the number that the IG has come up with, I'm aware of 
what the Inspector General has talked about with respect to 
Amtrak. I think that, in general, the views of the 
Administration are in line with the views of the Inspector 
General, as far as the structure of Amtrak. I think the 
Inspector General may have included some additional elements in 
the calculation of the number that he presented beyond those 
that were included in the President's budget proposal.
    Senator Lautenberg. Are you----
    The Chairman. Senator Allen?
    Senator Lautenberg.--are you aware of any----
    The Chairman. Senator Allen? Your time has expired. We'll 
have a second round----
    Senator Lautenberg. OK.
    The Chairman.--if you'd like, Senator Lautenberg.
    Senator Lautenberg. Thank you, Mr. Chairman.
    The Chairman. Senator Allen?
    Senator Allen. Thank you, Mr. Chairman.
    Let me first address you, Mr. Gallagher. And welcome to 
your family, especially--what is it, your father-in-law, the 
first time he's been----
    Mr. Gallagher. It's my grandfather, yes, sir.
    Senator Allen. Grandfather, first time east of Nevada. This 
is not typical weather, sir, at this time of year, but you've 
brought some good, dry weather with you.
    I'm going to first commend the Department of Commerce and 
the Secretary for what you've been able to do on so many issues 
that are vital to the future competitiveness of our country and 
communications and issues which, Mr. Chairman, this Committee 
has been advancing most recently.
    Number one, working with the FCC on the WiFi spectrum 
issue, that was one that had bipartisan support, and that is 
just a tremendous advancement in opportunities for people to 
get broadband wirelessly within their home, carrying around 
their laptop like they do a cordless phone, rather than having 
wires all over. But getting that certain part of the spectrum 
was key to having that develop, and I think that has great 
promise. Also, we're going to be working with you, and I look 
forward to, on the issue of piracy, cyber-security, and also 
protecting children on the Internet.
    Now, speaking about the Internet and the economic digital 
divide, one, I would hope you can get the Secretary of Commerce 
and the Bush Administration to change their views on a bill 
that passed with great support here, and that has to do with 
improving the technological capabilities and infrastructure in 
minority-serving institutions. The Chairman, Senator Lott, and 
others--it was bipartisan support--supported this effort, where 
your own reports will show that minority-serving institutions 
do not have the technological capabilities and infrastructure 
that they need to attract the professors, much less provide 
that technological training and education to students who then 
can go out there in the real world and get those good-paying 
technology jobs, rather than us having to import workers to do 
that job. And I would hope that you would change your position. 
It's over in the House. If there's something that could be 
worked out, let's get it done, because this is important for 
technology, education, and opportunity, and a very good way to 
help alleviate that economic digital divide.
    Now, we're also going to be bringing up, this week, on 
Thursday, another digital divide issue, and that is the 
Internet and whether or not broadband and Internet access ought 
to be taxed. Would you share with us what your secretariat's 
view is of S. 150, which would permanently place a moratorium 
on the Internet-access taxes in this country? And if you want 
to make any comment on the measure for minority-serving 
institutions, you're welcome to do that, as well.
    Mr. Gallagher. Well, thank you, Senator Allen, for those 
kind words and for recognizing my grandfather.
    The first thing I would like to say is, thank you for your 
leadership on keeping the parties in the WiFi issue in the room 
and engaged. There were many dark days when it wasn't clear 
that we would find an answer, and I do think that the 
leadership coming from this Committee and from yourself and the 
cosponsors of that legislation was very helpful in getting that 
accomplished.
    I would also like to assure you, with respect to the 
Internet and the need for it to be accessible to higher levels 
of education and in poor and underserved areas, the 
Administration, remains committed to those ideals. I am aware 
of the opposition to the legislation that you speak of, and I 
am happy to carry your concerns back to the Secretary today. 
And, if confirmed, I look forward to working with you on those 
issues going forward.
    With respect to the Internet tax bill, the Secretary, I 
believe, has written four letters in support of, maintaining 
and holding the line on the non-taxation of the Internet. And, 
in fact, the President, not last August, the August before, in 
Waco, Texas, said, ``If you want something to grow, don't tax 
it.'' So the Secretary remains strongly supportive. It is a 
very high priority of his to see that we maintain the growth of 
the Internet by keeping the access to it non-taxed, so that 
areas to the Internet can continue to expand to the less 
privileged. Because when you tax something, you increase the 
price of it; if you increase the price of it to those that can 
least afford it, then, in fact, they are being left behind. So 
there are a number of good, strong economic reasons and social 
reasons to maintain the moratorium that's in place today, and 
we do appreciate your leadership in that cause.
    Senator Allen. Well, we'll need your help on Thursday, as 
the Chairman, with his great leadership, will be helping assist 
us in trying to make sure that's a permanent moratorium.
    Mr. Gallagher. If confirmed by Thursday, I'm happy to get 
right into it.
    Senator Allen. Get to work.
    [Laughter.]
    Senator Allen. Real quickly, Mr. Van Tine, one thing that 
I'll be wanting to work with you on is--insofar as passenger 
rail, and that's high-speed rail. Generally speaking, rail, 
passenger rail, is regional from population centers. From the 
days I was Governor of Virginia, working with the Governor of 
North Carolina, we wanted to get high-speed rail through 
Richmond on down to Charlotte. And to the extent that we can 
get that linked up with the Mid-Atlantic and Northeast, I think 
there is the population density to support it, and I look 
forward to working with you on it.
    And thank you, Mr. Chairman, for holding this hearing. I 
look forward to voting for all of these nominees, as my time 
expires.
    The Chairman. Senator Lott?

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Mr. Chairman.
    Mr. Gallagher, Ms. Halpern, Ms. Courtney, and Mr. Van Tine, 
and Mr. Rosen, thanks to all of you for your willingness to go 
through this process and to serve your country. And to your 
families and friends that are here, get ready for some long 
hours for these people. But we do appreciate, you know, the 
sacrifice that is required to serve in these positions--except 
maybe for the Corporation for Public Broadcasting, that's all 
fun there.
    [Laughter.]
    Senator Lott. Mr. Van Tine, I read your statement, and I 
appreciate the opportunity to have met with you earlier. I 
think the Department of Transportation is one of the most 
important departments in the Government, and I think sometime 
it doesn't get the attention and the credit that it deserves.
    Obviously, we're very interested in the FAA 
reauthorization, we're interested in the Amtrak issue that 
you're working on. We need a highway bill. You're talking about 
jobs creation. If we could get this $60 billion FAA 
reauthorization done and a highway bill done early next year, 
they could lead to an awful lot of construction activity. And 
so I hope that you will work with us, as I know you want to, to 
achieve both of those goals of passing those two important--
actually, all three issues.
    On Amtrak, I have been very supportive of Amtrak in the 
past. I'd like to continue to be, but I am concerned about a 
number of issues this year that have caused me to have to 
reevaluate exactly how we're going to proceed in the future.
    You're a lawyer. There's three lawyers at the table. I have 
a law degree. I don't know whether I would call myself a lawyer 
anymore. It's just really amazing that when you're involved in 
the process of making the laws, you lose your ability to be a 
lawyer.
    [Laughter.]
    Senator Lott. But there are some things about our 
profession that are not always attractive. We do sometime get 
to be a little bit too caught up in legal niceties, and we do 
get a little confident in the correctness of our position. And 
I think maybe you have portrayed that in the past, Mr. Tine, to 
be quite honest about it. And you're going into a different 
position. Deputy Secretary. I mean you're going to be involved 
in an awful lot of the key activities on a day-to-day basis, 
working, of course, with the Secretary and the Administration, 
but it's going to be very important that--you know, when you're 
confirmed, that you use your very best diplomatic skills and 
less of your legal skills, as you have had to in the past.
    Would you like to just respond to that? I'd give you an 
opportunity to defend yourself against some of the charges that 
have been leveled against you, without being so direct about 
it.
    Mr. Van Tine. Thank you, Senator Lott, for the opportunity.
    I understand what you're saying, completely. And I just 
would like to say that as general counsel, one my functions, 
one of my primary functions, was to serve as the chief advocate 
for the Department's legal positions. And I didn't always make 
the decisions, but I had to defend the decisions. And that was 
the job that I got paid to do, and, for 2 years, I did it.
    I think the Deputy Secretary, though, performs a different 
role in the operations of the Department, and, as I said in my 
opening statement, I think one of the fundamental 
responsibilities of the Deputy Secretary is to try to resolve 
disputed issues and achieve consensus where there are 
differences of opinion, and I truly believe that. If confirmed, 
I'd take that responsibility seriously.
    Senator Lott. Well, good luck. And try to not be a hopeless 
bureaucrat. When you're faced with a decision, make it and move 
on.
    Mr. Van Tine. I understand your point. Thank you.
    Senator Lott. We'll try to help you.
    Now, ladies, the Corporation for Public Broadcasting Board 
is a very important responsibility, and I want to be quick to 
acknowledge that most of the public television programs have a 
high standard of excellence, and particularly children's 
programming. And in my own state, they've done really a 
marvelous job. I think probably both of you are familiar with 
what goes on in the state of Mississippi. I think that really 
the people have a lot of confidence in what they do there.
    And I know, Ms. Courtney, you're from Louisiana. You've had 
a very interesting background--certainly will bring a good 
perspective to the Corporation for Public Broadcasting.
    I must say, though, over a period of many, many years, I 
don't think that the Corporation for Public Broadcasting has 
fulfilled its responsibilities sufficiently under the Public 
Telecommunications Act of 1992. Section 19 on Objectivity and 
Balance Policy states that there will be strict adherence to 
objectivity and balance in all programs or series of programs 
of a controversial nature. I know you've been trying to kind of 
smooth out the rough edges and work with that, but the 
perception is still, of a lot of people, me included, that you 
still have some programs that clearly are not balanced and 
objective, and they're not balanced on the individual program, 
and they're not balanced overall.
    And I specifically want to refer to the NOW with Bill 
Moyers. I mean, I certainly think he's the most partisan and 
unobjective person I know in media of any kind. And so I'll 
give you the first opportunity, Ms. Courtney, to respond to 
this. Do you think that he's objective and balanced? And if 
there's--the answer is no, which obviously he is not, and if 
you think you----
    [Laughter.]
    Senator Lott.--if you think he is, I'll refer you to his 
piece on November 8, 2002, how he responded to the election. 
And I think it's the most blatantly partisan, irresponsible 
thing I ever heard in my life. And yet you all have not seemed 
to be willing to deal with Bill Moyers and that type of 
programming.
    Well, I'm out of time. I'd just like maybe both of you to 
respond to that overall question.
    Ms. Halpern. Let me take the first----
    Ms. Courtney. Let's let Cheryl do the first----
    Senator Lott. Oh, you're getting off to a good start, going 
to refer to the senior member.
    Ms. Halpern. The fact of the matter is, I agree with you, 
and there is a problem here, because the CPB is in a unique 
position.
    Senator Lautenberg. Bring the mike a little closer.
    Ms. Halpern. The CPB is in a unique position. On the one 
hand, the statute requires the support for programming that is 
objective and balanced, while, at the same time, the statute 
prohibits the CPB from interfering with local station operation 
or controlling editorial content.
    So there is a dilemma here. Furthermore, if I can be 
anecdotal about my service on the Broadcasting Board of 
Governors, where the entire funding for the international 
broadcasting entities is provided by the U.S. Government. So 
when there were allegations of impropriety and violation of the 
journalistic code of ethics, we were able to aggressively step 
in, review the transcript of the potential violation, and 
initiate penalties and change accordingly. The CPB cannot, in 
this construct, similarly engage or penalize the individual 
licensees that choose to air programs, nor can we impact the 
individual programs, because we are not the sole funders of 
those endeavors.
    So I'm as frustrated as you when I get communications from 
the Pro-Israel community, for example, about perceived 
imbalance with NPR, but there is so very little that the CPB 
can effectively do to correct the situation.
    Senator Lott. My time has expired. I'll come back.
    The Chairman. Ms. Courtney, you need to comment on this.
    Ms. Courtney. Fine.
    The Chairman. And I think it's important we get your views 
on this.
    Ms. Courtney. Right. When I served on the PBS Board, I was 
surprised that the policy was fair and balanced across the 
schedule, because my training is as a journalist, and I feel it 
should be fair and balanced within a program, because people 
don't watch programs 24 hours a day. So I am adamantly opposed 
to any approach like that. I believe it should be fair and 
balanced and equal opinion, but I'm an old-school journalist.
    We have a new situation in the world of journalism today. 
It appears that a lot of people have opinions. I believe 
opinions should be--be they right or left, I think opinions 
should be clearly labeled as opinions. I think reporting should 
be clearly fair and objective and balanced. And that's my--has 
been consistently my opinion.
    On a personal anecdotal note, I'm the recipient of all the 
complaints from the viewers in my state when some national news 
programs generally point out Louisiana as the source of all 
environmental pollution. We are generally the poster child of 
all that's wrong. And so if I don't get a heads-up from PBS, so 
I'm on ground zero responding to people.
    Consequently, one of the things broadcasters have to do, at 
the local level, is to make sure that we then have additional 
programs that address issues that get other perspectives. 
That's our responsibility, as well. So you're going to get a 
traditional journalist, if you get me on the Corporation for 
Public Broadcasting, who believes in fair and balanced and 
objectivity in programming.
    The Chairman. Well, that may be an issue that should be 
addressed in one way or another, Senator Lott, as we move to 
reauthorization of the CPB. If Ms. Halpern's views are correct 
that the CPB really has no influence over that, what's the 
point in having a Board of Directors? So I think it might be a 
subject in hearings when we move to reauthorize the CPB.
    We hear about it a lot on both sides of political spectrum, 
not--you hear the complaints from the conservative side, and 
another major network on the liberal side. So----
    Senator Lautenberg?
    Senator Lautenberg. Yes, Mr. Chairman, just a couple more 
things that I'd like to call attention to, and that is the 
national obligation to support a national rail, passenger rail, 
system. It's not different than supporting other programs, like 
essential air service, where we have little or not interest. 
But my constituents contribute significantly to providing that 
service. My constituents are unhappy to know that New Jersey 
contributes a dollar to the Federal well-being, and gets back 
66 cents worth of values. Arizona is a fortunate place, because 
they--for every dollar they put in, they get back $1.21. But we 
all have to share----
    The Chairman. What is that--excuse me--what is that 
statistic on?
    Senator Lautenberg. That's the general return of Federal 
tax dollars that are----
    The Chairman. You know, that's just simply, patently false, 
but it doesn't matter.
    Senator Lautenberg. Oh.
    [Laughter.]
    The Chairman. Please, go ahead.
    Senator Lautenberg. Well, I----
    The Chairman. We don't get that money back.
    Senator Lautenberg. Where did we get that information? The 
Tax Foundation is the author of this, as well as the----
    The Chairman. Yes, the Tax Foundation is wrong.
    [Laughter.]
    Senator Lautenberg. And I want the record to show exactly 
what I am saying, because this is not an unusual difference 
that we go through here. And I also feel free to express a 
view, as long as it's annotated, that there's a challenge to 
it. We've had this discussion before, and I was right before, 
and I'll be right again here.
    [Laughter.]
    Senator Lautenberg. Mr. Van Tine, how do you feel about the 
privatization of FAA?
    Mr. Van Tine. Well, I presume you're talking about the 
contract tower program, Senator Lautenberg----
    Senator Lautenberg. No, not the contract tower, 
specifically, but taking away the inherently government 
umbrella under which FAA operates.
    Mr. Van Tine. My role in that process to date, as general 
counsel, has been simply to ensure the legal sufficiency of the 
Department's actions, and I was satisfied that legally the 
Department's actions were correct.
    The Secretary has explained the Administration's position 
on that issue on a number of occasions, and I support the 
Administration's position.
    Senator Lautenberg. Are you aware of any--going back to the 
railroad situation--are you aware of any large-scale rail 
system in any country that operates without subsidy, 
substantial subsidy?
    Mr. Van Tine. Well, I'm not an expert in world railroads, 
Senator, but I--just offhand, no, I'm not. But I would like the 
opportunity to discuss that with you further.
    Senator Lautenberg. All right. I think these two questions 
that I've raised in no way, Mr. Van Tine, challenge your 
character or your ability to serve. I just would love to change 
your mind about a few things.
    [Laughter.]
    Senator Lautenberg. And, Mr. Chairman, with that--I would 
just ask our two friends, who are going to go to CPB, I guess 
it is, and--how about the fundraising part of it? You have to 
do it. We've all done it in our past. Sometimes we're sorry for 
it, but the fact is that you have a significant source of 
revenue there. Do either of you have any ideas on how that can 
be improved, in terms of volume of dollars received?
    Ms. Courtney. I suppose you're referring to our endless 
program fund drives, we call Pledge Drives, membership 
campaigns----
    Senator Lautenberg. I'm not complaining about them, because 
I think the public ought to be more supportive.
    Ms. Courtney. Right. Yes. People sometimes run when they 
see me coming, because they think I'm going to collect on their 
pledge of support, because I've been on the air for so many 
years. And we are trying to be more varied in our approach to 
these.
    One of the things we don't like to do is change our 
programming schedules. But, unfortunately, it seems that music 
is what touches people's souls, and so, consequently, music 
programs, be it, you know, nostalgia, songs from the 1960s or 
whatever, are what people pledge around. But we're trying to 
change things from a transactional sort of relationship to 
investing in an institution. And our greatest success has been 
when we do things that are particularly relevant in our 
communities. And I know that's true of my colleagues across the 
country. Mississippi does something particularly about 
Mississippi; people respond to it. We do--I know that the 
wonderful series out in Arizona on--that they've been doing for 
a long time is--it's a big fundraiser. And New Jersey has 
particular programs that they do. So we've been finding great 
success in producing programs about our local communities, and 
I think those--I think that's the future. You know, connecting 
to people personally.
    And, frankly, with my history series, we have lots of 
ancillary products, books and DVDs. We provide them to schools, 
but then we also offer them for sale, and they've been a 
tremendous revenue source, frankly. And so I think we're going 
to have to be entrepreneurial at the same time we're mission-
driven.
    Senator Lautenberg. I would close with this. Ms. Halpern, 
you noted that the Jewish community would--is one that might 
call up and complain. Are they the only community that issues 
an occasional complaint about a bias one way or the other?
    Ms. Halpern. No. Quite frankly, the conservative community 
is rightly concerned about Bill Moyers and that type of 
programming. The Pro-Israel community has been concerned about 
alleged impropriety with National Public Radio, specifically 
with respect to the Middle East and its alleged imbalance, 
apropos Palestinian portrayal versus Israeli portrayal. But, 
nonetheless, there has to be recognition that an objective, 
balanced code of journalistic ethics has got to prevail across 
the board, and there needs to be accountability when that 
fails, that the individuals who are subsequently judged to be 
guilty, of impropriety be, in some measure, penalized.
    As I said, you know, going back to my BBG days, we were 
able to remove somebody who had engaged in editorialization of 
the news at Radio Liberty from that position. But then the BBG 
was the sole measure of support financially, and we had the 
control in order to so engage.
    And going back to what Senator McCain said, with 
reauthorization, I think perhaps there needs to be a review, 
and the CPB, if possible, should be given more clout, so to 
speak, to hold programming to, measures of accountability. 
Whether that's, in fact, doable is pure speculation on my part, 
but there definitely needs to be accountability in the system.
    Senator Lautenberg. And were those people removed with 
handcuffs, that man, you said, physically removed? Was he----
    Ms. Halpern. They were--no, it was a woman, who was----
    Senator Lautenberg. --removed in handcuffs.
    Ms. Halpern.--given a job, where she was not allowed to 
editorialize.
    Senator Lautenberg. Thank you.
    Senator Lott. Mr. Chairman----
    The Chairman. Let me just point out--I don't know what it 
has to do with anything, but according to the Federal Highway 
Administration, the State of Arizona gets 87 cents back for 
every dollar that it sends to Washington in the form of gas tax 
dollars. But it really is not relevant.
    Senator Lott. I want to thank you for that, because we get 
some of that money over in Mississippi.
    The Chairman. I was going to say that Mississippi--oops, 
Mississippi is down to 96. You're not doing your work.
    [Laughter.]
    The Chairman. Do you want to say something else, Senator 
Lott?
    Senator Lott. Well, I think Ms. Courtney wanted to comment. 
Did you want to comment?
    Ms. Courtney. I was just going to add, we really are 
terribly responsive to the public in public broadcasting. I 
have to tell you, I'm not so worried about a board saying, 
``You're not right,'' or, ``You're wrong.'' Believe me, the 
public will tell me. I have three boards of directors. I have 
the 501(c)(3)'s, our friends group, a foundation group, our 
governing authority. We get tremendous input. And I guarantee 
you, if there's a program that people are unhappy with, we'll 
hear about it.
    I want you to really understand that, you know, we really 
are responsive to it, because people connect to us with--at the 
state level, the state legislatures, they connect with their 
dollars in pledge drives. We have wonderful community advisory 
groups. And we really vary across the country because of 
communities----
    The Chairman. But what percent of your overall funding 
comes from----
    Ms. Courtney. The CPB?
    The Chairman.--the Federal Government?
    Ms. Courtney. In Louisiana, 9 percent.
    The Chairman. Nine percent comes from the Federal 
Government.
    Ms. Courtney. And it's----
    The Chairman. Ninety-one cents is from local contributions.
    Ms. Courtney. --or from state appropriated money.
    Senator Lott. Mr. Chairman, if I could, let me, again, say, 
Ms. Halpern, I thank you for the job you've already been doing, 
and I can tell from Ms. Courtney's comments she's going to be a 
very positive addition to the board, and I think the experience 
you had at the state level will be very helpful.
    Going back to what you were saying, though, earlier, I feel 
good about the state operations, whether it's New Jersey, 
Arizona, or--my own state of Mississippi has refused to run 
some of the programming over the years if they thought it was 
offensive. So that is being done, I guess, state by state. The 
problem is still up here, I think. Some of the stuff that's fed 
down there still needs a lot of review and a continuing effort 
to balance it. And I know that effort has been underway for 
years, but you still have a way to go.
    [Laughter.]
    Senator Lott. And I hope you ladies will, you know, 
continue to work in that direction.
    Ms. Halpern?
    Ms. Halpern. If I can just close, one of the things the CPB 
has instituted in order to reconcile the tension between these 
competing statutory requirements was to create a 1-800 number 
and e-mail address to solicit public feedback about program 
content. And the CPB does share this information with the 
Congress and within the industry. The other thing that the CPB 
has begun to sponsor are handbooks, seminars, and other efforts 
to help the public broadcasting's journalists do a better 
objective job. And we can certainly--staff and I can provide 
more information about these activities if you would so desire.
    Senator Lott. I would like to get that, and I do appreciate 
it. Thank you very much, Mr. Chairman.
    The Chairman. Well, I want to, again, thank the witnesses 
for their willingness to serve, and we're grateful. I think 
you're all highly qualified, and I know this is a wonderful 
moment for the family members, as well. We look forward to 
working with you in the future.
    We intend to move your nominations as quickly as we can, 
given the press of the end of session business, but we'll try 
and move your nominations as quickly as possible.
    I thank you, and this hearing is adjourned.
    [Whereupon, at 11 a.m., the hearing was adjourned.]

                            A P P E N D I X

      American Road and Transportation Builders Association
                                   Washington, DC, October 31, 2003
Hon. John McCain,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman McCain:

    The American Road and Transportation Builders Association (ARTBA), 
a 101-year-old trade association exclusively representing the Nation's 
transportation construction industry, enthusiastically endorses the 
nomination of Kirk Van Tine to be Deputy Secretary of the Department of 
Transportation.
    Mr. Van Tine possesses an extraordinary intellect and resume, 
having served his country in numerous ways over the last three decades. 
He has served in the military, at the bar, and, most recently, in the 
Federal Government with highest distinction.
    ARTBA has worked with Secretary Mineta on a variety of issues for 
over twenty years, and we remain impressed by the exemplary group of 
top officials that he and President Bush have assembled at the 
Department. By rejoining the Department as Deputy Secretary, Mr. Van 
Tine would make a valuable addition to a team that is fully committed 
to enhancing the safety, security, and efficiency of the Nation's 
intermodal transportation network.
    ARTBA has found Mr. Van Tine to be open-minded about the concerns 
of our industry. At the same time, he has taken a rigorous and 
principled approach to the many issues with which he dealt when he 
served as the Department's General Counsel. During these challenging 
times for our nation, it is more important than ever that the Deputy 
Secretary of Transportation possess all of these qualities.
    We hope that the Committee considers and approves Mr. Van Tine's 
nomination in an expeditious fashion, and that the full Senate confirms 
him soon so that he can begin work on the many vital matters facing the 
Department of Transportation.
    Thank you tor your consideration of ARTBA's position. If you or 
your staff have any questions, please contact me at any time.
            Sincerely,
                                            T. Peter Ruane,
                                                 President and CEO.
                                 ______
                                 
      American Road and Transportation Builders Association
                                   Washington, DC, October 31, 2003
Hon. Ernest F. Hollings,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senator Hollings:

    The American Road and Transportation Builders Association (ARTBA), 
a 101-year-old trade association exclusively representing the Nation's 
transportation construction industry, enthusiastically endorses the 
nomination of Kirk Van Tine to be Deputy Secretary of the Department of 
Transportation.
    Mr. Van Tine possesses an extraordinary intellect and resume, 
having served his country in numerous ways over the last three decades. 
He has served in the military, at the bar, and, most recently, in the 
Federal Government with highest distinction.
    ARTBA has worked with Secretary Mineta on a variety of issues for 
over twenty years, and we remain impressed by the exemplary group of 
top officials that he and President Bush have assembled at the 
Department. By rejoining the Department as Deputy Secretary, Mr. Van 
Tine would make a valuable addition to a team that is fully committed 
to enhancing the safety, security, and efficiency of the Nation's 
intermodal transportation network.
    ARTBA has found Mr. Van Tine to be open-minded about the concerns 
of our industry. At the same time, he has taken a rigorous and 
principled approach to the many issues with which he dealt when he 
served as the Department's General Counsel During these challenging 
times for our nation, it is more important than ever that the Deputy 
Secretary of Transportation possess all of these qualities.
    We hope that the Committee considers and approves Mr. Van Tine's 
nomination in an expeditious fashion, and that the full Senate confirms 
him soon so that he can begin work on the many vital matters facing the 
Department of Transportation.
    Thank you for your consideration of ARTBA's position. If you or 
your staff have any questions, please contact me at any time.
            Sincerely,
                                            T. Peter Ruane,
                                                 President and CEO.
                                 ______
                                 
                                 American Maritime Congress
                                   Washington, DC, October 31, 2003
Hon. John McCain,
Chairman,
United States Senate,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Mr. Chairman:

    On behalf of the Marine Engineers' Beneficial Association, our 
Nation's oldest maritime union, and the American Maritime Congress. a 
research and education group representing U.S.-flagship operators in 
the domestic and international trades. we are writing to strongly 
support the nomination of Mr. Kirk K. Van Tine to be Deputy Secretary 
of Transportation.
    Mr. Van Tine, who most recently served as the General Counsel of 
the Department of Transportation. has a long record of distinguished 
service as an attorney in private practice for over twenty years where 
he specialized in complex litigation involving business matters and the 
Federal Government.
    During his tenure at the Department, he has demonstrated a firm 
grasp of the critical legal and policy issues surrounding 
transportation, and the public/private sector interaction and 
partnership that marks all modes of transportation. Particularly in the 
aftermath of September 11 and the War on Terrorism, the effectiveness 
of this partnership has become an essential component of our nations 
homeland security and our ability to advance America's interest around 
the globe. We believe that Mr. Van Tine will provide strong leadership, 
vision, first-hand knowledge, and experience to this position that the 
challenges now facing the United States require and for which he is 
eminently qualified.
    The Marine Engineer's Beneficial Association and the American 
Maritime Congress fully support his nomination.
            Sincerely,
                                       Gloria Cataneo Tosi,
                                                         President.
                                 ______
                                 
                          Association of American Railroads
                                   Washington, DC, November 3, 2003
Hon. John McCain,
Chairman,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Hon. Ernest Hollings,
Ranking Minority Member,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Chairman McCain and Senator Hollings:

    As the Senate Commerce Committee considers the Administration's 
nomination of the Honorable Kirk Van Tine for the position of Deputy 
Secretary for Transportation, I would like to voice my steadfast 
support for this well-qualified nominee.
    Mr. Van Tine has a distinguished career and received overwhelming 
support from the Senate in his nomination as General Counsel to the 
Department of Transportation. In his current position Mr. Van Tine has 
been instrumental in the implementation of critical safety and security 
legislation in the aftermath of the terrorist attacks on September 11, 
2001. In my experiences with Mr. Van Tine, I have found him to be 
objective and thoughtful in all of his decisions in regard to 
transportation policy. On a personal note, I have known Kirk for many 
years and continue to be impressed with his work ethic and excellent 
judgment.
    On behalf of the U.S. freight railroad industry, please take my 
favorable recommendation of Kirk Van Tine into consideration as you 
review his nomination. It is my belief that Mr. Van Tine will be an 
excellent Deputy Secretary of Transportation at a time when the Nation 
is facing critical transportation issues.
            Sincerely,
                                       Edward R. Hamberger,
                             President and Chief Executive Officer.
                                 ______
                                 
                  Associated General Contractors of America
                                   Alexandria, VA, November 3. 2003
Hon. Daniel Akaka,
United States Senate,
Washington, DC.

Dear Senator Akaka:

    The Associated General Contractors of America (AGC) represents 
33,000 construction and construction-related companies in all 50 
states, the District of Columbia and Puerto Rico. On behalf of our 
members, we urge you to join us in supporting the nomination of Kirk 
Van Tine to be the Deputy Secretary of the Department of 
Transportation. Mr. Van Tine has the necessary background and knowledge 
to ensure that the department is as effective as possible, dealing with 
mature issues such as aviation security, aviation reauthorization, and 
highway and transit reauthorization legislation. He is equally capable 
of taking on emerging issues that the Department will face during his 
tenure.
    The integration of the many moving parts that make up both the 
operations agenda, and the legislative and regulatory agendas of the 
Department of Transportation require the attention of someone like Mr. 
Van Tine. He has proven himself time and time again to be a natural and 
effective leader, and will prove to be a genuine asset in the 
Department of Transportation. For all of those reasons, he has the full 
confidence of the Associated General Contractors of America to serve in 
the capacity of Deputy Secretary of the Department of Transportation.
    Thank you very much for your consideration of our views.
            Sincerely.
                                       Stephen E. Sandherr,
                                           Chief Executive Officer.
SES/jds
                                 ______
                                 
                 General Aviation Manufacturers Association
                                                    Washington, DC.
Hon. John McCain,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman McCain:

    The General Aviation Manufacturers Association (GAMA) 
enthusiastically endorses the nomination of Kirk Van Tine to be Deputy 
Secretary of the Department of Transportation.
    Mr. Van Tine's exemplary service to the Department of 
Transportation as General Counsel proves that he will be a valuable 
asset to the Department as its Deputy. GAMA has had an opportunity to 
work with Mr. Van Tine and found him to be open to addressing the 
issues facing the general aviation industry. We are impressed with his 
work ethic and dedication to transportation issues.
    Mr. Chairman, as you are aware, the general aviation industry has 
faced numerous challenges over the past two years. Numerous security 
regulations are changing the way general aviation operates. We need 
strong leaders at the helm of the Department. Now more than ever our 
members are relying on the thoughtful leadership of Mr. Van Tine.
    We encourage the Committee to consider and approve Mr. Van Tine's 
nomination in an expeditious manner and that the full Senate confirms 
him soon. Thank you for your consideration of GAMA's endorsement.
            Sincerely,
                                                  Ed Bolen,
                                                 President and CEO.
                                 ______
                                 
                 General Aviation Manufacturers Association
                                                    Washington, DC.
Hon. Ernest Hollings,
Ranking Minority Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

    Dear Senator Hollings:

    The General Aviation Manufacturers Association (GAMA) 
enthusiastically endorses the nomination of Kirk Van Tine to be Deputy 
Secretary of the Department of Transportation.
    Mr. Van Tine's exemplary service to the Department of 
Transportation as General Counsel proves that he will be a valuable 
asset to the Department as its Deputy. GAMA has had an opportunity to 
work with Mr. Van Tine and found him to be open to addressing the 
issues facing the general aviation industry. We are impressed with his 
work ethic and dedication to transportation issues.
    Mr. Chairman, as you are aware, the general aviation industry has 
faced numerous challenges over the past two years. Numerous security 
regulations are changing the way general aviation operates. We need 
strong leaders at the helm of the Department. Now more than ever our 
members are relying on the thoughtful leadership of Mr. Van Tine.
    We encourage the Committee to consider and approve Mr. Van Tine's 
nomination in an expeditious manner and that the full Senate confirms 
him soon. Thank you for your consideration of GAMA's endorsement.
            Sincerely,
                                                  Ed Bolen,
                                                 President and CEO.
                                 ______
                                 
                                                   November 3, 2003
Hon. Ernest F. Hollings,
United States Senate,
Washington, DC.

Dear Senator Hollings:

    On September 18, the President announced his intention to nominate 
Kirk Van Tine as Deputy Secretary of Transportation. Based on our 
collective and individual experiences with him, we believe he would 
make an excellent Deputy Secretary of Transportation and urge you to 
proceed with the confirmation process to fill that vitally important 
position.
    While Mr. Van Tine was General Counsel at the Department of 
Transportation, he was devoted to the mission of the Department, 
particularly enhancement of airline competition, open markets and the 
restoration of service following the tragic events of September 11, 
2001. During his tenure as General Counsel, we found Mr. Van Tine to be 
consistently even-handed and objective while he worked tirelessly to 
address the issues facing the airline industry. While we did not 
necessarily agree with all Department decisions in which Mr. Van Tine 
was involved, he carefully listened to all positions, engaged in 
constructive government/industry dialogue, and acted with great 
integrity. He pursued constructive steps for the benefit of all 
carriers.
    As the airline industry continues on the fragile road to recovery, 
it is essential that Mr. Van Tine be allowed to bring his experience 
and knowledge to the Department, so that he can help lead the 
Department's efforts to address the needs of consumers, communities, 
and airlines.
    If there is anything further we can do to assist the Committee in 
the nominating process for Mr. Van Tine, please let us know.
            Sincerely,

Joseph Leonard
Chairman & CEO
AirTran Airways, Inc.

Jeff Potter
President & CEO
Frontier Airlines, Inc.

Timothy E. Hoeksema
Chairman, President and CEO
Midwest Express Airlines

Doug Parker
Chairman, President and CEO
America West Airlines

David Neeleman
CEO
JetBlue Airways Corporation

Herb Kelleher
Chairman
Southwest Airlines

Jacob M. Schorr
President and CEO
Spirit Airlines
    cc: Minority Leader Thomas Daschle
                                 ______
                                 
                                                   November 3, 2003
Hon. Trent Lott,
Chairman, Aviation Subcommittee,
Senate Commerce Committee,
United States Senate,
Washington, DC.

Dear Mr. Chairman:

    On September 18, the President announced his intention to nominate 
Kirk Van Tine as Deputy Secretary of Transportation. Based on our 
collective and individual experiences with him, we believe he would 
make an excellent Deputy Secretary of Transportation and urge you to 
proceed with the confirmation process to fill that vitally important 
position.
    While Mr. Van Tine was General Counsel at the Department of 
Transportation, he was devoted to the mission of the Department, 
particularly enhancement of airline competition, open markets and the 
restoration of service following the tragic events of September 11, 
2001. During his tenure as General Counsel, we found Mr. Van Tine to be 
consistently even-handed and objective while he worked tirelessly to 
address the issues facing the airline industry. While we did not 
necessarily agree with all Department decisions in which Mr. Van Tine 
was involved, he carefully listened to all positions, engaged in 
constructive government/industry dialogue, and acted with great 
integrity. He pursued constructive steps for the benefit of all 
carriers.
    As the airline industry continues on the fragile road to recovery, 
it is essential that Mr. Van Tine be allowed to bring his experience 
and knowledge to the Department, so that he can help lead the 
Department's efforts to address the needs of consumers, communities, 
and airlines.
    If there is anything further we can do to assist the Committee in 
the nominating process for Mr. Van Tine, please let us know.
            Sincerely,

Joseph Leonard
Chairman & CEO
AirTran Airways, Inc.

Jeff Potter
President & CEO
Frontier Airlines, Inc.

Timothy E. Hoeksema
Chairman, President and CEO
Midwest Express Airlines

Doug Parker
Chairman, President and CEO
America West Airlines

David Neeleman
CEO
JetBlue Airways Corporation

Herb Kelleher
Chairman
Southwest Airlines

Jacob M. Schorr
President and CEO
Spirit Airlines
                                 ______
                                 
                                                   November 3, 2003
Hon. John D. ``Jay'' Rockefeller IV,
United States Senate,
Washington, DC.

Dear Senator Rockefeller:

    On September 18, the President announced his intention to nominate 
Kirk Van Tine as Deputy Secretary of Transportation. Based on our 
collective and individual experiences with him, we believe he would 
make an excellent Deputy Secretary of Transportation and urge you to 
proceed with the confirmation process to fill that vitally important 
position.
    While Mr. Van Tine was General Counsel at the Department of 
Transportation, he was devoted to the mission of the Department, 
particularly enhancement of airline competition, open markets and the 
restoration of service following the tragic events of September 11, 
2001. During his tenure as General Counsel, we found Mr. Van Tine to be 
consistently even-handed and objective while he worked tirelessly to 
address the issues facing the airline industry. While we did not 
necessarily agree with all Department decisions in which Mr. Van Tine 
was involved, he carefully listened to all positions, engaged in 
constructive government/industry dialogue, and acted with great 
integrity. He pursued constructive steps for the benefit of all 
carriers.
    As the airline industry continues on the fragile road to recovery, 
it is essential that Mr. Van Tine be allowed to bring his experience 
and knowledge to the Department, so that he can help lead the 
Department's efforts to address the needs of consumers, communities, 
and airlines.
    If there is anything further we can do to assist the Committee in 
the nominating process for Mr. Van Tine, please let us know.
            Sincerely,

Joseph Leonard
Chairman & CEO
AirTran Airways, Inc.

Jeff Potter
President & CEO
Frontier Airlines, Inc.

Timothy E. Hoeksema
Chairman, President and CEO
Midwest Express Airlines

Doug Parker
Chairman, President and CEO
America West Airlines

David Neeleman
CEO
JetBlue Airways Corporation

Herb Kelleher
Chairman
Southwest Airlines

Jacob M. Schorr
President and CEO
Spirit Airlines
                                 ______
                                 
                                   Transportation Institute
                                 Camp Springs, MD, November 3, 2003
Hon. John McCain,
Chairman,
Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Mr. Chairman:

    The Transportation Institute, representing U.S.-flag vessel 
operators engaged in all aspects of the Nation's waterborne commerce, 
wishes to express its support for the nomination of Kirk K. Van Tine to 
be Deputy Secretary of the U.S. Department of Transportation.
    Mr. Van Tine has served admirably as General Counsel at the 
Transportation Department and during that time developed a keen 
appreciation of the complexities facing the U.S. transportation 
industries, both internationally and domestically. His performance as 
General Counsel, as an attorney in private practice for more than 20 
years, and as a naval officer have clearly prepared him well to assume 
this leadership position.
    We urge the Committee, and in turn the Senate, to look with favor 
once again on his nomination. Mr. Van Tine has served the 
Transportation Department with distinction and will continue to do so 
as Deputy Secretary.
            Sincerely,
                                            James L. Henry.

cc: The Honorable Ernest Hollings

JLH:rf
                                 ______
                                 
                               UPS Corporate Public Affairs
                                   Washington, DC. November 4, 2003
Hon. John McCain,
Chairman, Senate Commerce Committee,
United States Senate,
Washington, DC.

Dear Mr. Chairman:

    On September 18, President Bush announced his intention to nominate 
Kirk Van Tine as Deputy Secretary of Transportation. UPS does not 
oppose this nomination and remains neutral in this proceeding.
    The Deputy Secretary of Transportation provides a critical role in 
the function and operation of the Nation's transportation network. UPS 
looks forward to an expeditious confirmation process by your Committee.
    If there is anything we can provide to assist the Committee in the 
nominating process, please contact me at 202/675-4251. Thank you.
            Sincerely,
                                         Arnold F. Wellman,
                                                    Vice President,
                                              Corporate Public Affairs,
                                                Domestic/International.
                                 ______
                                 
                 American Public Transportation Association
                                                   November 5, 2003
Hon. John McCain,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Mr. Chairman:

    I write on behalf of the 1,500 member organizations of the American 
Public Transportation Association (APTA) in support of the 
Administration's nomination of former Department of Transportation 
General Counsel Kirk K. Van Tine to be the Department's Deputy 
Secretary.
About APTA
    APTA is the trade association for the North American public 
transportation industry. Its public and private member organizations 
include transit systems and commuter rail operators; planning, design, 
construction and finance firms; product and service providers; academic 
institutions, transit associations and state departments of 
transportation. APTA members serve the public interest by providing 
safe, efficient and economical transit services and products. Over 
ninety percent of persons using public transportation in the United 
States and Canada are served by APTA members.
Our Support
    During Mr. Van Tine's tenure as the Department's General Counsel, 
APTA was pleased with the good working relationships we had with 
Departmental legal counsel responsible for transit, safety and commuter 
rail issues. We knew that the issues and concerns of our membership 
would have a fair and balanced hearing, and this was always the case. 
We are thus very appreciative of Mr. Van Tine's stewardship of the 
Department's legal team during his time as General Counsel, and believe 
he served the public interest well in that regard.
    The Department has faced considerable organizational change over 
the past two years, and many critical transportation challenges remain 
to be addressed. Mr. Van Tine not only served as General Counsel but 
also worked closely with Secretary Mineta and the Department's 
leadership team on a range of important national issues. In these 
difficult times particularly, we believe that continuity and experience 
are important to maintain at the highest levels of Departmental 
leadership. We have the utmost respect and confidence in Secretary 
Mineta, and urge you to support his candidate to be Deputy Secretary of 
the Department of Transportation.
            Sincerely yours,
                                         William W. Millar,
                                                         President.
WWM/cbo
                                 ______
                                 
                 American Public Transportation Association
                                                   November 5, 2003
Hon. Ernest F. Hollings,
Ranking Member,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Senator Hollings:

    I write on behalf of the 1,500 member organizations of the American 
Public Transportation Association (APTA) in support of the 
Administration's nomination of former Department of Transportation 
General Counsel Kirk K. Van Tine to be the Department's Deputy 
Secretary.
About APTA
    APTA is the trade association for the North American public 
transportation industry. Its public and private member organizations 
include transit systems and commuter rail operators; planning, design, 
construction and finance firms; product and service providers; academic 
institutions, transit associations and state departments of 
transportation. APTA members serve the public interest by providing 
safe, efficient and economical transit services and products. Over 
ninety percent of persons using public transportation in the United 
States and Canada are served by APTA members.
Our Support
    During Mr. Van Tine's tenure as the Department's General Counsel, 
APTA was pleased with the good working relationships we had with 
Departmental legal counsel responsible for transit, safety and commuter 
rail issues. We knew that the issues and concerns of our membership 
would have a fair and balanced hearing, and this was always the case. 
We are thus very appreciative of Mr. Van Tine's stewardship of the 
Department's legal team during his time as General Counsel, and believe 
he served the public interest well in that regard.
    The Department has faced considerable organizational change over 
the past two years, and many critical transportation challenges remain 
to be addressed. Mr. Van Tine not only served as General Counsel but 
also worked closely with Secretary Mineta and the Department's 
leadership team on a range of important national issues. In these 
difficult times particularly, we believe that continuity and experience 
are important to maintain at the highest levels of Departmental 
leadership. We have the utmost respect and confidence in Secretary 
Mineta, and urge you to support his candidate to be Deputy Secretary of 
the Department of Transportation.
            Sincerely yours,
                                         William W. Millar,
                                                         President.
WWM/cbo
                                 ______
                                 
                                                 US Airways
                                    Arlington, VA, November 6, 2003
Hon. Bill Frist,
Majority Leader,
United States Senate,
Washington, DC.

Dear Majority Leader Frist:

    I am writing to express U.S. Airways' support for three key 
nominees to positions in the Department of Transportation and to ask 
for the Senate's timely approval of these candidates. With the current 
tumultuous state of the commercial airline industry, I believe it is 
vital that Kirk Van Tine, Jeffrey Rosen, and Karan Bhatia be confirmed 
by the Senate so they may begin their work at the Department.
    Secretary Mineta has demonstrated both his abilities to lead the 
Department, as well as build a capable and qualified team. U.S. Airways 
worked closely with Mr. Van Tine in particular during our loan approval 
process with the Air Transportation Stabilization Board (ATSB) and 
found him to be fair, objective, and professional while representing 
the Department of Transportation's interests. I believe he 'Will bring 
these same qualities to his position as Deputy Secretary of 
Transportation.
    I have great confidence that these candidates will be an asset to 
the Department as it works with aviation industry partners to continue 
building a safe and viable air transportation system. Your help in 
scheduling a vote on their nominations before the Senate recesses for 
the year would he most appreciated.
            Sincerely,
                                           David N. Siegel,
                             President and Chief Executive Officer.
cc: Honorable Tom Daschle
Honorable John McCain
Honorable Ernest Hollings
                                 ______
                                 
                  Associated Builders and Contractors, Inc.
                                   Arlington, VA, November 13, 2003
Hon. Bill Frist,
Senate Majority Leader,
United States Senate,
Washington, DC.

Dear Senator Frist:

    On behalf of Associated Builders and Contractors (ABC), and its 
more than 23,000 general contractors, subcontractors, material 
suppliers, and related firms across the country, I am writing today to 
express our association's support for President Bush's nomination of 
Mr. Kirk Van Tine to the position of Deputy Secretary of 
Transportation.
    While serving as General Counsel at the Department of 
Transportation, Mr. Van Kirk has been a loyal ally of ABC. 
Specifically, his dedication to implementation of Executive Order 
13202--which restricts the use of mandatory union-only project labor 
agreements on federally funded construction projects has ensured that 
taxpayers' dollars are well spent.
    Again on behalf of ABC, I urge your support of Mr. Kirk Van Tine 
during his confirmation procedures.
            Respectfully Submitted,
                                        William B. Spencer,
                                Vice President, Government Affairs.
CC: The Honorable Ernest Hollings
The Honorable John McCain
The Honorable Thomas Daschle
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Conrad Burns to 
                          Michael D. Gallagher
    Question 1. Your office negotiates and administers the Memorandum 
of Understanding (MOU) under which many critical functions are 
delegated to ICANN. Your predecessor also led the U.S. Government 
delegation to the Government Advisory Committee (GAC) of ICANN. Do you 
anticipate that if you are confirmed as NTIA Administrator you will be 
actively and personally engaged in these issues? If confirmed, will you 
undertake to report regularly to the Senate Commerce Committee on how 
NTIA is carrying out this role?
    Answer. I am committed to fulfilling the role of the National 
Telecommunications and Information Administration (NTIA) in support of 
the Memorandum of Understanding (MOU) between the Department of 
Commerce and the Internet Corporation for Assigned Names and Numbers 
(ICANN). I consider the implementation of the terms of the most recent 
MOU a high priority effort in which I will be actively and personally 
engaged. I will be happy to provide the Committee with reports on 
NTIA's activities and efforts in this critical area.

    Question 2. The Department of Commerce and ICANN recently signed a 
3-year extension of the MOU. Under this extension agreement, ICANN 
explicitly commits to address a problem that is of great concern to me 
and the Commerce Committee as well: false WHOIS data. WHOIS and similar 
databases are essential for identifying and locating domain name 
registrants, especially in cases of security threats, consumer fraud, 
activities harmful to children, and other misconduct that occurs 
online, but the database cannot play that role if it is filled with 
wholly inaccurate contact information, as it is now. Under the MOU 
extension, ICANN promised to ``implement measures to secure improved 
accuracy of WHOIS data.'' Can you be more specific about what NTIA will 
be looking for from ICANN regarding WHOIS accuracy, and explain the 
steps you will be looking for ICANN to take to fulfill this obligation?
    Answer. I share your concerns regarding false or inaccurate WHOIS 
data. The WHOIS database serves many important public policy needs, 
such as allowing intellectual property owners to determine the identity 
of those conducting piracy or trademark counterfeiting operations, law 
enforcement officials to investigate illegal activities online, and 
consumers to identify the commercial entity with whom they are dealing.
    It is for this reason that the Department and ICANN agreed to two 
provisions regarding WHOIS in the current MOU--the implementation of a 
centralized complaint process and an annual WHOIS update requirement 
for accredited registrars. ICANN will report to the Department on their 
progress in this regard annually, starting, respectively, in March and 
November, 2004.
    Moreover, I believe that ICANN's management understands the need 
for accurate and publicly available WHOIS data, and have been 
encouraged by recent developments within the ICANN community. In 
addition to the implementation of a centralized complaint process and 
an annual WHOIS update requirement for accredited registrars, the 
President of ICANN has established a ``President's Committee on WHOIS'' 
to ensure collaboration among all constituents with respect to WHOIS 
data issues and convened a WHOIS workshop at ICANN's recent meeting 
last month. These activities reflect a continuing commitment by ICANN 
to broaden understanding of WHOIS data accuracy and usage issues and to 
develop a responsive work program. I see these developments as concrete 
steps to implement measures to ensure improved accuracy of WHOIS data.

    Question 3. Some people have read the MOU as if ICANN's obligations 
regarding WHOIS data accuracy are limited to publishing only the 
Internic WHOIS Data Problem Reports and the ICANN WHOIS Data Reminder 
Policy on an annual basis. Can you clarify that this is not the case, 
and that you are looking to ICANN to implement new mechanisms to 
improve the accuracy of WHOIS data, not just to prepare reports on 
these two aspects of WHOIS?
    Answer. ICANN's responsibilities to improve the accuracy of WHOIS 
data go beyond mere reporting functions. Section II.C.10 of the MOU 
between the Department of Commerce and ICANN provides that ICANN shall 
``[c]ontinue to assess the operation of WHOIS databases and to 
implement measures to secure improved accuracy of WHOIS data.'' To this 
end, the Internic WHOIS Data Problem Reports and the ICANN WHOIS Data 
Reminder Policy Reports are only intended to be specific examples of 
tasks supporting the broader goal of improving WHOIS data accuracy. 
ICANN management and key constituencies have undertaken other 
initiatives in this regard. For example, ICANN's Generic Names 
Supporting Organization is engaged in an examination of relevant 
aspects of the WHOIS database with a view towards developing 
recommendations to improve its accuracy. My focus will be on improving 
the accuracy of WHOIS data and not just report production.

    Question 4. The MOU extension requires ICANN to ``augment its 
corporate compliance program'' and to ``audit material contracts for 
compliance by all parties''. In your view, what role should contract 
enforcement play in such a compliance program? Will NTIA be expecting 
ICANN to go beyond ``auditing'' contracts for compliance and undertake 
enforcement of those contracts if it detects violations? In this 
regard, do you believe that the NTIA views the Registrar Accreditation 
Agreements signed by each registrar with ICANN as ``material 
contracts'' that are covered by this aspect of the MOU extension?
    Answer. From my perspective, the MOU provisions are intended to 
ensure that ICANN's management understands the critical role that 
contracts play in the financial and corporate stability and security of 
the organization. Clearly the Registrar Accreditation Agreements are 
key documents defining ICANN's relationship with registrars and are 
critical to ensuring accurate and publicly available WHOIS data. I 
believe that ICANN's new management does understand and is committed to 
resolving contract compliance issues, including enforcement of WHOIS 
provisions in the Registrar Accreditation Agreements. Following 
completion of the audits, I will take any necessary corrective actions.
    Again, thank you for this opportunity to provide additional 
information on the Department's relationship with ICANN, particularly 
with regard to WHOIS data. Please do not hesitate to contact me if I 
can be of any further assistance.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                            Kirk K. Van Tine
Surface
    Question 1. As you know, the Administration has announced its 
intention to fulfill the cross-border traffic requirements of NAFTA and 
will open the Border by the end of the year. What is the Department 
doing to prepare for the anticipated opening of the border? Will the 
Administration submit a proposal to Congress to authorize additional 
funding for border-related activities or seek other related authority?
    Answer. I am aware that the Federal Motor Carrier Safety 
Administration has prepared a comprehensive plan to ensure that the 
NAFTA cross-border provisions are implemented safely and on time. The 
plan sets forth specific screening and monitoring procedures to ensure 
that Mexican vehicles and drivers comply with Federal Motor Carrier 
Safety Regulations when they operate in the U.S. The Administration has 
sought a significant increase in resources for FY2002 activities to 
prepare for the safe entry of cross-border commercial traffic.
    Some of the major program strategies, activities, and milestones 
planned or undertaken to prepare for the opening of the Southern border 
to commercial traffic follow:

  1.  Rulemaking. On May 3, 2001, DOT proposed regulations governing 
        the application process for Mexican-domiciled carriers that 
        wish to operate in the U.S. and the process by which DOT will 
        review the safety records of carriers during the first 18 
        months of their U.S. operations. The new requirements will 
        ensure that carriers understand and are able to comply with 
        U.S. requirements. Final regulations will be published by 
        November 2001.

  2.  Resources. To support comprehensive State and Federal safety 
        enforcement activities at the Southern border, the Department 
        requested $88.2 million in additional funds in its FY 2002 
        budget. The request includes $13.9 million to hire 85 
        additional Federal staff to perform safety inspections and 
        conduct safety audits of Mexican carriers. The Department also 
        requested $54 million to provide the Federal share for the 
        construction and improvement of State commercial vehicle 
        inspection facilities. Currently 2 3 border crossings with 
        truck traffic do not have permanent inspection facilities. In 
        addition, the Department requested $2.3 million for immediate 
        construction of areas to park commercial vehicles placed out-
        of-service for safety violations. The Department is also 
        proposing that an additional $18 million be made available to 
        support the staffing of State facilities and increase State 
        motor carrier border inspection activities. All-Federal 
        enforcement personnel will be hired and trained by December 
        2001.

  3.  Education and Outreach. The FMCSA, in concert with the border 
        States, will be conducting a series of safety compliance 
        seminars to educate Mexican carriers and drivers on compliance 
        with Federal and State regulations. The seminars will include a 
        detailed explanation of new application requirements. These 
        seminars will supplement ongoing efforts to translate and 
        distribute educational materials to Mexican carriers and 
        drivers. The seminars will be conducted from August to November 
        2001.

  4.  Application Processing Procedures. Procedures are being developed 
        to ensure that all applications are evaluated thoroughly, 
        accurately, and consistently, and that only qualified carriers 
        are approved to operate. Procedures will be developed by 
        September 2001. An application-processing center will also be 
        established by September 2001.

  5.  Safety Audit Procedures. To ensure Mexican carriers operate 
        safely, the FMCSA rulemaking requires that an audit of each 
        carrier's safety performance be conducted. Within 18 months of 
        receiving authority, all Mexican carriers must submit to a 
        safety audit by providing records to a Federal safety 
        investigator and participating in a thorough review of their 
        operating procedures. Procedures for conducting the review will 
        be in place by August 2001.

  6.  Safety Databases. The FMCSA will focus on improving the safety 
        information systems available to Federal and State enforcement 
        officials in order to verify application information directly 
        with Mexican transportation officials, automate the review of 
        applications, provide real time safety performance and other 
        data to Federal and State inspectors and effectively monitor 
        the safety performance of Mexican motor carriers operating in 
        the United States. All inspectors will have access to available 
        U.S. and Mexican driver licensing, carrier, and other safety 
        databases by January 1, 2002.

  7.  NAFTA Coordination. The Department of Transportation will 
        continue to work with Mexico to increase regulatory 
        compatibility between our countries, establish cooperative 
        agreements on the exchange of safety information, and provide 
        technical assistance to build compatible compliance and 
        enforcement programs in Mexico. The adoption and implementation 
        of comparable programs in Mexico will provide greater assurance 
        that vehicles entering the U.S. are already in compliance with 
        safety standards.

    Question 2. The astronomical costs of transportation projects 
should be a top concern to the Department. The cost overruns associated 
with the Boston Central Artery Tunnel Project have risen to over $14 
billion, and those costs will likely continue to rise before the 
project is completed. The Big Dig project must serve as an example for 
all of us on the critical importance of Federal oversight of federally 
funded transportation projects.
    In addition to the Big Dig, the DOT is overseeing 41 other mega-
projects. What actions will you take, to ensure greater Federal 
oversight on all federally-funded transportation projects--from 
airports to shipyards to highway projects?
    Answer. I believe it is critical that the Department be a careful 
steward of Federal funds. Recipients of DOT funds and DOT internal 
managers must be held accountable for meeting cost and schedule goals. 
Since projects will not always proceed as planned, the Department 
should have early warning of problems with these large projects and 
should play an active role in developing solutions for those problems.
    I understand that the Department created a Task Force to strengthen 
the oversight process and that several recommendations have been 
developed regarding improvements in the quality of the oversight 
process and selection of the managers who perform the oversight. If 
confirmed, I would expect to work with other members of Secretary 
Mineta's management team to ensure that DOT oversight is strengthened.
    Several of the operating administrations within DOT have processes 
in place to oversee additional infrastructure projects that are not 
categorized as mega-projects. Strengthening the process for mega-
projects will also serve as a model for strengthening the oversight of 
these smaller projects.
Administrative
    Question 3. Over the last several years, it has become apparent 
that it is difficult, at best, to get reports and regulations cleared 
for release by DOT. Reports to Congress are regularly late and 
regulations are often held up for months as they make there way through 
the various agencies within DOT. Apparently even DOT agencies that have 
no role in the development, oversight, or enforcement of regulations 
are routinely required to review and sign off on regulations and 
reports before clearance.

    (a) What action would you take to improve interagency communication 
and cooperation within DOT and streamline the review process for 
regulations and reports?

    (b) What will you do to help ensure that reports to Congress are 
completed and submitted in a timely manner?
    Answer. Secretary Mineta has committed the Department to moving as 
expeditiously as possible in rulemakings, consistent with its 
obligation to ensure that DOT agencies comply with all statutory 
requirements for rulemaking. As General Counsel, I would play a 
significant role in accomplishing this management objective. On the 
recommendation of the DOT Inspector General, the Department has 
instituted a new tracking system for regulations. That system became 
operational on May 1. It is capable of generating a basic set of needed 
reports, and the Department intends to expand its capabilities over the 
coming months.
    Secretary Mineta's frustration with delinquent reports from the 
Department while serving as a Member of Congress clearly demonstrated 
to him the need for accurate, timely information as a key component for 
decision-making by Congress. Additionally, the Deputy Secretary has 
made timely regulatory action by the Department and its modes a very 
high priority, in line with recent recommendations of the Inspector 
General. The DOT Inspector General (IG) studied delay in DOT rulemaking 
(report issued July 20, 2000), and its recommendations form the basis 
for improved interagency communication and cooperation. The IG found 
areas where there were clear opportunities for improving efficiency and 
effectiveness and made several recommendations, all of which the 
Department has implemented or is implementing. If confirmed as General 
Counsel, I commit to make a sustained effort in this area one of my 
highest priorities.
    It is my understanding that the various administrations within DOT 
are not routinely asked to review the rulemaking actions of other 
administrations within DOT unless the rule making could directly affect 
programs within their immediate jurisdiction. For example, FRA may be 
asked to review an FMCSA rulemaking on railroad crossings, and NHTSA 
may review an FAA rulemaking on child seats. In addition, it is my 
understanding that the Office of the Secretary now limits the review of 
proposed regulations and reports only to those offices within the 
Department that could be affected. In coordinating the regulatory 
process for all the modes, I would attempt to ensure that the process 
works efficiently, and that regulations are developed and cleared in a 
timely manner.

    Question 4. I trust that you clearly understand the difference 
between statutory and report language. What steps will you take at the 
Department to ensure that the modal administrations treat report 
language as it is intended, an expression of Congressional interest, 
rather than having it be treated as a Congressional mandate?
    Answer. I can assure you that I clearly understand the difference 
between statutory and report language, particularly when it comes to 
the naming of specific projects in report language. In such instances, 
only statutory language is law; report language is not law but simply 
an expression of Congressional interest. If confirmed, I will be sure 
that the Chief Counsel offices in the modal administrations understand 
this as well.
Maritime
    Question 5. The President has proposed as part of the 
Administration's FY 2002 budget to zero out funding for Title XI 
maritime loan guarantee program. Private maritime interests who support 
the program recently published a report which argues that the program 
has been a net revenue raiser for the Federal Government? I am 
concerned the findings in the report have not been subjected to any 
outside independent analysis. If confirmed, what will you do in order 
to insure that such reports, which clearly counter the Department's 
position, are responded to fully and in a timely manner?
    Answer. If confirmed, I will attempt to ensure that, when the 
Department is requested to evaluate a private report, it will perform 
an objective, independent, and balanced evaluation, and that the 
Department's analysis will be completed in a timely manner. My 
understanding is that an evaluation of the report mentioned is underway 
at this time in the Office of the Assistant Secretary for Budget and 
Programs.
Aviation
    Question 6. The FAA recently published several options for managing 
excessive demand at LaGuardia airport. Two of the options were 
developed by the Port Authority of New York and New Jersey, which 
operates the airport. Those options involved market-based solutions 
wherein the Port Authority would charge congestion fees or hold an 
auction for take off and landing ``reservations.'' I believe that any 
attempt to manage demand at LaGuardia must be done under the authority 
of the Federal Government because local authorities are legal preempted 
from imposing such solutions. Do you agree that airports do not, under 
Federal law, have authority to establish their own remedies, such as 
congestion fees, for managing demand for air services?
    Answer. The extent of an airport proprietor's powers to set fees to 
manage demand for air services raises complex legal issues as well as 
difficult issues with regard to our international aviation obligations. 
The FAA has the statutory authority to regulate navigable airspace and 
to assure efficient air traffic management. 49 U.S.C. 40103. An airport 
proprietor has the right to impose fees, terms and conditions on 
operators at its airport hat are reasonable, nonarbitrary, 
nondiscriminatory, intended to advance a local interest, and do not 
impose an undue burden on interstate commerce. 49 U.S.C. 41 713(b). It 
is possible that a properly structured peak pricing program whose 
objective is to align the number of aircraft operations with airport 
capacity could be reasonable and not unjustly discriminatory under 49 
U.S.C. 471 07(a)(1) and 47129 as well as under the U.S. international 
air services obligations and the International Civil Aviation 
Organization's policies.
    However, the Department has the legal authority and obligation to 
review and carefully consider such programs, and I would ensure that 
the Department exercises that authority with respect to any plan. As 
stated in its June 12 Federal Register notice on LaGuardia options,

        [T]he FAA does not propose nor endorse the Port Authority's 
        options at this time. Federal laws, regulations, and U.S. 
        international obligations presently in place may, in fact, 
        prevent PANYNJ from imposing these proposals. In this notice we 
        seek suggestions on effective, comprehensive solutions that 
        represent the best public policy for controlling congestion and 
        allocating operating rights at LGA, and we will consider 
        pertinent legal issues in any policy options ultimately put 
        forward for adoption. 66 FR 31 736.

    I understand that, at present, FAA is working with the Port 
Authority in seeking solutions to the congestion at LaGuardia; the Port 
Authority has not acted to impose congestion pricing or other market-
based options on its own. The FAA's current effort is to attempt to 
identify those options that represent the best public policy solutions 
for controlling congestion at LaGuardia, and then address whether they 
might be implemented in accordance with existing legal and 
international requirements or whether changes might be advisable. I 
would ensure that I am kept informed as this subject develops, and that 
the Department's actions are based on sound legal analysis.

    Question 7. As you may know, the bilateral air services agreement 
between the United States and United Kingdom, known as Bermuda 2, 
restricts competition and is heavily slanted in favor of British air 
carriers. The U.S. has tried unsuccessfully for many years to 
liberalize the relationship. In recent weeks, there has been some talk 
that negotiations may be back on track as American Airlines and British 
Airways may make another attempt to obtain antitrust immunity for it 
international alliance.

    (a) What is your position with regard to the U.S./U.K. bilateral, 
and what will you do to ensure that the United States is not put at a 
disadvantage with respect to access at Heathrow?
    Answer. I understand that replacing the restrictive U.S.-U.K. 
aviation agreement with an ``Open-Skies'' agreement is a U.S. aviation 
priority. DOT met informally with the British on June 26 and 27 to 
discuss a possible resumption of talks, and it was agreed that the 
parties would not fix dates at this point, but would be flexible and 
prepared to meet as and when circumstances develop further. Meanwhile, 
DOT continues to concentrate its efforts on partners that are ready for 
liberalization.
    I recognize the importance to U.S. carriers of access to Heathrow. 
I also recognize that Heathrow is a highly congested airport and that 
it is critical for the slot allocation system to continue to be 
transparent and non discriminatory. In a liberalized environment, the 
ability of U.S. carriers to establish a competitively effective 
presence at Heathrow will be a key consideration if British Airways 
seeks antitrust immunity.

    (b) What are the chances that the U.S. will be able to get a more 
liberalized agreement, or even ``open skies,'' with regard to the 
British?
    Answer. Although I do not at present have access to full 
information on this topic, it appears unclear whether the U.K. 
government is ready to engage in serious talks leading to open skies.

    (c) What is your position on changing the 25-percent limitation on 
foreign investment in U.S. airlines?
    Answer. The current 25 percent limit on foreign voting interest in 
U.S. air carriers is of course a part of U.S. aviation law, so any 
possible change would entail close consultation between the 
Administration and interested members of Congress. I am aware that 
there is a divergence of opinion on this issue. Proponents cite the 
existing limit as an obstacle to further liberalizing U.S. carriers' 
access to foreign markets, while others raise concerns about possible 
impact on our defense posture and other adverse effects. If confirmed, 
I would form an opinion on this important question only after I have 
had an opportunity to make a thorough study of all the relevant issues, 
in consultation with governmental and private-sector stakeholders.

    (d) What are your views on cabotage, and do you believe U.S. air 
carriers would be at an advantage or disadvantage if the Congress 
changed the cabotage laws?
    Answer. This is a fundamental issue for both domestic and foreign 
aviation policy, as well as for the transportation parties concerned. I 
am familiar with the divergence of views in this area. Globalization of 
the airline industry, the growing number of carrier alliances, and 
consolidation concerns, for different reasons, have all spurred calls 
to reevaluate constraints that limit the markets that airlines can 
enter.
    Modifying or removing the cabotage prohibition could result in new 
sources of competition for U.S. aviation consumers and if adopted 
globally, contribute to a more open international aviation regime on a 
worldwide basis. However, there are also important competing factors, 
such as our defense posture, that argue against any change in the 
cabotage prohibition.
    I believe that U.S. airlines have shown both domestically and 
internationally that they are effective, adaptable competitors. I would 
expect such U.S. carrier competition to continue if the cabotage laws 
were changed. However, the specifics of any ``advantage or 
disadvantage'' would also depend on how Congress changed the cabotage 
laws and the international response to the change.

    Question 8. In its January 2001 report on airline competition, the 
Department of Transportation discussed taking aggressive action to open 
up airport facilities to make possible new and increased airlines 
services, and thereby promote competition.

    (a) What actions to open airport facilities do you believe DOT 
could take in order to promote competition?
    Answer. Beginning with Fiscal Year 2001, certain large-and medium-
hub airports must submit competition plans in order for the FAA to 
approve the collection of a new Passenger Facility Charge (PFC) or for 
a grant to be issued under the Airport Improvement Program (AlP). The 
underlying purpose of this statutory requirement--contained in AIR 21 
and based on our report ``Airport Business Practices and their Impact 
on Airline Competition''--is for those airports that are dominated by 
one or two carriers to demonstrate how they will provide for new-
entrant access and expansion of incumbent air carriers.
    To date, DOT has reviewed and provided extensive comments on 38 
competition plans, resulting in airport officials adopting business 
practices that are more ``entry friendly.'' DOT has met with airports 
that have deficient plans to provide them with detailed comments as to 
what actions they need to take to meet their statutory obligations 
regarding the content of the competition plan. Finally, DOT developed 
an ``implementation audit plan,'' required by AIR 21, in light of the 
possible need to take more stringent legal/regulatory actions against 
those airports not meeting their legal obligations.

    (b) In your view, is the perimeter rule at Reagan, National Airport 
an anticompetitive barrier to competition?
    Answer. While a principal tenet of airline deregulation is open 
competition and the elimination of economic restrictions such as the 
perimeter rule, the Department's position has been that modification to 
the perimeter rule at Reagan National Airport should be handled by 
Congress and the local authorities. I agree with that position.

    Question 9. For each of the past four years, DOT has extended the 
current Computer Reservation System (CRS) rules for a year without 
addressing the concerns that it raised about the rules' applicability 
to Internet sales and other issues.

    (a) Do you believe the CRS rules should apply to Internet 
distribution of airline tickets?
    Answer. Because the Department recognizes the importance of the 
question of whether the CRS rules should be applied to the Internet 
sale of airline tickets, the Department asked the parties in its 
pending CRS rulemaking to comment on this issue. I understand that many 
parties submitted comments on this issue which disagree on whether 
regulation is necessary. I have not yet had an opportunity to review 
those comments but would carefully do so before I would advise the 
Secretary on the rulemaking issues.

    (b) When will DOT act to finalize changes to the CRS rules?
    Answer. The Secretary fully recognizes the importance of completing 
the CRS rulemaking. He has instructed the staff to move forward on the 
rulemaking and develop a rulemaking proposal that can be forwarded to 
OMB. If confirmed, I intend to ensure that the staff promptly carries 
out the Secretary's directions.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                            Kirk K. Van Tine
Stabilization Act Compensation Payments
    Question 1. I have been informed that the DOT has provided 
different awards of compensation to comparably situated air carriers. 
Some have suggested that there may be serious flaws in the way the 
compensation payments were administered. At different times, I received 
complaints about the management of the program.

  <bullet> Was any thought given to the need for third party resolution 
        of disputes, or at least their assignment to an Administrative 
        Law Judge.

  <bullet> Do you have any thoughts as to why there have been what seem 
        to be a lot of complaints about the handling of this program?

    Answer. The Department's implementation of the compensation 
provisions of the Air Transportation Safety and System Stabilization 
Act has been based on the language of the statute. In Section 103 of 
the Act, Congress specified that the amount of a carrier's compensation 
was to be the lesser of the amount determined under a market share 
formula, or the amount of the carrier's actual losses due to the 
terrorist attacks. In that same section, Congress also specified that 
the amount paid could not exceed the amount that the carrier could 
demonstrate, to the satisfaction of the President, that it lost due to 
those attacks.
    Under Section 103, if two ``comparably situated'' carriers both 
demonstrated actual losses greater than their market share formula 
amount, then both would be entitled to their formula amount. For 
carriers with comparable market shares, the formula would result in 
comparable compensation for both. However, if one or both carriers 
demonstrated losses less than the formula amount, the amount of 
compensation payable to each might be different, because the carriers 
may have incurred different actual losses as a result of differing 
business structures, different contractual arrangements with customers, 
or other possible factual differences.
    On September 17, 2003, the General Accounting Office issued a 
report on the Department's post-September 11 aviation assistance 
programs. That report included a review of the Department's processes 
and methodology in implementing the compensation program. The GAO 
report contained no adverse findings or recommendations, and indicated 
that DOT's payment methodology conformed to the statutory requirements. 
A copy of that report, GAO-03-1156R, is attached.
    As described in the report, the Department's ``disaster relief 
program was administered by a team of DOT accountants, economists, and 
aviation analysts within the Office of the Secretary with support from 
the Office of the General Counsel and Office of the Inspector General. 
DOT designed and implemented a structured claim review process to help 
ensure that only September 11 losses were compensated. . . . After 
applications were reviewed, carriers received the lesser of allowable 
actual losses related to the terrorist attacks or the market share 
formula amount as specified in the Act.'' GAO Report at 12 (footnote 
omitted).
    In its review, GAO focused on the claims of 14 major carriers, 
including two all cargo carriers, United Parcel Service and Federal 
Express. GAO Report at 19. However, as the report notes, DOT received 
over 450 applications for compensation under the Act. Almost all of 
those claims were resolved to the mutual satisfaction of the carriers 
and the Department. Presently, only three carriers are challenging the 
Department's procedures in court.
    In establishing the procedures for processing claims, the 
Department did give consideration to the issue of how to resolve 
disputes that might arise. Because of the large number of claims that 
were anticipated, and because of the urgent need on the part of the 
carriers to receive payment as quickly as possible, it was determined 
that the best course of action was to process the claims as 
expeditiously as possible under the Department's regulations, to 
attempt to work out any disputed issues with carriers consensually, and 
to ensure that carriers had access to the normal legal process for 
resolving any disputes that remained. The Department believes that that 
process was largely successful, and has resulted in final decisions and 
payments more quickly than referring disputed claims to Administrative 
Law Judges or other forms of dispute resolution, which would insert 
additional intermediate steps in the overall resolution of the issues. 
The Department believes that the added time and expense of such 
intermediate proceedings would have created hardships for affected 
carriers by further delaying final resolution of their claims.
    In the first two weeks after the statute was enacted, the 
Department disbursed approximately $2.3 billion in compensation, and at 
the time, that prompt action was credited in the industry and the press 
with saving many carriers from bankruptcy. Many of the issues that 
subsequently arose were the result of misunderstandings as to the 
information necessary to process claims or the meaning of the statutory 
language, and were resolved through discussions between the carriers 
and the Department. I am aware that Congress has received complaints 
from particular carriers who dispute specific portions of the 
Department's regulations. If confirmed, I would encourage the 
Department to explore the possibility of further discussions with those 
carriers to see whether any of those outstanding disputes can be 
resolved amicably.
Domestic Policy
    Question 2. Congress deregulated the airline industry in 1978, and 
sunset the Civil Aeronautics Board. Access to airports prior to 9-11, 
was a major concern of new entrant carriers. I pushed to open up 
dominant hubs, including requiring airports to file competition plans 
with DOT. I understand the plans were suspended for a time after 9-11.

  <bullet> Is the Department again requiring airports to file these 
        plans?

  <bullet> How would you use this type of information to aid in gaining 
        access for carriers that are not able to obtain gates at 
        dominant hubs?

    Answer. In an October 1, 2001 letter, the Department temporarily 
deferred the filing of competition plans or competition plan updates to 
March 1, 2002, and announced that it would make airport improvement 
program (AIP) and passenger facility charge (PFC) funding decisions 
before May 1, 2002, without regard to the status of the competition 
plan updates. The Department took this action primarily because of the 
immediate need for airports to implement additional security measures 
after the September 11, 2001 terrorist attacks. Following the deferral, 
all covered airports filed plans or plan updates in Fiscal Year 2002 
and in Fiscal Year 2003, in accordance with the Department's filing 
requirements. 49 U.S.C. Sec. Sec. 40117(k), 47106(f); Program Guidance 
Letter (PGL) 03-01.1, Requirement for Airline Competition Plans 
(November 19, 2002).
    A provision in the Aviation and Transportation Security Act that 
would have exempted covered airports from filing competition plans or 
updates if they used their Fiscal Year 2002 PFC or AIP grants to 
improve security was deemed not applicable, because the covered 
airports informed the Department that they did not intend to use 100 
percent of such funds for security projects. Aviation and 
Transportation Security Act, Pub. L. No. 107-71, Sec. 123(a), 115 Stat. 
597, 630-631 (2001) (codified at 49 U.S.C. Sec. 47106(f)(3)).
    In the same Program Guidance Letter, the Department lengthened the 
time period for filing competition plan updates to 18 months from the 
date the Federal Aviation Administration (FAA) approves a plan filing. 
Program Guidance Letter 03-01.1, November 19, 2002. It is my 
understanding that the intent of allowing this additional time period 
was to enable airports to integrate suggested business practices into 
their procedures and to report on the results. The Department continues 
to monitor airport implementation of competition plans throughout this 
period, in accordance with the statutory responsibilities to review the 
plans and their implementation to ensure that each airport successfully 
implements its plan. 49 U.S.C. Sec. 40117(k)(2).
    I believe these plans are useful tools in helping airports analyze 
ways to open their facilities to new entrants and other potential 
competitors. I have been informed that, at each of the 38 airports that 
have filed competition plans and plan updates, concrete actions have 
resulted from the competition plan process, such as review of gate 
leases and subleases, monitoring gate use, appointing new entrant 
liaisons, developing dispute resolution processes, and developing 
fairer and more transparent processes for gate availability 
notification and gate assignment. If confirmed, I would expect the 
Department to continue to work with airports to ensure that meaningful 
competition plans are developed and implemented.
Rulemaking Procedures
    Question 3. Under your tenure as General Counsel, DOT issued four 
rules without notice and comment under the Stabilization Act. In 
another case, DOT was not able to testify because it was in the middle 
of the comment period in a rulemaking proceeding.

  <bullet> What are your views on notice and comment and when is it 
        appropriate to not use the ``normal'' procedures?

  <bullet> When do you believe it is appropriate for DOT to testify 
        when it is engaged in a rulemaking?

    Answer. I strongly believe in the importance of providing an 
opportunity for notice and comment as part of the rulemaking process. 
Having served for two years as General Counsel of the Department, and 
having practiced for 23 years as a lawyer in the private sector, I 
believe I have a good understanding of the requirements of Section 553 
of the Administrative Procedure Act (APA). In general, the APA provides 
for notice and an opportunity to comment before issuing final rules, 
with two important exceptions. First, for certain categories of rules 
defined in law, an advance opportunity for notice and comment is not 
required. Second, when the agency finds ``good cause'' (e.g., an 
emergency or other special circumstances), an advance opportunity for 
notice and comment is not required. The circumstances that could 
constitute good cause vary from case to case, and are generally 
outlined in case law. If the Department cannot provide advance notice 
and an opportunity to comment, and believes comments may provide useful 
information, I strongly believe the Department should provide an 
opportunity for comment after the rule is issued, and give serious 
consideration to those comments.
    In response to the second part of your question, I believe it is 
appropriate for Congress to request and for Departmental witnesses to 
appear before Congressional committees whenever oversight of agency 
action is needed. However, the Department has at times requested that 
Congressional committees consider changes to the form or timing of such 
appearances in order to preserve the legal integrity of matters that 
are pending before the Department. In those instances, the Department 
has attempted to ensure that the potential testimony of Departmental 
witnesses would not violate the various legal requirements that govern 
the rulemaking process, and that participation in the hearing would not 
subject the final rule to legal challenge based on a claim of undue 
Congressional pressure. While it is difficult to generalize, I believe 
those concerns are heightened when the comment period is over, the 
entire rulemaking record has been closed to comments, and the 
Department is in the final, decision making stage of the rulemaking 
proceeding. In the past, after discussions with Committee staff, such 
situations have been resolved cooperatively, and I certainly believe 
the Department should continue to work with Congress in the same way 
when such situations arise in the future.
DHL Citizenship
    Question 4. It took DOT 18 months to complete its citizenship 
review of DHL's October 2000 reorganization. The DOT IG found that 
review inadequate, and DOT has since given the matter to an ALJ, 
allowing less than six months to review DHL's June 2003 reorganization.

  <bullet> Do you believe that the ALJ will have sufficient time to 
        complete a record, adequate for you to review and for the DOT 
        to make a decision in this complex case?

    At the time DOT's handling of the citizenship of DHL Airways was 
under scrutiny by the IG, DOT began an informal review of DHL's 
acquisition of Airborne. However, the IG criticized the lack of 
transparency in DOT's administration of these requirements.

  <bullet> What role did you play as General Counsel in this matter?

  <bullet> What are your thoughts on this matter and what factors will 
        you consider as the Deputy Secretary in reviewing this matter?

    Answer. I am informed that, since referring the matter to an 
Administrative Law Judge, the Department has issued several orders 
granting requests by the ALJ to extend the time for completion of the 
proceeding. The Department's reasoning is set forth in its orders in 
the docketed proceeding. Because the proceeding is still pending before 
the ALJ, and because the issue described in your question has been 
raised as a contested matter in the case, I believe it would be 
inappropriate for me to comment further at this time.
    Under the Department's regulations, the Secretary has delegated 
authority to issue final decisions in such matters to the Assistant 
Secretary for Aviation and International Affairs. The role of the 
Office of General Counsel in such cases is to provide legal support on 
issues of statutory interpretation, such as the meaning of the 
statutory citizenship requirements, and to assist in the review of 
factual information provided to the Department by carriers. As General 
Counsel, my role was to ensure the legal sufficiency of the 
Department's actions. I concluded that, under the Department's existing 
regulations, the Department had complied with all applicable legal 
requirements. The Inspector General's report did not conclude 
otherwise.
    Because the matter is presently pending before an Administrative 
Law Judge, and will be before the Department after the ALJ issues a 
recommended decision, it would be inappropriate to address in this 
response any of the issues that may be presented to the Department for 
final decision. However, the Department's responses to the procedural 
issues raised in the Inspector General's report, and my own views 
regarding the Inspector General's recommendations, are set forth in my 
response to the written questions of Senator Rockefeller, a copy of 
which is attached.
    One of the management responsibilities of the Deputy Secretary 
would be to ensure that the Assistant Secretary for Aviation and 
International Affairs and the General Counsel complete the review of 
the Department's procedures in a timely manner, and to review any 
recommended improvements to the process before they are presented to 
the Secretary for approval. If confirmed, I would ensure that the 
important concerns raised by the Inspector General are thoroughly and 
sufficiently addressed
U.S.-European Union Negotiations
    Question 5. Mr. Lamy has taken a tough stand with respect to 
negotiations with the U.S. over steel and a number of other issues. The 
U.S. is also negotiating with the EU over an aviation pact.

  <bullet> Why should we negotiate with the EU now, given its hard line 
        on other matters?

    Issues under consideration include, apparently, cabotage and 
changes in the foreign ownership laws. The Department apparently has 
already caved to the EU on foreign ownership as it has already asked 
for legislation to change these longstanding laws.

  <bullet> As the Deputy Secretary, and as a long time counsel involved 
        with complex litigation, would it be your position to give away 
        issues under negotiation in advance, or would you choose a 
        different process to negotiate such key issues?

  <bullet> Access to Europe, and particularly London's Heathrow Airport 
        has long been a critical goal of the U.S. Do you still support 
        an opening of Heathrow as a pre-condition to a deal with the 
        EU?

    Answer. In addition to the factors mentioned in your question, it 
is my understanding that the timing of negotiations with the E.U. is 
heavily influenced by the fact that the negotiations could ultimately 
result in substantial potential benefits to U.S. consumers, carriers, 
and communities. These negotiations hold the possibility of creating 
the world's largest open-skies area and, with it, new opportunities for 
economic growth.
    The U.S. and E.U. are still at a preliminary stage in these 
discussions. Once the key issues have been identified, a negotiating 
strategy will be tailored that best serves U.S. goals, including 
enhanced access to European markets (including London Heathrow). The 
Administration's proposal to modify the ceiling on foreign investment 
to 49 percent is not a concession to the EU, but rather is motivated 
independently by a desire to increase the access of U.S. airlines to 
global capital. It is my understanding that the proposal to modify the 
ceiling on foreign investment does not include any change to any of the 
other legal requirements for citizenship, including the actual control 
test. If confirmed, I would ensure that the concerns raised in your 
question would be given serious consideration.
Bipartisan Congressional Oversight
    Question 6. Recently, it was reported that the White House would no 
longer respond to requests from the minority, unless the majority party 
agreed to the request. You have stated in response to several questions 
posed by the Committee that you will cooperate with the Committee in 
providing information to us.

  <bullet> Given the White House position, will you provide information 
        to the minority, when requested and respond expeditiously?

    Answer. I am not aware of the details of the issue described in the 
first sentence of your question. However, I have been informed that the 
Department has not received any instructions to change its longstanding 
policy of cooperation with Congressional requests from both the 
majority and minority. If confirmed, I would expect the Department to 
continue to respond expeditiously to all such requests as in the past, 
whether from majority or minority members.
Air Traffic Control Privatization
    Question 7. It is important that Congress pass H.R. 2115, the FAA 
Reauthorization Conference Report, which authorizes funding for key FAA 
programs over the next several years. The legislation is currently 
being held up from final passage primarily over the issue of 
privatizing our Nation's air traffic control (ATC) system.

  <bullet> Much of the concern in Congress over this matter comes as a 
        result of the Administration's decision to remove the 
        ``inherently governmental'' distinction from the ATC workforce. 
        What role did you play in this decision?

  <bullet> Do you feel that the safety of the ATC system could be 
        impacted if portions are outsourced?

    Answer. On December 18, 2002, Secretary Mineta issued a written 
determination under the Federal Activities Inventory Reform Act of 1998 
(``FAIR'' Act), 31 U.S.C. Sec. 501, finding that the separation and 
control of air traffic is not an inherently governmental function, but 
finding that such services, when provided at FAA's en route and larger 
terminal facilities, are activities that are a core capability of the 
FAA. Services that qualify as core capabilities are not subject to 
being contracted out to the private sector. As General Counsel of the 
Department, my role regarding this issue was to ensure that the 
Department's decisions conformed to the requirements of the applicable 
law. I concluded that the Department's actions were legally correct in 
all respects.
    The Administration has repeatedly stated that it has no immediate 
plans to contract out air traffic services at existing federally 
staffed air traffic control towers. This position was reaffirmed by FAA 
Administrator Blakey as recently as September 24, 2003, in a hearing 
before the House Committee on Transportation and Infrastructure, 
Subcommittee on Aviation, in response to questions.
    I have reviewed the Inspector General's Report, dated September 4, 
2003, entitled ``Safety, Cost and Operational Metrics of the Federal 
Aviation Administration's Visual Flight Rule Towers,'' and in 
particular the portion of the report entitled ``Safety'' at pages 6-7. 
I have no basis on which to disagree with the conclusions set forth in 
the report. I have been assured by the FAA that it closely oversees the 
existing contract tower program. It is also my understanding that 
contract towers are staffed by qualified controllers who hold the same 
certification as FAA's federally employed controllers. If confirmed, I 
would expect the FAA to continue to assess and monitor the safety 
impacts of its actions in this area.
                                 ______
                                 
                    United States General Accounting Office
                                 Washington, DC, September 17, 2003

Congressional Requesters

Subject: Aviation Assistance: Information on Payments Made Under the 
            Disaster Relief and Insurance Reimbursement Programs

    As a result of the September 11, 2001, terrorist attacks on the 
United States, the airline industry incurred significant losses 
resulting from the temporary shutdown of the Nation's airspace and 
passengers' apprehensions about flying following the attacks. The Air 
Transportation Safety and System Stabilization Act \1\ (the Act) 
provided, among other things, $5 billion in emergency assistance to 
compensate air carriers for their direct and incremental losses 
stemming from the attacks. The Act also authorized the Department of 
Transportation (DOT) to reimburse air carriers for increases in their 
insurance premiums.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 107-42, 115 Stat. 230 (2001).
---------------------------------------------------------------------------
    On September 28, 2001, we completed and briefed you on the first 
phase of the work you requested, concluding that there was a reasonable 
basis to assume that the airlines' financial losses related to 
September 11 would exceed the $5 billion made available in the Act.\2\ 
Since then and pursuant to the second part of your request, we 
monitored DOT's progress in administering the disaster relief and 
insurance reimbursement programs and provided periodic status updates 
to your offices.
---------------------------------------------------------------------------
    \2\ The briefing slides and a summary of our analysis were included 
in our October 5, 2001, correspondence to you. See GAO-02-133R 
Financial Management: Assessment of the Airline Industry's Estimated 
Losses Arising From the Events of September 11.
---------------------------------------------------------------------------
    On September 3, 2003, we provided our final briefing addressing the 
second aspect of your request. Specifically, for the $5 billion 
disaster relief program, we discussed the process DOT employed to help 
ensure that the payments it made were only for the direct and 
incremental losses stemming from the terrorist attacks. We also 
provided information about the losses claimed by the major air carriers 
and payments made by DOT to these carriers and others that applied for 
assistance. For the insurance reimbursement program, which was 
administered by the Federal Aviation Administration (FAA), we discussed 
the process FAA used to determine and reimburse air carriers for 
insurance premium increases resulting from the September 11, 2001, 
disaster. We also provided information on the total payments made under 
the program. Finally, we discussed FAA's expanded in-house aviation 
insurance program and the potential impact to the Federal Government. 
The briefing slides, which provide more detail on our analysis, are 
enclosed.
Results in Brief
    DOT designed and implemented a structured claim review process to 
help ensure that the $5 billion in disaster relief funds were used only 
to compensate carriers for their September 11 related losses. A team of 
DOT accountants, economists, and aviation analysts with support from 
the department's Offices of the General Counsel and the Inspector 
General administered the disaster relief program, reviewed carriers' 
loss claims, and determined carriers' allowable September 11 related 
losses. As specified in the Act, each carrier was compensated the 
lesser of allowable actual losses or the market share formula 
amount.\3\ The major air carriers claimed losses of $5.6 billion 
related to the terrorist attacks. These carriers have been paid $4.1 
billion or 88 percent of the total $4.6 billion distributed. As of 
August 26, 2003, DOT reported that most air carriers had received their 
final payments pursuant to this program, although a small number of 
claims remained open due to unresolved issues. All the major carriers 
except Federal Express have received their final payment. Federal 
Express has an administrative appeal and a lawsuit pending with regard 
to its payment.
---------------------------------------------------------------------------
    \3\ The formula amount is calculated by dividing the carrier's 
available seat miles (ASMs) or revenue ton miles (RTMs) by the universe 
of ASMs/RTMs (a reflection of market share) multiplied by available 
compensation.
---------------------------------------------------------------------------
    Overall, the major carriers recovered approximately 73 percent of 
their claimed losses, although 8 of the 14 major carriers had all their 
September 11 losses compensated. The remaining 6 carriers' losses were 
only partially compensated because their allowable September 11 losses 
exceeded the amount determined by applying the market share formulae 
prescribed in the Act. Industry wide, 355 of the total 448 applicants 
receiving assistance were paid based on the formula. Because 93 
carriers had actual losses less than their formula amount, DOT will not 
distribute the entire $5 billion provided in the Act. DOT advised the 
Congress of this fact and in February 2003 the Congress rescinded $90 
million.\4\ DOT officials plan to return any remaining unused funds to 
the Treasury upon the completion of the program.
---------------------------------------------------------------------------
    \4\ Public Law 108-7, sec 333, 117 Stat. 414 (2003)
---------------------------------------------------------------------------
    With regard to the insurance reimbursement program, the FAA 
implemented a systematic review process to determine the increases 
carriers experienced in their war risk insurance premiums following the 
terrorist attacks and to reimburse the carriers accordingly.\5\ FAA 
utilized insurance providers' invoices to substantiate the premiums 
being charged immediately before September 11 and to evidence premium 
increases following September 11.\6\ For each of the major air 
carriers, we verified FAA's reimbursement determinations by 
independently recalculating these amounts. In total, 183 carriers were 
reimbursed $68 million for their increased insurance costs. The major 
carriers received $58 million, or 85 percent, of this total.
---------------------------------------------------------------------------
    \5\ War risk insurance provides coverage to carriers for losses 
resulting from war, terrorism, or other hostile acts. These policies 
typically provide coverage for the aircraft and liability.
    \6\ The Act specified insurance increases were to be measured 
against the rates in effect during the period September 4-10, 2001.
---------------------------------------------------------------------------
    Soon after the terrorist attacks, insurance providers generally 
cancelled carriers' war risk insurance coverage but then offered to 
reinstate the policies at a substantially higher cost and with reduced 
coverage limits. For the major carriers combined, the total annual cost 
for war risk coverage jumped from approximately $12 million prior to 
the attacks to more than $700 million immediately afterwards. This led 
to the Secretary of Transportation's determination that war risk 
insurance was not available commercially on reasonable terms and 
conditions and thus FAA was authorized to begin temporarily selling war 
risk coverage to air carriers operating domestic flights. Under current 
legislation, FAA may continue to provide war risk coverage through 
August 2004 with a possible extension through December 2004. In its 
2003 Accountability Report, FAA reported that it had extended $113 
billion in coverage to 71 carriers, thereby increasing the Federal 
Government's risk exposure. Meanwhile, air carriers have begun to 
explore other options including a risk retention group to provide more 
affordable coverage in anticipation of FAA's offering of war risk 
insurance terminating in 2004.
Scope and Methodology
    Our review primarily focused on the major air carriers. DOT defines 
a major carrier as an air carrier whose annual operating revenue 
exceeds $1 billion. To achieve our objectives we performed various 
procedures, which are described in detail in Appendix I of the enclosed 
slides. We did not audit the major air carriers or the underlying 
records supporting the claims for disaster relief payments. Also, we 
did not assess the reasonableness of the pre- or post-September 11 
premiums charged to carriers for war risk insurance coverage. We 
conducted our review from September 2001 through August 2003 in 
accordance with generally accepted government auditing standards.
Agency Comments
    We requested comments on a draft of these briefing slides from the 
Secretary of Transportation or his designee. On August 26, 2003, DOT 
provided us with oral comments expressing the department's general 
agreement with the facts presented. DOT provided some technical 
comments, which we incorporated as appropriate.
    As agreed with your offices, unless you publicly announce the 
contents of this report earlier, we plan no further distribution until 
30 days from its date. At that time, we will send copies to the 
Secretary of Transportation, the Administrator, Federal Aviation 
Administration, and interested congressional committees. We will also 
provide copies to others on request. The report will also be available 
at no charge on the GAO website at http://www.gao.gov.
    If you have any questions about this report, please contact me at 
(202) 512-9508, or Phillip McIntyre, Assistant Director, at (202) 512-
4373. You may also reach us by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a595b56585557567a5d5b55145d554c">[email&#160;protected]</a> or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="98f5fbf1f6ece1eafde8d8fff9f7b6fff7eeb6">[email&#160;protected]</a> Other key contributors to this assignment were 
Jeffrey Jacobson, Ruth Walk, and Doris Yanger.
                                              Linda Calbom,
                      Director, Financial Management and Assurance.
Enclosure
List of Requesters
The Honorable Robert C. Byrd
Ranking Minority Member
Committee on Appropriations
United States Senate

The Honorable Ernest F. Hollings
Ranking Minority Member
Committee on Commerce, Science, and Transportation
United States Senate

The Honorable John D. Rockefeller IV
Ranking Minority Member
Subcommittee on Aviation
Committee on Commerce, Science, and Transportation
United States Senate

The Honorable Ron Wyden
United States Senate

The Honorable Lloyd Doggett
House of Representatives
                               Enclosure
                               
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            

   n Tine
    Question 1. One of the big issues facing Congress and the 
Department involves the future of Amtrak. Last summer the 
Administration issued proposed legislation, introduced by request by 
Sen. McCain, which would turn over most of the responsibility of paying 
for passenger rail service to the financially-strapped states. No one I 
know thinks this bill has much merit. I know of no one in Congress who 
likes it; the industry does not like it; Amtrak does not like it; and 
of course, the states especially don't like it. You were DOT's general 
counsel when this legislative proposal was being developed. Now you are 
a candidate to be the Department's #2 leader. As Deputy Secretary, what 
will you do about this proposed legislation that has had such a 
negative reception?
    Answer. If confirmed, I would work with the Secretary and the 
Federal Railroad Administration to open a dialogue with Congress, the 
States and other stakeholders to explore the aspects of the 
Administration's proposal that most concern those who do not support 
it. While the Administration's legislative proposal is one way to 
accomplish the needed reform of intercity passenger rail service, it is 
not the only way. The Administration proposal is a conceptually sound 
and thoughtful attempt to address the serious problems confronting 
Amtrak today, and it can prompt innovative solutions in areas where the 
current approach shortchanges commuters and intercity travelers, as 
well as affected States, employees, and other stakeholders. If 
confirmed, I would look forward to discussing alternative approaches to 
reform that would be consistent with the five principles the Secretary 
set out in June 2002.

    Question 1a. What other mechanism do you see within the Federal 
Government to raise the adequate funds needed to cover the capital 
backlog on the Northeast Corridor, the infrastructure improvements for 
high speed rail in new corridors and improvements to services currently 
operated by Amtrak?
    Answer. The Administration is committed to continued support of 
intercity passenger rail and continues to believe that Federal funding 
will be necessary in the future. While the Administration's legislative 
proposal establishes a framework in which Federal support would be 
provided for capital projects, the framework set out in the 
Administration's proposal is flexible enough to accommodate and 
encourage other forms of financing. For example, more than 10 States 
currently contribute financial support towards Amtrak's operating costs 
or capital improvements, or both. If service on the Northeast Corridor 
and elsewhere were more tailored to State and regional needs, and if 
weaknesses in accounting and financial reporting, internal controls, 
and operational efficiency were addressed, it is possible that more 
States would agree to provide financial support for intercity passenger 
rail service.

    Question 2. As Congress works on appropriations for the next year, 
it appears that Amtrak will be forced to limp along for yet another 
year. The Senate has approved $1.35 billion for Amtrak, which is $350 
million less than Amtrak says it will need. The House has approved only 
$900 million. As Deputy Secretary of DOT, you may be asked to serve as 
the Secretary's representative on the Amtrak Board of Directors. What 
do you believe you could do as a member of the Amtrak Board to ensure 
that the railroad gets enough funding to improve its fiscal health, 
infrastructure, and performance?
    Answer. The most important way to assure that Amtrak gets the 
funding it needs is to establish a level of confidence and trust that 
Amtrak has become a well-run, soundly managed business operation. 
Presently, there appears to be widespread skepticism that Amtrak spends 
the taxpayers' money efficiently and wisely. That skepticism must be 
addressed with results. While Amtrak's management has made great 
strides over the past two years, the Board is really the only body that 
can ensure that Amtrak improves its financial accounting and project 
management, and ensure that Amtrak gives accurate information to 
Congress about the costs and benefits of providing particular services. 
The individual Board members must be willing to work collaboratively 
with Amtrak's management and devote sufficient time to their duties to 
ensure that Amtrak is as efficient as possible in providing intercity 
passenger rail services.

    Question 3. As a nation, we have provided funding for highways 
since the 1950s at an 80 percent Federal share or better. We have 
provided funding for transit systems for several decades at an 80 
percent Federal share by law, although this Administration is pushing 
down the Federal match to 50 percent in some areas. We have provided 
funding for the aviation system for airport improvements at 80 percent 
Federal share or better, for air traffic control operations, for 
security, and for bailouts. Do you think we should continue to 
perpetuate this bias against investment in our passenger rail system?
    Answer. Currently, unlike intercity passenger rail, highway and 
airport capital funding is largely financed through excise taxes on 
users of those facilities, and some state matching funds are required. 
Without imposing new taxes, the Administration proposal advocates a 
mechanism similar to the mechanisms that presently exist for funding 
public transit infrastructure projects. Funding responsibility for 
capital projects would be shared between the Federal Government and the 
affected jurisdiction, in the same manner as the Administration 
proposes for transit new starts in SAFETEA.

    Question 3a. What about investment in freight rail projects that 
show a clear public benefit? For example, we are looking at the 
nationally significant project in Chicago that involves freight, 
commuter, intercity passenger rail, as well as state and local 
infrastructure improvements affecting highway safety and mobility. What 
is the avenue to address such investment and what role should the 
Federal Government play?
    Answer. The Department has two financial programs that can assist 
freight rail projects that show a clear public benefit. The Railroad 
Rehabilitation and Improvement Financing program (RRIF) can provide 
loans at the cost of money to the government for terms up to 25 years 
for any rail project. The Transportation Infrastructure Finance and 
Innovation Act program (TIFIA) proposed in SAFETEA can provide Federal 
financial assistance to large projects that include intercity passenger 
rail facilities and freight rail projects. It is my understanding that 
none of the larger freight railroads have requested Federal assistance 
to date, and that some of those railroads have expressed opposition in 
the past to Federal assistance. I also understand that some of the 
larger railroads are now reconsidering participating in projects that 
have both public and private benefits, with the Chicago project being 
an excellent example. I believe the Department should be willing to 
work with all of the interested parties to identify the appropriate 
role for the Federal Government in helping realize the benefits these 
projects can yield.

    Question 4. This year, the Administration proposed that Congress 
appropriate $900 million for Amtrak, and $303 million for Iraq's 
railroads. I find it somewhat ironic that the Administration believes 
we should spend $303 million for the railroads in a country the size of 
California, but then proposes to strike a fatal blow to its own 
national passenger rail system by reducing its funding to half of what 
it needs for the coming year. Do you think this proposal is indicative 
the Administration's commitment to passenger rail in the United States?
    Answer. The Administration is firmly committed to the continuation 
of intercity passenger rail service. While the Administration believes 
that the current business model for providing that service is flawed, 
it has consistently said that it would support a substantial Federal 
investment if the business model is reformed. Over the past few years, 
Secretary Mineta has taken extraordinary measures to keep the present 
system solvent while attempting to achieve a consensus on a model that 
can work over the long term. For example, in 2001, Secretary Mineta 
reluctantly allowed Amtrak to mortgage its rights to use Pennsylvania 
Station in New York City. Similarly, in 2002, he granted a $100 million 
loan to Amtrak under the RRIF program. Without either of those actions, 
Amtrak may well have had no alternative but bankruptcy.

    Question 5. I have noticed in the past few years that communication 
between the DOT and Congress has deteriorated. My staffers find it 
increasingly difficult to acquire information from the Department 
concerning rulemakings and legislation under development. Frequently, 
DOT places the blame on OMB for its inability to share information. 
What can you do as Deputy Secretary to improve the channels of 
communication between the Department and the Congress?
    Answer. As General Counsel, one of my priorities was to respond 
promptly to Congressional requests for technical assistance and other 
information. In most cases, I was able to provide the requested 
assistance with minimal delays. Occasionally, however, the Department 
is unable to respond to questions concerning its position on pending 
rulemaking or legislative proposals because they are already in the 
formal clearance process. If confirmed, I would try to establish a 
regular, continuing dialogue to address issues of concern and get 
feedback on potential solutions before commencing the formal process. I 
would expect the Department to continue to respond expeditiously to 
most requests as in the past.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Kirk K. Van Tine
    Question 1. I was deeply disappointed by the Department of 
Transportation's (DOT) decision regarding the citizenship and control 
of DHL Airways. Given the precedent setting nature of this case, I find 
the DOT's actions in general and Mr. Van Tine's in particular in this 
matter troubling, and I am requesting that Mr. Van Tine resolve some 
outstanding questions that I have about it.
    In the DOT's letter to me of May 7, 2002, then DOT-Assistant 
Secretary Van de Water explained that the Department of Transportation 
has concluded its investigation into the citizenship and control of DHL 
Airways. However, DOT did not lay out in any detail how the Department 
reached its conclusion.
    On what legal grounds did DOT determine that DHL was a U.S. 
citizen?
    Answer. It is my understanding that the views described in the 
Assistant Secretary's letter of May 7, 2002, were based on the 
information presented to the Department at that time and the 
application of the statute governing citizenship determinations in 49 
U.S.C. Sec. 40102(a)(15), and the past administrative decisions of the 
Department and the Civil Aeronautics Board applying the statutory 
tests. The Department initially was presented with this issue as a part 
of the routine continuing fitness review resulting from a change in DHL 
Airways (``DHL,'' now ASTAR) ownership. Under the Department's rules, 
such reviews are handled informally. See 14 C.F.R. Sec. 204.5(c). The 
purpose of the informal continuing fitness review process is to 
determine whether, based on the information provided, an on-the-record 
docketed proceeding should be instituted by the Department. In this 
case, in addition to DHL, both UPS and FedEx met with and provided 
information to Department staff.
    The Department's informal review was completed in May 2002 with a 
conclusion that, based on the information available, the Department did 
not believe there was a sufficient reason to institute a formal 
proceeding. Several interested parties subsequently requested such a 
proceeding by filing formal petitions challenging DHL's citizenship. In 
August 2002, the Department consolidated those petitions into a single 
docket (OST 2002-13089). The Department has not yet made a final 
determination in that proceeding as to DHL's citizenship.
    In the Emergency Wartime Supplemental Appropriations Act, 2003 
(April 16, 2003), after formal, on-the-record proceedings were under 
way, Congress enacted a provision directing the Secretary to use an 
Administrative Law Judge to resolve the issues in Docket OST 2002-
13089. The next day, in compliance with that provision, by order of the 
Assistant Secretary for Aviation and International Affairs dated April 
17, 2003, the matter was referred to an Administrative Law Judge. On 
October 15, the hearing before the Administrative Law Judge was 
concluded, and his recommended decision is due January 2, 2004. After 
it is issued, the Department's regulations provide for discretionary 
review. See 14 C.F.R. Sec. 302.32. If reviewed by the Department, the 
decision will either be adopted, reversed, or remanded. After the 
Department issues its final decision, any aggrieved party may file a 
petition for judicial review in the U.S. Court of Appeals.
    The final resolution of the matter will depend on an analysis of 
the evidence presented in the proceeding and, as previously noted, the 
application of the statute governing citizenship determinations in 49 
U.S.C. Sec. 40102(a)(15), and the past administrative decisions of the 
Department and the Civil Aeronautics Board applying the statutory 
tests. Because the issue of the precise legal and factual tests that 
should be used in determining citizenship is among those pending in the 
present proceeding before the ALJ, it would be improper for me to 
comment further on that issue here. The legal grounds for the 
Department's final action in this matter will be set forth in the 
Department's decision on the ALJ's recommended decision.

    Question 2. It is my understanding that the General Counsel's 
office would normally make this decision. Why did Mr. Van Tine refer 
this matter to the Office of the Assistant Secretary for Aviation and 
International Affairs?
    Answer. As explained above, the citizenship review described in 
your question was a part of an informal continuing fitness review 
occasioned by the change in ownership of DHL Airways (``DHL,'' now 
ASTAR). That type of review is conducted pursuant to the Department's 
statutory authority to regulate limited aspects of airline economic 
matters, set forth in 49 U.S.C. Subtitle VII, Part A. In regulations 
dating from the transfer of the duties of the Civil Aeronautics Board 
to the Department in 1985, the Secretary of Transportation has 
delegated to the Assistant Secretary for Aviation and International 
Affairs (not the General Counsel) the responsibility and authority 
within the Department to make decisions in such matters. See 49 C.F.R. 
Sec. 1. The Office of General Counsel provides legal support on issues 
of statutory interpretation, such as the meaning of the statutory 
citizenship requirements, and assists in the review of factual 
information provided to the Department by carriers. As General Counsel, 
my role was to ensure the legal sufficiency of the Department's 
actions, and I concluded that those actions were in compliance with all 
applicable statutes and regulations.

    Question 3. In the citizenship determination proceedings, DOT 
officials had several ex parte communications with DHL Airways, which 
is appropriate provided DOT disclosed this or announced that they were 
waiving the disclosure policy. Did DOT disclose these ex parte meetings 
or seek a disclosure waiver? If not, why not?
    Answer. As explained above, the original review, begun in the fall 
of 2000, was a part of the continuing fitness review that was triggered 
under the Department's regulations by the proposed change in ownership 
of DHL Airways (``DHL,'' now ASTAR) in 2000. See 14 C.F.R. Sec. 204.5. 
Continuing fitness reviews, including those involving citizenship, are 
not on-the-record proceedings under the Department's existing 
regulations. See 14 C.F.R. Sec. 204.5(c). Rather, since the days of the 
Civil Aeronautics Board, they have been handled as informal reviews 
under the Department's rules, through meetings with and information 
requests to carriers in which proprietary and business confidential 
information is considered by the Department. In that kind of 
investigation, the ex parte rules do not apply. See 14 C.F.R. Part 300.

    Question 4. I have been briefed by the DepartmentSec. s Inspector 
General team that was asked by the House Transportation Committee to 
investigate how this case was handled. They have found that this case 
was handled in an ad hoc, informal, closed way; that the policy-level 
leadership of the Department was not intimately involved in the 
decisions regarding this case; and that the input from, and information 
to, other affected parties to this case was limited. Does Mr. Van Tine 
agree with the IG's assessment of how this case was handled?
    Answer. While I believe that the Department's procedures for 
handling this case complied with all applicable legal requirements, I 
also believe that the procedures for resolving citizenship issues 
should be reviewed in light of the Inspector General's report, and that 
the recommendations in the report and the comments received by the 
Department should be given serious consideration.
    After meeting with the Inspector General to discuss his findings 
regarding this matter, I advised the Assistant Secretary for Aviation 
and International Affairs that the Inspector General's procedural 
recommendations should be given serious consideration. On March 5, 
2003, the Department issued a Notice Requesting Comments on the 
Inspector General's Report. That Notice was filed in the pending 
docketed proceeding regarding DHL's citizenship. Subsequently, on July 
30, 2003, the Department published an Advance Notice of Proposed 
Rulemaking requesting comments, in general, on the procedures for 
reviewing citizenship cases. The comment period closed on September 29, 
2003. The Department received comments from 10 parties. The Department 
is currently in the process of evaluating those comments and 
determining the best way to make the citizenship review process more 
open and transparent.

    Question 5. Will Mr. Van Tine be implementing the IG's 
recommendations?
    Answer. One of the management responsibilities of the Deputy 
Secretary would be to ensure that the Assistant Secretary for Aviation 
and International Affairs and the General Counsel complete the review 
of the Department's procedures in a timely manner, and to review any 
recommended improvements to the process before they are presented to 
the Secretary for approval. If confirmed, I would ensure that the 
important concerns raised by the Inspector General are thoroughly and 
sufficiently addressed.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                            Jeffrey A. Rosen
    Question 1. You have a lot of experience in the private sector 
managing large groups of lawyers, which makes you qualified to be DOT 
General Counsel in one sense. However, your experience working with 
transportation issues is rather limited. How do you propose to bring 
yourself ``up to speed'' on the many diverse transportation issues now 
at hand, and particularly with respect to the reauthorization of TEA-21 
legislation which should happen early next year?
    Answer. I recognize that the Department addresses a wide range of 
diverse transportation issues, including those involving maritime, 
highway, railroad, transit, trucking, motor vehicle safety, hazardous 
materials, aviation, and others. Since it would be a rare lawyer who is 
expert in all of those areas, additional preparation to gain an in-
depth understanding of the full range of transportation issues is 
obviously necessary. I have started the process and will continue 
getting ``up to speed'' by focusing on the operative statutes enacted 
by Congress, meeting with various officials throughout the Department 
to gain an understanding of the issues they confront, attending 
meetings in an observer role, studying the status of various regulatory 
processes, and more generally by looking for ways to listen and learn 
as extensively as possible--both within DOT and externally. While I 
cannot currently participate in the Department's decision-making, I am 
focusing on identifying the current legal issues confronting the 
Department and its operating administrations, so that if confirmed I 
would be well-prepared to act as the Department's Chief Legal Officer. 
I believe that my background as a litigator is well-suited to this 
task, because the preparation required in this instance is similar to 
that needed with respect to learning the legal framework applicable to 
a variety of lawsuits in which some involve previously-known subject 
areas and some do not.
    If I am confirmed, I would also look forward to participating in 
the shaping of transportation legislation that is consistent with the 
Secretary's Strategic Plan. I am currently in the process of reviewing 
the legislative proposals that have been made by the Secretary, 
including the SAFETEA proposal, and I hope to be able to play a role in 
helping the Secretary and the Congress achieve a long-term 
reauthorization, if I am confirmed by the Senate.

    Question 2. What do you see as your role within DOT with respect to 
working with the Department's policy-makers? Will your role be limited 
to that of legal advisor to the ones setting Departmental policy, or 
will you have a direct role in writing transportation policy yourself?
    Answer. As I see it, the primary responsibility for transportation 
policy rests with the Secretary, and ultimately with the President and 
the Congress. Within the Department of Transportation, the Deputy 
Secretary, the Under Secretary of Transportation for Policy, the 
Administrators, and others obviously have a major role to play in 
policy matters.
    The General Counsel has the responsibilities specified in 49 C.F.R. 
Sec. 1.23(c). The Department's own rules expressly identify the General 
Counsel as the ``final authority within the Department on questions of 
law.'' The General Counsel participates in matters involving 
rulemaking, litigation, international negotiations, and legislation, 
among other things. It is therefore a broad role that involves serving 
the Secretary and the President as the Chief Legal Officer of the 
Department of Transportation. From my discussions to date with 
Secretary Mineta, I anticipate that I will participate broadly as a 
legal advisor if I am confirmed by the Senate.

    Question 3. As you know, one of the big issues facing Congress and 
the Department involves the future of Amtrak. There are a number of 
bills pending in Congress now, including one proposed by the 
Administration and introduced by request by Sen. McCain. All of the 
bills propose substantial changes intended to improve Amtrak's 
performance, fiscal health, and infrastructure. However, the bills take 
very different approaches in attempting to achieve those improvements. 
What do you believe the Federal Government's role should be in making 
the very needed improvements to Amtrak?
    Answer. At the risk being overly simplistic, the Federal Government 
has a vital role in making improvements to Amtrak, because Amtrak is an 
entity with directors appointed by the President, and with substantial 
Federal funding. My own experience with Amtrak to date is largely 
limited to experience as a passenger, but I agree with Secretary 
Mineta's statements that the Federal Government has a substantial 
interest in the development of ``a truly healthy and viable national 
passenger rail system.'' One important aspect of intercity passenger 
rail transportation should be ensuring that its benefits in addressing 
transportation congestion are integrated with the other modes of 
transportation. The fact that several proposals are before Congress at 
this time speaks to the elemental issue--the need to adopt a model for 
intercity passenger rail that is in tune with current realities. I am 
in the process of studying the current situation and the pending 
proposals, and if confirmed would look forward to assisting the 
Secretary in advancing a practical solution that well-serves the 
American people.

    Question 4. Some of the modal administrations within DOT, most 
notably the Federal Motor Carrier Safety Administration, are very late 
in issuing regulations which the Congress has directed them to do. What 
will you do as General Counsel to see that the overdue rulemakings are 
issued? What will you do to improve the timeliness of the various 
administrations in issuing new rulemakings?
    Answer. From what I have learned to date, Secretary Mineta has made 
it a priority for the Department to complete its rulemakings in a more 
timely and expeditious way than in the past, and steps were taken 
during the last two years to pursue that objective. In October 2002, 
the Department implemented a new rulemaking tracking system, which 
appears to be very helpful. Using this available tracking mechanism, 
the General Counsel can assist in ensuring that priorities and 
schedules are established, and can monitor the progress. The Office of 
General Counsel can also provide training to participants in the 
rulemaking process, and can continue to encourage those responsible for 
various rules to pursue them efficiently and on time--especially where 
Congress has established a deadline for action or has otherwise 
stressed the need to act quickly. If I am confirmed, I will work with 
knowledgeable individuals within the Department who have in-depth 
experience, including in particular the Deputy General Counsel and the 
Assistant General Counsel for Regulations and Enforcement, as well as 
others within the Department and the operating Administrations, to 
continue to make progress in improving the rulemaking process.

                                  [all]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
